<html>
<title> - LESSONS FROM THE FIELD: LEARNING FROM WHAT WORKS FOR EMPLOYMENT FOR PERSONS WITH DISABILITIES</title>
<body><pre>[Senate Hearing 112-816]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-816

  LESSONS FROM THE FIELD: LEARNING FROM WHAT WORKS FOR EMPLOYMENT FOR 
                       PERSONS WITH DISABILITIES

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING LEARNING FROM WHAT WORKS FOR EMPLOYMENT FOR PERSONS WITH 
                              DISABILITIES

                               __________

                             JULY 14, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE

85-221 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      

                    Daniel E. Smith, Staff Director
                  Pamela Smith, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)










                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 14, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    14
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    29

                            Witness--Panel I

Martinez, Hon. Kathy, Assistant Secretary of Labor, Office of 
  Disability Policy, U.S. Department of Labor, Washington, DC....     5
    Prepared statement...........................................     8

                          Witnesses--Panel II

Ridge, Governor Tom, Chairman, National Organization on 
  Disability, Washington, DC.....................................    15
    Prepared statement...........................................    19
Dagit, Deborah, Vice President and Chief Diversity Officer, 
  Merck, Whitehouse Station, NJ..................................    30
    Prepared statement...........................................    32
Wallrich, Amelia, Law Student, Northwestern University, 
  Frankfort, IL..................................................    39
    Prepared statement...........................................    41

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    The Corporation for Enterprise Development (CFED), letter....    53
    Response to questions of Senator Enzi by:
        Hon. Kathy Martinez......................................    54
        Governor Tom Ridge.......................................    59
        Deborah Dagit............................................    69
        Amelia Wallrich..........................................    70
    Response to questions of Senator Casey by Governor Tom Ridge.    62

                                 (iii)



 
  LESSONS FROM THE FIELD: LEARNING FROM WHAT WORKS FOR EMPLOYMENT FOR 
                       PERSONS WITH DISABILITIES

                              ----------                              


                        THURSDAY, JULY 14, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Casey, Blumenthal, and Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    The title of this hearing is ``Lessons From the Field: 
Learning What Works for Employment for Persons with 
Disabilities.'' The purpose of today's bipartisan hearing is to 
learn from a diverse group of witnesses about proven strategies 
that have a positive impact on employment outcomes for all 
people with disabilities, including young adults and veterans.
    Later this month, we'll mark the 21st anniversary of the 
signing of the Americans With Disabilities Act, landmark 
legislation that made our country more accessible, that raised 
the expectations of people with disabilities and their families 
about what they can hope to achieve at work and in life, and 
inspired the world to view disability issues through a human 
rights frame and not simply through a medical or a charity 
model.
    The ADA stands for the proposition that disability is a 
natural part of the human experience that in no way should 
limit a person's right to fully participate in all aspects of 
society, including employment. Thanks to the ADA, our built 
environment and our transportation and telecommunications 
infrastructures are dramatically more welcoming to people with 
disabilities. Yet, notwithstanding the many improvements that 
have been brought by the ADA, the sad reality is that people 
with disabilities still experience discrimination and encounter 
low expectations as they engage in the workforce.
    As we enter the third decade since its passage, I believe 
that one of the critical challenges we still need to tackle is 
the persistently low employment rates among Americans with 
disabilities. In 2008, the Bureau of Labor Statistics began 
collecting monthly statistics that help us track the workforce 
participation of Americans with disabilities. As of June 2011, 
less than a third of working-age people with disabilities were 
participating in the labor force.
    The disability labor force, which includes people with 
disabilities who are either working or actively looking for a 
job, was a little over 5 million. Last April, at a disability 
employment summit hosted by the U.S. Chamber of Commerce and 
the U.S. Business Leadership Network, I challenged the employer 
representatives in the room to work to increase the size of the 
disability labor force to 6 million by 2015. Later that week, 
in a piece he wrote for The Examiner, Mr. Tom Donahue from the 
Chamber endorsed the goal, encouraged his colleagues to meet or 
exceed the 6 million number because, ``It's a good thing to do 
and it's good for business.''
    If we're going to get serious about the growing size of the 
disability workforce, we need to start by recognizing that 
people with disabilities have been disproportionately impacted 
by the bad economy. Compared to the general workforce, in the 
last 2 years adults with disabilities have left the labor force 
at a rate six times the rate of adults without disabilities. 
Today's hearing creates an opportunity for us to have a 
discussion about how to turn that trend around.
    At a hearing in March we learned about Walgreens' public 
commitment that at least 20 percent of the workers in their 
distribution centers will be workers with disabilities. As 
Governor Ridge notes in his written testimony for today's 
hearing, a number of companies have been inspired by Walgreens' 
example and have begun their own targeted hiring programs.
    But employment is not just about labor statistics. Work 
helps all of us, including people with disabilities, create 
structure and meaning in our lives and provides real 
opportunities to be full participants in our society and to 
access the American dream.
    We have a very distinguished panel today. First, Ms. Kathy 
Martinez, the Assistant Secretary for the Office of Disability 
Employment Policy at the Department of Labor; and then next 
we'll hear from former Governor Tom Ridge and former first 
Secretary, as we know, of the Department of Homeland Security, 
who's been a champion for disability employment in the public 
and private sectors; Deborah Dagit, vice president and chief 
diversity officer at Merck; and a young woman with a disability 
who is at the beginning of what I'm sure will be a successful 
career, Amelia Wallrich.
    Our goal is to ensure that all individuals with 
disabilities have similar opportunities for careers that meet 
their goals, interests, and high expectations.
    Before we move on to our first witness, I want to 
acknowledge the many folks in the room and I guess in a 
spillover room who are in town for the National Council on 
Independent Living's national conference. NCIL, as it's known, 
is a great grassroots organization that is making a real impact 
in improving the quality of life of people with disabilities 
all over the country, and I appreciate NCIL's commitment to 
improving employment outcomes for people with disabilities as 
part of their work to promote independent living.
    Now I want to also take a moment to thank my colleague and 
the Ranking Member on this committee, Senator Enzi, for his own 
commitment and long-time leadership, both as Ranking Member and 
when he was chairman of this committee, on these issues. So now 
I turn to him for his opening statement.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, for holding this 
hearing. I know it's something near and dear to your heart, 
that you've been involved in for a long time and made some 
great inroads on. I appreciate the way that you and your staff 
have again involved my office in an effort to have a truly 
bipartisan hearing and assembled an excellent set of witnesses 
who can share their perspectives on this important issue.
    I also want to thank today's witnesses for agreeing to 
appear and share their views on how to increase workplace 
opportunities for individuals with disabilities. Each of you 
brings unique personal experiences and professional expertise 
that will greatly benefit this committee as we proceed with the 
reauthorization of the relevant Federal legislation, such as 
the Work Force Investment Act, which includes the Vocational 
Rehabilitation Act, the Elementary and Secondary Education Act, 
and the Individuals with Disabilities Education Act.
    Taken together, these three pieces of legislation serve as 
the foundation for the Federal Government's efforts to improve 
the educational and workplace prospects of individuals with 
disabilities. Although significant advances have been made as a 
result of these pieces of legislation, wonderful things are 
also taking place throughout the country based upon our fellow 
Americans' desire for inclusive environments in their local 
schools, communities, and workplaces.
    As we heard in our last hearing on this issue, Walgreens 
and Booz Allen Hamilton, for example, are providing excellent 
work opportunities for individuals with disabilities. In 
Wyoming, our director of Workforce Services, Joan Evans, shared 
at the same hearing a truly exciting opportunity with Lowes in 
our State.
    I've invited Deb Dagit, the chief disability officer at 
Merck Pharmaceuticals, to share her experiences about how that 
large corporation has expanded workplace opportunities for 
individuals with disabilities. As her testimony suggests, Merck 
has made conscious effort to create an inclusive environment 
where every employee is treated fairly and disabilities aren't 
an impediment to hiring and advancement.
    With that said, I'm interested in hearing how scalable many 
of these practices are for smaller employers that might only 
have the capacity of a few employees and who are struggling to 
keep the lights on in their companies in this continuing 
economic slump. My wife and I are former small business owners. 
We operated Enzi Shoes for nearly 30 years. From my experience, 
what might work at a larger employer almost never worked at 
Enzi Shoes. So I caution against trying to make broad 
conclusions based upon individual experiences in this regard, 
especially in light of the ongoing economic struggles small 
businesses are facing.
    I've talked with a number of the small businessmen and 
their biggest request is to have someplace that they can go 
where they can find out where the capabilities match up with 
their needs. They need kind of an employment agency. They're 
not big enough to have the capability to go out and interview a 
lot of people and do any testing or anything like that. So I 
think that's one of the big needs.
    But since May 2009, the so-called beginning of the recovery 
summer, the average unemployment rate has been 9.5 percent for 
the workforce overall, with the participation rate for 
individuals with disabilities dropping from 22.3 percent to 
21.1 percent over the past year. Last month, the Federal 
Reserve lowered its economic outlook for the rest of 2011, and 
last week's dismal jobs report only confirmed a dark economic 
future.
    These realities suggest that a full economic recovery for 
America and the pain for employers throughout the country is 
going to continue for a while longer. When asked this past 
weekend when the American people would feel the effects of 
economic recovery, Treasury Secretary Timothy Geithner said,

          ``I think it's going to be a long time still. This is 
        a very tough economy and I think a lot of people--it's 
        going to feel very hard, harder than anything they've 
        experienced in their lifetimes and now for a long time 
        to come.''

    As a result, Congress and this Administration would do well 
to find ways to reduce mandates, regulations, and burdensome 
rules. In addition, businesses, particularly small businesses, 
need better information on how to identify, recruit, retain, 
and advance qualified individuals with disabilities. Our local 
chambers, the U.S. Business Leadership Network, and the 
Department of Labor's Office of Disability Employment Policy, 
the ODEP, are already providing some of these resources.
    The problem is that this information is not getting to our 
small businesses. In today's troubled economy, our small 
businesses are struggling just to keep the doors open. Small 
businesses sometimes lack the resources or the capacity to seek 
out information about hiring people with disabilities. I ask my 
colleagues to help us identify more effective ways of 
disseminating this information to small businesses across the 
country. I know, based on conversations I've had in Wyoming, 
small businesses are interested. They just don't know where to 
turn.
    This hearing, along with many others that have been 
recently held by the committee on the middle class, lowering 
unemployment, and so on, have yet to yield legislation or 
strategy for accomplishing these goals. In short, I hope 
today's hearing provides tangible solutions for how we can 
finally get the American economy moving and lower the 
unemployment rate overall and particularly in the area of 
disabilities.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    We'll now start with our first panel: the Honorable 
Kathleen Martinez, Assistant Secretary of Labor for Disability 
Employment Policy. Ms. Martinez was nominated by President 
Obama to be the third Assistant Secretary for Disability 
Employment Policy and was confirmed by the U.S. Senate on June 
25, 2009.
    Prior to that she had a very distinguished career. In 2002, 
she was appointed by President Bush as one of 15 members of the 
National Council on Disability. In 2005, Secretary of State 
Condoleezza Rice appointed her as one of eight public members 
of the newly established State Department Advisory Committee on 
Disability and Foreign Policy. In 2007, she was appointed a 
member of the board of the U.S. Institute of Peace, a 
congressionally created agency dedicated to research and 
projects in conflict management.
    As the head of the U.S. Department of Labor's ODEP, the 
Office of Disability Employment Policy, Ms. Martinez advises 
the Secretary of Labor and works with all DOL agencies to lead 
a comprehensive and coordinated national policy regarding 
employment of people with disabilities.
    Ms. Martinez, welcome back to the committee again and your 
statement will be made a part of the record in its entirety. If 
you could sum up in 5, 6 or 7 minutes, we'd certainly 
appreciate it.

 STATEMENT OF THE HON. KATHY MARTINEZ, ASSISTANT SECRETARY OF 
 LABOR, OFFICE OF DISABILITY POLICY, U.S. DEPARTMENT OF LABOR, 
                         WASHINGTON, DC

    Ms. Martinez. OK, I'll do my best, Senator Harkin.
    I'd like to just thank Chairman Harkin and Ranking Member 
Enzi and the distinguished members of the committee for this 
opportunity to testify and I appreciate your continued support 
of the Office of Disability Employment Policy, or ODEP. I'm 
honored to appear here.
    I want to give a shout-out to my distinguished members of 
the panel that will follow me today, Governor Ridge, Deborah 
Dagit and Amelia Wallrich. It's an honor to share this time 
with you all.
    As a person with a disability who managed to get off 
supplemental security income benefits, as a long-time advocate 
for disability rights, and as ODEP's Assistant Secretary, it's 
clear to me that the vast majority of the policies and 
practices that promote the employment of people with 
disabilities are just good business practices. ODEP's efforts 
help not only those of us with disabilities, but others, other 
folks with complex work needs, like working mothers, sandwich 
generation caregivers, and people who work two jobs to make 
ends meet.
    It's important because each person that finds a job 
contributes to our tax base and helps strengthen the economy 
and our financial future.
    Now, the Senators did mention the disappointing data, and I 
won't go into that. It is disappointing that folks with 
disabilities are still last hired, first fired, unfortunately, 
and we have suffered in this downturn of the economy. But 
closing this gap would mean millions of Americans currently 
disconnected from the economy would begin earning income, 
paying taxes, and reducing their benefits or their dependence 
on public benefits.
    I want to talk a little bit about what ODEP is doing to 
help close this gap. As we know, older workers are projected to 
have the highest growth rate in the workforce for the first 
quarter of the 21st century. It's anticipated that the increase 
of those 55 years and older is 43 percent by 2018. 
Consequently, this fall, to deal with this issue--because we're 
getting a lot of requests from companies about how to 
accommodate older workers, so ODEP is implementing an employer 
pilot demonstration project focusing on workforce flexibility, 
and we're conducting research on using flexible workplace 
strategies to retain older workers with disabilities who work 
in the healthcare sector and in the community colleges sector. 
This will also include introducing the concept of reasonable 
accommodations.
    We're also working with the Department of Labor's Office of 
Workforce Compensation Programs to identify workforce 
flexibility strategies that Federal agencies can use to 
successfully return their injured employees to the workplace 
and provide technical assistance so that they can adopt and 
implement effective return-to-work strategies.
    ODEP is working extensively with the private sector. We 
have a program called ``Add Us In.'' Innovative small 
businesses, as you mentioned, Senator Enzi, are critical to our 
economic growth and our closing--we're working with them to 
help close the employment gap for folks with disabilities.
    This includes many minority-owned and operated firms, the 
numbers of which have grown in recent years at approximately 
double the rate of all firms in the United States. Recognizing 
the opportunity that this growth provides, ODEP created a new 
initiative called ``Add Us In,'' through which we are working 
across the country to increase the capacity of small businesses 
to include people with disabilities in their workforce.
    We expect three more grantees this fall and, in addition to 
creating replicable models to ensure people with disabilities 
have access to a broader range of employment opportunities, we 
also are training and setting up the national and local 
networks of experts to better connect small employers with, as 
you requested, the talent pool of folks with disabilities.
    Access to technology, as many people have said, is the 
great equalizer for those of us with disabilities. To harness 
the promise of the technological revolution, ODEP promotes 
universal design in information technology and the availability 
of assistive technology at work. ODEP is partnering with the 
Assistive Technology Industry Association to improve the 
accessibility of emerging technologies, such as Web 3.0 and 3D 
Internet technologies. We're also working with technology 
developers to make sure that the technology is accessible right 
out of the box.
    This fall we'll develop and implement a comprehensive plan 
for accessible workplace technology with a focus on core 
competencies with regard to accessibility.
    We want to talk about a variety of models that have worked 
to get folks into integrated and competitive employment. One is 
the concept of customized employment, which is kind of a 
framework of principles which basically matches people's 
talents to a job. An example is, in a large department store 
they hired a guy named Scott, who's a job seeker with a 
disability, after his personal representative negotiated a new 
way for the store to handle merchandise delivery. Originally, 
store clerks unloaded and repackaged new merchandise. Mina, who 
was Scott's representative, suggested that the department store 
hire Scott to perform this task instead. The employer agreed 
and for Scott performing a customized function, the clerks were 
freed up to spend more time serving customers. As a result, 
sales increased.
    We've seen similar positive outcomes when this model has 
been used with disabled veterans, the homeless, and recipients 
of temporary assistance for needy families, TANF.
    As you know, Senator Harkin, we are well under way with 
improving opportunities for folks with disabilities by 
strengthening our job training system. I'd like to thank you 
for your support. ODEP and the ETA, the Employment Training 
Administration, have implemented the disability employment 
initiative and more than $21 million in grants, as you know, 
have been awarded to nine States, Alaska, Arkansas, Delaware, 
Illinois, Kansas, Maine, New Jersey, New York, and Virginia, 
last year. We expect an additional 6 to 10 States to receive 
funding this year.
    The goal is to promote greater coordination and training 
services, to provide targeted technical assistance, to improve 
education and training outcomes for folks with disabilities who 
are unemployed, underemployed, and/or receiving benefits in our 
workforce system.
    To date, all sites are in the process or have already 
become employment networks, meaning that they provide 
employment-related and supportive services to social security 
beneficiaries under the Ticket to Work program, which prior 
research suggests improves long-term employment outcomes. We 
are conducting extensive evaluations of the grantees, ETA and 
ODEP, through DOL's Civil Rights Center. They're conducting an 
independent review of the accessibility of one-stop centers 
throughout the system, and that means programmatic and physical 
access.
    I want to just briefly say that we're looking at reframing 
the youth conversation with regard to employment. We've 
developed our guideposts, which is--let me just say--a widely 
used strategy to improve employment for folks with 
disabilities. You know that our 503 regulations, our NPRM, are 
being scheduled to be held in August.
    I'd just like to say, like many other people with 
disabilities, I was supported by taxpayer benefits, and after 
being funneled to work in a lock factory and having my case 
closed, I stand before you today as a prime example of what can 
happen when people with disabilities are given the opportunity 
to work and to access productivity tools.
    As a closing example, we have our wonderful example of 
Poppin Joe, who was very significantly disabled, was basically 
originally funneled into a sub-minimum wage job. But Joe 
developed a business plan. He sells popcorn with the help of 
ODEP's Start-Up USA grant. In addition to having a goal of 
100,000 in popcorn sales by 2012, Joe now has several part-time 
employees, is a taxpayer, and rents his own home.
    There are many more individuals like Joe and, while 
improving employment outcomes for people with disabilities is a 
complex undertaking, it holds great promise to improve the 
lives of everybody in this country.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Martinez follows:]

            Prepared Statement of the Hon. Kathleen Martinez
                            i. introduction
    Chairman Harkin and Ranking Member Enzi, distinguished members of 
this committee, thank you for the opportunity to testify today and 
discuss emerging labor market trends for individuals with disabilities, 
our efforts for addressing these trends, and the Office of Disability 
Employment Policy's (ODEP) priorities in the coming years. We 
appreciate your continued support of ODEP's work, and I am honored to 
appear before this committee.
    Based on my experiences as a person with a disability who managed 
to get off Supplemental Security Income (SSI) benefits, as an advocate, 
and as ODEP's Assistant Secretary, it is clear to me that the vast 
majority of the policies and practices that promote the employment of 
people with disabilities, are just good business practices. Therefore, 
ODEP's efforts to promote these policies and practices help not only 
people with disabilities, but also others who have the potential to 
enter the workforce, if provided with appropriate supports and 
flexibilities. And, as you know, each person that finds a job 
contributes to our tax base and helps to strengthen the economy and our 
Nation's financial future.
                  ii. the need for flexible workplaces
    Research shows us that people with disabilities have been 
disproportionately affected by the recent downturn in the economy. Data 
available from the Current Population Survey (CPS) indicate that 
between October 2008 and June 2011, the rate of job loss among workers 
with disabilities far exceeded that of workers without disabilities, 
with the proportion of employed U.S. workers identified as having 
disabilities declining by 9 percent. In addition, their labor force 
participation lags behind people without disabilities. The most recent 
data, released in July 2011 by the Department of Labor's Bureau of 
Labor Statistics (BLS), shows that only 32.8 percent of working age 
people (16-64) with disabilities are actually in the American 
workforce. In comparison, the participation rate for people reporting 
no disabilities is 77.2 percent. Closing this gap would mean millions 
of Americans who are currently disconnected from the economy would 
begin earning income, paying taxes, and reducing their dependence on 
public resources.
    Our Nation as a whole is graying, and so is our workforce. Older 
workers are projected to have the highest growth rate in the U.S. 
workforce for the first quarter of the 21st century. As this population 
grows, the number of people in the workplace with disabilities is 
likely to increase too. The number of workers aged 55 and older is 
forecasted to increase 43 percent by 2018. In contrast, for those aged 
16 to 24, a decrease of 4.1 percent is expected, and for those 25-54, a 
1.5 percent increase. We also know that as people age they are more 
likely to experience chronic illness or the onset of disability; many 
of these highly skilled and experienced workers will want or need a 
more flexible work environment if they are to be retained.
    A growing number of business leaders recognize that workforce 
flexibility provides them with a competitive edge. Because workforce 
flexibility benefits both workers and employers, ODEP launched two 
initiatives with workforce flexibility at the core. First, this fall, 
we will implement an employer pilot demonstration project that will 
focus on using flexible workplace strategies to retain older workers 
with disabilities who work in the health care sector and in community 
colleges.
    Second, we will collaborate with DOL's Office of Workers' 
Compensation Programs to focus on identifying strategies that Federal 
agencies can use to return to work employees who sustained disabilities 
as a result of workplace injuries or illnesses. OWCP and ODEP plan to 
offer tailored technical assistance to Federal agencies regarding the 
adoption and implementation of successful return-to-work practices and 
related disability employment practices.
             iii. private sector practices and initiatives
Small Businesses
    Our economy relies on the private sector to drive job creation and 
I know this committee is interested in what is working and what 
practices should be expanded. ODEP directs much of its energy towards 
helping private employers employ people with disabilities and we are 
happy to have the chance today to share what we have learned.
    As you all know, innovative small businesses are a critical engine 
of U.S. economic growth. This includes many minority-owned and -
operated firms, the numbers of which have grown in recent years at 
approximately double the rate of all firms in the U.S. economy. (Census 
Bureau's 2007 Survey of Business Owners)
    This provides a real opportunity to improve employment outcomes for 
people with disabilities. ODEP therefore created the Add Us In 
Initiative, which focuses on increasing the capacity of small 
businesses to effectively include people with disabilities in their 
workforce.
    We are working with grantees in different parts of the country to 
create replicable models that can be used by small businesses and their 
associations to reach out to ensure that youth and adults with 
disabilities have access to a broader range of employment 
opportunities. We expect to add three more grantees to this initiative 
this fall. We are also working to train and set up national and local 
networks of experts skilled in connecting small employers with the 
underutilized talent pool of people with disabilities.
Technology
    In addition to our work with small businesses, we are also making 
progress helping private employers use technology to improve their 
workers' productivity. Access to technology is the great equalizer for 
people with disabilities who are looking for a job or trying to advance 
in their professions and in today's workplace. It's not optional; it's 
a necessity.
    To harness the promise of the technological revolution, ODEP 
focuses on promoting universal design in information technology, and 
increasing the availability of assistive technology for use in the 
workplace to benefit workers with disabilities. To advance these twin 
goals we have funded a contract that enables ODEP and the Assistive 
Technology Industry Association's Accessibility Interoperability 
Alliance (ATIA/AIA) to work together to improve the accessibility of 
emerging technologies, such as Web 3.0 and 3D Internet technologies.
    This fall we will take what we have learned and develop and 
implement a comprehensive plan to make workplace technology accessible. 
A primary area of focus will be the identification and validation of 
core competencies required to certify professionals involved in the 
field of accessibility. We will also conduct research into how 
Assistive Technology Act funding is being used to support employment. 
We will also develop technical assistance to enable States to use it 
more effectively.
Customized Employment
    I know that a key priority for your committee is getting the best 
return on investments in the workforce. One way to achieve this is to 
find effective approaches that can be replicated and scaled by 
employers with different workforce needs. Within ODEP, we have found a 
way to do so through ``Customized Employment.''
    We believe Customized Employment works because it is not a program, 
but rather a set of universal principles and strategies specifically 
designed to support both sides of the labor force: supply and demand. 
For the job candidate, the process considers the whole person--his/her 
skills, interests, abilities--as well as the conditions necessary for 
successful employment. For employers, customized employment allows a 
business to examine its specific workforce needs--both ongoing and 
intermittent--and fulfill those needs with a well-matched employee. For 
example, a large department store hired Scott, a job seeker with a 
disability, after his personal representative, Shaina, negotiated a new 
way for the store to handle merchandise delivery. Originally, store 
clerks unloaded and repackaged new merchandise. Shaina suggested that 
the department store hire Scott to perform this task instead. The 
employer agreed and Scott began working for the store. Scott's 
customized job freed up other clerks to spend more time serving 
customers. As a result, sales increased. This is not an unusual result. 
Customized employment has had similar positive outcomes when used with 
disabled veterans, the homeless, and recipients of Temporary Assistance 
for Needy Families (TANF).
          iv. federal efforts to reduce barriers to employment
    In carrying out its mission, ODEP partners with other agencies and 
offices within the executive branch on strategies that improve 
employment outcomes for all, including individuals with disabilities. 
It is an honor to serve in an Administration that understands that 
universal design practices benefit job seekers and employers.
Improving the Workforce System
    For example, thanks to the vision and leadership Chairman Harkin 
has provided, ODEP has been working extensively over the last year with 
the Employment and Training Administration (ETA) on the Disability 
Employment Initiative (DEI). This initiative provided more than $21 
million to nine States (Alaska, Arkansas, Delaware, Illinois, Kansas, 
Maine, New Jersey, New York and Virginia) last year, and this year we 
expect to add another 6 to 10 more States as grantees under the 
program. The goal of this Initiative is to improve education, training, 
and employment opportunities and outcomes for youth and adults with 
disabilities who are unemployed, underemployed, and/or receiving Social 
Security disability benefits. To meet this goal, DOL is providing 
technical assistance to grantees and to the workforce system to expand 
the capacity to serve those with disabilities. In addition to 
coordinating with a broad range of State agency partners as needed to 
create systems change, the grantees must connect with the Social 
Security System. To date, all sites are in the process, or have already 
become, employment networks--meaning that they can provide employment-
related and supportive services to Social Security beneficiaries under 
the Ticket-to-Work program--which prior research suggests may improve 
long-term employment outcomes.
    ETA and ODEP are also committed to evaluating grantees to make sure 
taxpayers are well served by their investments and so that other 
stakeholders can learn from what works. In addition, through a 
combination of on-site evaluations and an on-line survey, ETA and ODEP, 
with the assistance of DOL's Civil Rights Center, are conducting an 
independent review of One-Stop Career Centers throughout the system to 
assess the extent to which they are accessible to people with 
disabilities.
Improving Transition Outcomes by Reframing the Youth Conversation
    A simple and ground-breaking concept--that youth with disabilities 
are youth first--has reframed the conversation and is the hallmark of 
ODEP's youth transition efforts. The Guideposts for Success framework, 
the central point from which ODEP's youth work is based, reflects key 
educational and career development interventions that make a positive 
difference in the lives of all youth, including youth with 
disabilities. The Guideposts have been widely used for strategic 
planning and policy development across Federal, State and local levels, 
and are also woven into ODEP's ongoing work. Moreover, the contents of 
the Guideposts have been incorporated into the proposed Rehabilitation 
Act reauthorization. Guideposts for youth from specific populations 
have also been developed to meet the needs of youth with learning 
disabilities, with mental health needs, and those in foster care.
    The success of ODEP's youth policy work hinges on its ability to 
frame challenges in a positive light and in the context of broader 
youth policy applicable to all youth. For example, many employers 
assert that today's youth lack the soft skills needed in the workplace. 
Consequently, this past year we developed a tool to help all youth 
acquire the soft skills employers demand. We called it ``Skills to Pay 
the Bills'' and tested it with youth, including those with 
disabilities, throughout the country. The feedback was overwhelmingly 
positive. The youth and the instructors who delivered the training 
liked the interactive approach used in this classroom-based tool. This 
year, we will expand our outreach to youth by developing games and 
applications as a way to get this information regarding soft skills to 
an even broader group of youth.
    In order to serve youth effectively, including those with 
disabilities, research tells us that youth service professionals need 
to have certain knowledge, skills and abilities. Using a universal 
design approach, we developed eight training modules that are being 
used by workforce professionals across the country, thereby improving 
service delivery to all youth.
    Last month, ETA and ODEP issued guidance to the public workforce 
system on, ``Increasing Enrollment and Improving Services to Youth with 
Disabilities.'' The guidance provides information and resources on 
promising practices and successful strategies that promote the 
enrollment, education, training, and employment outcomes of youth with 
disabilities. The resources and successful strategies included in this 
guidance can further assist the public workforce system to expand 
capacity and adopt practices for effectively serving this population. 
The ultimate goal is to better assist youth with disabilities and 
enable them to become economically self-sufficient through training, 
educational opportunities, and jobs with career pathways. The 
Department continues to provide technical assistance to State and local 
workforce systems to provide better outcomes for youth with 
disabilities.
Making the Federal Government a Model Employer
    ODEP is also focused on making the Federal Government a model 
employer of people with disabilities. The President demonstrated his 
personal commitment to this goal when he signed Executive Order 13548 
last year. The Executive order requires the hiring of an additional 
100,000 people with disabilities within the Federal Government over the 
next 5 years. It calls on all executive departments and agencies to 
create goals and action plans for increasing the numbers of people with 
disabilities hired and to improve retention and return to work of 
Federal employees with disabilities. The Order also requires Federal 
agencies to work together to develop and implement action plans, which 
include performance targets and numerical goals, to improve their 
hiring of people with disabilities. A senior-level official must also 
be designated to ensure accountability and to report progress on their 
plans to the President, the Office of Personnel Management (OPM), the 
Office of Management and Budget (OMB), and the public.
    We have been working closely with OPM, OMB, and the Equal 
Employment Opportunity Commission in implementing the Executive order. 
Our work has included assisting several Federal agencies in the 
development of their plans, and helping OPM design model recruitment 
and hiring strategies and training programs for human resources 
professionals across the government. We have also developed a network 
of Federal practitioners and a resource tool kit to assist them and 
their agencies in implementing the Executive order.
    In addition, we can improve the hiring of people with disabilities 
by helping Federal contractors see the value of accommodating a diverse 
workforce. Last year, ODEP worked closely with DOL's Office of Federal 
Contract Compliance Programs (OFCCP) to issue an Advance Notice of 
Proposed Rulemaking (ANPRM) seeking input from the public on ways to 
strengthen its regulations requiring Federal contractors to take 
affirmative steps to employ and advance in employment qualified 
individuals with disabilities. In the near future, a Notice of Proposed 
Rulemaking (NPRM) will be issued seeking additional comments from the 
public, and the submission of substantive comments once the NPRM is 
issued. The potential impact of revising the section 503 regulations 
could be significant given that nearly one in four American workers are 
employed by a company that is either a Federal contractor or 
subcontractor.
                             v. conclusion
    Like many other people with disabilities, I was on taxpayer 
supported benefits, after having being funneled to work in a lock 
factory and having my case closed by a staid bureaucracy. I stand 
before you today, however, as a prime example of what can happen when 
people with disabilities are given the opportunity to work and access 
to productivity tools.
    In closing, I wanted to give you another example of how ODEP's 
programs can change the lives of individuals and contribute to our 
Nation's financial future. I want to tell you about Joe, the owner of 
Poppin' Joe's Kettle Korn, who has autism and Down syndrome and uses an 
augmentative speech device to communicate. Previously considered 
unemployable, Joe developed a business plan with his parents and ODEP's 
Start-Up USA grant. In addition to having a goal of $100,000 in popcorn 
sales by 2012, Joe now has several part-time employees. He is now a 
taxpayer and rents his own home.
    There are many more individuals like Joe. Improving employment 
outcomes for people with disabilities is a significant and complex 
undertaking, but one that holds great potential to improve the lives of 
many and strengthen our economy.
    Thank you again for this opportunity to testify and I would be 
happy to answer any questions you may have.

    The Chairman. Thank you, Madam Secretary, for your 
statement. As I said, your full statement will be made a part 
of the record in its entirety.
    We'll just begin a quick round. I know Governor Ridge has 
to be out of here, too, soon and we want to hear from him.
    It seems, Madam Secretary, that one of the key things for 
increasing the rate of employment of people with disabilities 
is, No. 1, outreach. Businesses have to do a better job of 
outreach. There needs to be a better pairing of people and 
their abilities to the job structure itself.
    But also, many people with disabilities are able to do 
work, have a great job, if they have certain support systems. I 
have often talked about my nephew, who's quadriplegic and he 
has a nurse comes in, gets him up in the morning, takes care of 
all of his needs. He then gets in his van and drives himself to 
work, comes home at night, lives by himself, independent 
living, by the way. And then he has another nurse comes in and 
takes care of him. If it weren't for that, he couldn't be able 
to work.
    Other people need some minor help during the day on their 
job site.
    Can you address that, about how are you looking at it from 
ODEP's standpoint and what we need to do to help employers 
understand that; and what can we do to make sure that people 
understand that for a minimal amount of money that might 
require us to put in for support services, a person can work 
and become a taxpayer? And what is ODEP doing in that regard, 
in terms of supportive services?
    Ms. Martinez. Well, first of all, I think that's a great 
question. I will tell you that we have an entire kind of team 
dedicated to employment supports at ODEP. We have, as I 
discussed, our grants in the area of technology. We're working 
with the Department of Transportation to make sure that 
transportation is accessible, so that folks can get to work.
    We have worked with the Department of Health and Human 
Services on their community living initiative, which is 
promoting folks to live in their homes and get attendant care 
services to be able to do exactly what your nephew does, get 
services to be able to work and pay taxes.
    I think at this point ODEP is focusing on technology and 
transportation sort of as the main employment supports, and 
we're working again with HHS on the community living 
initiative.
    The Chairman. Last, I just wanted to ask--you mentioned 
about the grants that were going out through the Employment 
Training Administration on the disability employment 
initiative. You mentioned the States--I think the money went 
out last year, if I'm not mistaken.
    Ms. Martinez. It did.
    The Chairman. Is your office tracking that and what that 
money is being used for? How soon could we get some feedback to 
this committee about how that money has been used and any 
results of that?
    Ms. Martinez. According to a 2010 Mathematica study, the 
one-stop system is being used more and more by a larger share 
of SSA beneficiaries interested in employment. Therefore, it's 
really important that this system be accessible, both 
physically and programmatically, and in terms of communication 
access. So the disability initiative is intended to eliminate 
silos and hopefully result in improved coordination.
    For example, Arkansas is working very closely with their 
youth, and Delaware--they're helping, I guess, one-stops to 
adopt a universal design approach, which really helps all job 
seekers to access services more easily, including folks who 
don't even have disabilities or won't identify as having 
disabilities.
    The Chairman. I ask that you keep this committee advised, 
and as soon as you have some data back from the States, those 
nine States, that you would give us a report on that.
    Ms. Martinez. You bet. The other thing is that they're all 
part of the Ticket to Work program. They're all employment 
networks.
    The Chairman. Right.
    Ms. Martinez. So they're working closely with the social 
security system as well.
    The Chairman. All right. Thank you very much, Madam 
Secretary.
    Ms. Martinez. Thank you.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    Last year the President signed an executive order to 
increase the Federal employment of individuals with 
disabilities, which was intended to improve the hiring 
practices of the Federal Government with respect to individuals 
with disabilities. How have those practices improved over the 
past year?
    Ms. Martinez. I think very soon OPM will be formally 
signing onto the various plans that have been developed by each 
agency. I know that each agency is required to have a very 
senior person be responsible and be accountable to the 
President. I know that, from the Department of Labor 
standpoint, we have worked extensively with the Office of 
Workers' Compensation Programs to develop our strategies for 
keeping people at work. As you know, it's very expensive for 
the government to pay disability benefits sometimes, and a lot 
of the folks who go out on disability benefits can actually 
work and can stay in the job if they knew about, what some 
people call, accommodations, and I like to call productivity 
tools, because we all need them; it just happens to be called 
accommodations for people with disabilities; and also the 
concept of a flexible work environment.
    So really there's two prongs. OPM is trying to address the 
myth that there aren't qualified people with disabilities out 
there, by contracting with a consulting company who provides 
the Federal Government qualified Schedule A-eligible people 
every month. The list is available to every agency in the 
government.
    In addition to that, the President will be monitoring what 
agencies do. Agencies have to set goals, and then on top of 
that working to retain Federal workers when they become 
injured, are some of the things that are happening with regard 
to that executive order.
    Senator Enzi. Thank you.
    Most of my other questions deal with some of the small 
business things and they're fairly technical in nature. So if 
it's OK I'd just submit those in writing.
    Ms. Martinez. OK.
    Senator Enzi. Thank you.
    Ms. Martinez. Thank you, sir.
    The Chairman. Thank you, Senator Enzi.
    Thank you, Madam Secretary, for being here again. Thank you 
for your testimony.
    Ms. Martinez. Thank you very much.
    The Chairman. Thank you for your leadership on this issue. 
Like I said, my staff will be in touch with you about making 
sure we get some reports back from those States and how they're 
utilizing that money.
    Ms. Martinez. And we're happy to provide them.
    The Chairman. Thank you very much, Madam Secretary.
    We'll excuse you and now we'll call up our second panel. 
We'll call up Governor Ridge, Ms. Dagit, and Ms. Wallrich. Our 
first witness will be from the Commonwealth of Pennsylvania and 
I ask my colleague, Senator Casey, who is here on our 
committee, to please make an introduction of our distinguished 
guest.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much.
    I have the great honor and privilege to be able to 
introduce a fellow Pennsylvanian to this committee, but 
certainly no stranger to the U.S. Congress and indeed the U.S. 
Senate.
    Governor, welcome.
    Mr. Ridge. Senator, it's a great pleasure to be here with 
you.
    Senator Casey. Good to see you again. I didn't have a 
chance to greet you personally, but we're grateful you're here 
and grateful you're part of this hearing today.
    Tom Ridge is a son of Erie, PA. For those who don't know 
our geography, I live in northeastern Pennsylvania, in one 
corner of the State, and Governor Ridge hails from the 
northwestern corner of our State.
    His life has been a life of service, service to our 
Commonwealth of Pennsylvania, service to our country, whether 
as a soldier, as a member of the U.S. House of Representatives 
for 12 years between 1982 and 1994, service then as Governor of 
the Commonwealth from 1994 through the time he was named 
Secretary--the first Secretary of Homeland Security in the 
aftermath of the attacks of 9/11. So his life is one of 
service.
    And also he's been--in those years, in all the positions he 
held in government, positions of service, he's been an 
advocate. And he comes here today with not just that experience 
behind him but also that passion for advocacy and the good 
results that come from that.
    I've known him a long time. I know him to be a person of 
great character and integrity. And there are moments in the 
life of a public official where his or her constituents focus, 
and I think in a very intensive way, on that person's 
leadership and their commitment to public service. And one of 
those moments, I think, for Governor Ridge came at a very 
tragic time for the country, the day we were attacked. And one 
of the attacks, of course, was in Pennsylvania--Shanksville, 
PA. And at that moment, he had to lead our State and be part of 
the leadership of the country.
    Governor, we remember that moment very poignantly, when you 
were expressing both the frustration and anger of our citizens, 
but also the resolve that came in the aftermath of that attack. 
So we're grateful for that kind of leadership, and we're 
certainly grateful you're here, back before the U.S. Senate. 
And I know that we'll benefit from your testimony and from your 
continuing leadership.
    Thank you very much.
    Mr. Ridge. Thank you.
    The Chairman. Thank you very much, Senator Casey. And, 
again, one thing I would just add to that is that I know of 
Governor Ridge's long-time work in the whole area of disability 
policy and employment of people with disabilities. I would like 
to add that, too.
    Mr. Ridge. Thank you, sir.
    The Chairman. Governor--and I say to my other panelists the 
Governor has to leave here shortly, so I'm going to recognize 
him for his statement and for any questions or interchange that 
we want. I know he has to be out of here before 11 o'clock. So 
if you don't mind, I'll have the Governor testify first, and 
then we'll move on to the other two members of our panel.
    So, Governor, again, welcome to the committee. Your 
statement, which I read last night, which is very profound, a 
very good statement, will be made a part of the record in its 
entirety. And please proceed as you so desire.

      STATEMENT OF GOVERNOR TOM RIDGE, CHAIRMAN, NATIONAL 
           ORGANIZATION ON DISABILITY, WASHINGTON DC

    Mr. Ridge. Well, I thank you very much, Chairman Harkin. I 
would be remiss if I didn't recognize your life-long commitment 
to the issue.
    To Ranking Member Enzi and to my friend and colleague, 
Senator Casey, a Republican from one end of the State in the 
corner, a Democrat from the other end of the State in the 
corner. We both survived the statewide elections, which means 
that Pennsylvanians are pretty independent thinking. And I 
appreciate that very kind and gracious--very gracious 
introduction, and it's a great pleasure to appear before the 
committee. And I thank my colleagues here on the panel for 
indulging a schedule of mine and for allowing me to go first.
    I want to thank you for your time and attention you are 
giving to the vital issue of disability employment in America. 
For a community that so frequently struggles to have its voice 
heard, these hearings are a very important opportunity, and I'm 
honored to share my perspective and my experience.
    To shed some light on these issues, I would like to share 
some of the work being done by the National Organization on 
Disability, NOD, whose board I am very privileged to chair. I 
am honored to have my leader, my boss, the president of the 
National Organization on Disability, Carol Glaser, here with 
me, a passionate, committed, effective leader who also deals 
with the challenges of a disability in her home every single 
day. And she's also accompanied by Rick Scarp, a vice president 
of the organization, who oversees our Wounded Warrior Careers 
Program.
    I also would like to briefly discuss my experience as 
Secretary of the Department of Homeland Security and the 
initiative we took to encourage employment of people with 
disabilities within the department.
    Over the past three decades, NOD, whose Harris surveys have 
been an authoritative source of data on the status of people 
with disabilities, has addressed a range of issues. Most 
recently, we have focused our efforts on the staggering and 
stubbornly high rate of unemployment among people with 
disabilities, a rate sadly that's been virtually unchanged 
since even the years before the ADA.
    NOD's employment agenda begins with privately funded 
demonstration projects that test innovative employment 
practices and service models. Of NOD's many funders, we are 
particularly grateful to the Kessler Foundation, a leader in 
devoting philanthropic dollars to the needs of Americans with 
disabilities. With the knowledge gleaned from our work on the 
ground and the evidence gathered through project evaluations, 
we seek really to scale up some of these small but effective 
demonstrations in part by addressing bodies and organizations 
such as a congressional committee who are in a position to set 
policies and allocate resources.
    One of these projects is our Wounded Warriors Careers, 
which has proven to be a highly effective service model for 
veterans with severe disabilities. Over half a million veterans 
have returned home with injuries from the conflicts in Iraq and 
Afghanistan, many of them with disabling conditions that will 
impact the rest of their lives. To better address the career 
needs of these veterans, in early 2007, the Army entered into a 
Memorandum of Understanding with NOD, under which we are 
providing career counseling and employment placement support to 
veterans in North Carolina, Texas, and Colorado.
    I might add, Mr. Chairman, we were happy to have the Memo 
of Understanding, but, unfortunately, at the time and to the 
present day, there wasn't a check that went with it. We've 
funded this demonstration program through a consortium of 
national and local funders who contributed for these three 
demonstration projects a total of $5 million, with leadership 
support from Ford, Robert Wood Johnson, Mott, Kellogg, and Bob 
Woodruff Foundations.
    If I might add, sir, as a veteran, anybody that's been in 
combat knows that but for the grace of God goes I. And one of 
these days, hopefully, we'll continue--we'll see that caring 
for the severely disabled veterans is a continuing cost of 
defense and find ways to allocate even additional resources, 
particularly to support the programs necessary to support those 
who were severely injured.
    It's a great credit to our leaders in government when they 
look for ways to partner with those outside of government to 
serve transitioning veterans with disabilities. However, I 
think we continue to send an inconsistent message to our 
veterans and their families. Of the 268 veterans that NOD 
currently serves, 40 percent were given a disability rating of 
100 percent, which in the terminology of the DVA, Department of 
Veteran Affairs, means a person we do not expect will ever 
work.
    Beyond its obvious impact on the veteran's earning 
potential, telling a veteran that he or she cannot work has 
implications, much broader implications than people can realize 
to their recovery, to their health, and their long-term well-
being. NOD's program evaluation has shown that veterans who are 
pursuing or who have attained education and careers perceive 
their own health as better, have a more positive view of their 
future, regardless of the severity of their disability.
    After about 2 years of operations, roughly two-thirds of 
these veterans, program participants, including the 40 percent 
who were labeled as unable to work, are engaged in education, 
training, or work.
    A detailed account of this program outcome is included in 
my written testimony, as you referred to, Senator Harkin.
    It's particularly notable that this support to our veterans 
comes with a considerable cost savings. In fact, I think our 
work is far less expensive than doing nothing at all. The 
dignity and financial self-sufficiency that comes with the 
pursuit of a career is a powerful deterrent to homelessness, 
substance abuse, domestic abuse, unemployment, and crime, all 
of which bring considerable societal costs.
    Strong congressional support for the Wounded Warrior 
Careers Program has led to legislation in the House Defense 
Authorization Act that would apply key elements of NOD's 
program on a larger scale. Similar legislation is expected in 
the Senate. But since our role in the program is not assured, 
NOD remains committed to continuing to produce best practices 
that can be used and adopted by relevant State, local, and 
Federal organizations. We obviously welcome support from 
Congress to assure NOD's best practices are implemented by the 
Department of Defense.
    There are a couple of important lessons we've learned from 
this experience, and I'd like to share them briefly with the 
committee. First, severely disabled veterans require ongoing 
and flexible support, sometimes over the course of multiple 
years. We have veterans working with veterans, and it's a long-
term commitment, 2 or 3 years--interaction almost on a monthly 
basis and sometimes weekly as we try to help them and their 
families, by the way, develop a career path.
    We understand that there are evolving circumstances, and we 
need to craft these relationships around the specific needs of 
the veteran and their family. And so the first point is the 
return to civilian life and career. It's not an event, ladies 
and gentleman. It's a process, and we need to understand that.
    Second principle--services and support must address the 
unique demands of traumatic brain injury and post-traumatic 
stress. These are hidden disabilities, but they pervade every 
aspect of many veterans' lives and if not addressed can 
undermine every attempt at success.
    And, third, I think we have to provide support to the 
schools and businesses that train, educate, and hire veterans. 
Many want to help our returning veterans but need support to do 
so effectively.
    So recognizing the importance of this last recommendation, 
I'd like to talk briefly about the work of NOD's Bridges to 
Business Program, which helps employers effectively recruit, 
hire, train, and retain job seekers, veterans or nonveterans, 
with disabilities, and also helps agencies that provide job 
training and placement services to job seekers with 
disabilities to work more effectively with businesses. Our work 
with these companies has yielded a number of findings that we 
believe will be instructive to this committee as you continue 
very important work on behalf of veterans and all Americans 
with disabilities.
    These findings are included, again, in my detailed 
testimony. But there is one other finding I'd like to emphasize 
publicly before you now.
    Members of this committee, your colleagues in Congress, the 
executive branch, and the Federal Government, we encourage you 
to use your visibility and your advocacy to inspire businesses 
to commit themselves to employing Americans with disabilities. 
That doesn't necessarily mean regulation, which I think 
sometimes intimidates and frustrates businesses. It means 
genuine leadership that begins with a clear and forceful call 
to action and continues with the Federal Government fulfilling 
its goal of becoming itself a model employer of people with 
disabilities at all levels of responsibility and in all types 
of jobs.
    And on this point, I would offer some personal insights 
from my time as Secretary of the Department of Homeland 
Security. Once my team understood that it was a priority for 
the Secretary, and once I assigned someone to design a plan to 
open up opportunities within the department--and we started at 
headquarters level--we began to see change. We didn't set a 
quota, but we did make it a leadership priority so that 
everybody knew that it was a priority for the Secretary and, 
therefore, a priority of the President.
    The first thing we did was send out a memo to all the 
undersecretaries or the bureau chiefs. Second, we had even the 
undersecretaries and assistant secretaries go to a 90-minute 
training program identifying, No. 1, it's a priority for the 
Secretary; No. 2, are the resources out there; and No. 3, 
beginning the acculturation process is a little discomfort. 
Unfortunately and improperly, sometimes people without 
disabilities working with people with disabilities--well, they 
shouldn't be uncomfortable because the people with disabilities 
aren't uncomfortable. They're just happy to work and want to 
interact with folks. So we had that training session.
    The third thing we did was make our department aware of a 
program at DOD called the Computer Electronics Accommodation 
Program. DOD will buy, install, and train assistive technology 
to help people with disabilities in our department. So within 
about 18 months, we went from 1 percent at headquarters to 5 
percent of people with disabilities. I can't report what 
occurred thereafter. But it's going to take executive 
leadership, congressional leadership, and everybody needs to 
understand before we can have businesses to be a model, we need 
the Federal Government to be a model as well.
    In closing, I'm aware that one of your ultimate goals is to 
address the disability benefit structure in America, a system 
that currently acts as an overwhelming disincentive to work for 
most Americans with disabilities. Currently, an individual who 
relies on Medicaid and Medicare for health coverage, which for 
most Americans with disabilities, even more than most of us, is 
of huge importance, will be justifiably hesitant to risk these 
benefits in search of what must often begin as entry-level 
employment.
    Part of the problem, I believe, is rooted in the fact that 
these well-intentioned systems designed decades ago were 
created with little expectation that Americans with 
disabilities would ever be anything more than recipients of 
care, that they could not, in fact, become contributors to our 
economy, our tax base, and our communities. We live in a 
society where your sense of self-worth is really predicated 
upon what you do for yourself, not what other people do for 
you. And that is embedded in the heart and soul of every person 
with a disability.
    Sure, it's great to have the check, but the Harris survey 
said that two-thirds of the people we surveyed of all those 
unemployed--they want to work. They want to work. So it's not a 
lack of talent, drive, or ambition in Americans with 
disabilities, but rather this tyranny of low expectations that 
has led to what I consider to be an opportunity gap between 
people with and without disabilities in America.
    This committee began its work with a clear message that 
Americans with disabilities can and should be contributors. I 
urge you to see that message through to ensure that we--to see 
it repeated in every policy, every agency, and every service we 
deliver to people with disabilities.
    On behalf of the National Organization on Disability, I say 
to my colleagues in public service we thank you for your time, 
your interest, your commitment, and your passion to this issue. 
And I'd say again that I, personally, and the team at NOD--we 
volunteer. If you need us, we'd love to help.
    You're, and again I reiterate, Senator Harkin--well, well 
known for years and years. You're a strong advocate, and we'd 
like to be part of your advocacy team.
    Thank you very much.
    And thank you again, Senator Casey, for such a gracious 
introduction.
    [The prepared statement of Mr. Ridge follows:]

                Prepared Statement of Governor Tom Ridge
    Thank you Chairman Harkin, Ranking Member Enzi and distinguished 
members of this committee for inviting me to speak with you today.
    Thank you for the time and attention you are giving to the vital 
issue of disability employment in America. For a community that so 
frequently struggles to have its voice heard, these hearings are an 
important opportunity. I am honored to share my perspective and 
experience.
    The issues affecting the disability community are very close to my 
heart. When I was governor of Pennsylvania, I worked with a great group 
of people to create a statewide agenda in support of people with 
disabilities.
    Ensuring that people with disabilities have the opportunity to 
contribute to society is a noble task. Employment brings dignity and 
purpose in life. Employment also brings personal independence and 
freedom. That's why it's so crucial that the staggeringly high 
unemployment rates among people with disabilities come down.
    Because not only are unemployed disabled Americans losing out on 
the benefits of employment, but our society then loses out on the 
potential contributions of these great Americans. Their resourcefulness 
in tackling issues that others do not encounter and their persistence 
in overcoming obstacles all lead to innovative approaches and a drive 
that is welcome in any job, in any field.
    To shed some light on these issues, I would like to share some of 
the work being done by the National Organization on Disability (NOD), 
and for whom I serve as chairman of the board of directors. I would 
also like to discuss my own experience as the Secretary of the 
Department of Homeland Security and the work we did to encourage the 
employment of people with disabilities within that department.
                  national organization on disability
    NOD was founded in 1981 with the Mission of expanding the 
participation and contribution of America's 54 million men, women, and 
children with disabilities in all aspects of life.
    In recognition of what we believe to be the most pressing need for 
Americans with disabilities, NOD's board of directors recently adopted 
a Strategic Plan focused on improving employment prospects for 
America's 33 million working-aged Americans with disabilities.
    And the need is pressing. Our most recent Kessler/NOD Survey of 
Americans with Disabilities conducted by Harris Interactive reveals 
that only 2 in 10 working age Americans with disabilities are employed, 
versus 6 in 10 of those without. These numbers have remained virtually 
unchanged for more than 20 years, regardless of the strength or 
weakness of the overall economy.
    To realize our Mission, NOD has positioned itself as an engine for 
new ideas and proven practices in our field. We begin with small, 
typically privately funded demonstration projects. Of NOD's many 
funders, we are particularly grateful to the Kessler Foundation--a 
leader in devoting philanthropic dollars to the needs of Americans with 
disabilities. These demonstrations are built as a response to the needs 
of individuals and businesses, and our use of private funding allows 
for a degree of flexibility and risk-taking that is not often possible 
with publicly funded initiatives.
    To ensure that these projects accomplish their goals, each of them 
includes a built-in evaluation process, which allows us to continuously 
improve our work, and ensure that we are responding intelligently to 
new findings.
    With the knowledge gleaned from work on the ground, and the 
evidence gathered through project evaluations, we seek to ``scale up'' 
our small demonstrations. We accomplish this goal either through direct 
pursuit of sustainable public dollars, or by ``spreading the word' 
about our work, and influencing policy and practice in an attempt to 
see the best of our work replicated in larger-scale agencies and 
service providers.
    One of these projects is the Wounded Warrior Careers initiative, 
which has proven to be a vital source of support to nearly 300 Army 
Veterans with significant disabilities, and an opportunity for us to 
learn what can and should be done to support all of our Nation's 
returning heroes.
                 the current state of veterans services
    The most recent data from the Bureau of Labor Statistics shows that 
530,000 veterans have returned home with injuries from the conflicts in 
Iraq and Afghanistan. Many of these injuries have led to disabling 
conditions that will impact the rest of their lives. Over 114,000 have 
garnered disability ratings of 60 percent or higher. In previous wars, 
some of these service members would not have survived. Today, they 
return home with disabilities ranging from burns and amputations to 
post-traumatic stress disorder (PTSD) and traumatic brain injury (TBI).
    The imperative to expand support to transitioning veterans with 
disabilities and their families has multiple components: the moral 
obligation to assist this population; the need to sustain the all-
volunteer military; and, the anticipated impact of additional costs 
that will be borne by local, State, and Federal agencies to assist 
``at-risk'' veteran families if they do not achieve self-sufficiency.
    In response to the transition needs of the most severely wounded 
warriors, the military has developed important programs to provide 
Recovery Care Coordinators or Advocates to assist these service 
members. These programs have improved the transition activities of 
veterans with disabilities, even as the programs continue to evolve 
their missions and compete for limited resources. However, the 
capacities of the Nation are not yet fully developed nor engaged to 
support the full range of our Wounded Warrior's needs. NOD is proud to 
be involved in these efforts.
    To provide a sense of this rapidly expanding work, take the 
population of Army Wounded Warriors, which has more than quadrupled 
since 2006, from about 2,000 to over 8,500 today. When combined with 
the other military services, including Special Operations Command, 
there are some 14,000 to 16,000 veterans with disabilities attempting 
to transition to civilian careers, achieve self-sufficiency, and forge 
lives of dignity in the wake of their military service. Yet, the most 
seriously wounded veterans leave the military today with career 
assistance needs that are still not fully addressed by existing 
education, employment, and vocational rehabilitation programs.
    The veterans we serve face many of the same obstacles to employment 
that all persons with disabilities face: employer perceptions, low 
expectations, and inadequate programs to facilitate their movement into 
the workforce.
    It is a great credit to the Army that it sought out allies to 
explore new approaches to serving transitioning veterans. We further 
laud this Administration for its clear commitment to our Nation's 
veterans, and this committee for its interest in continually improving 
the supports and services we provide to our returning heroes.
    However, we continue to send an inconsistent message to our 
veterans and to their families. Of the 268 Veterans that NOD currently 
serves, 40 percent were given a disability rating of 100 percent which, 
in the terminology of the Department of Veterans Affairs, means a 
person who is not expected to ever work. Of that group, \1/3\ are 
currently pursuing post-secondary education--graduate level education, 
in some cases--and another \1/3\ have joined the workforce.
    Beyond its obvious impact on the veteran's earning potential, 
telling a veteran that he or she ``cannot work'' has implications to 
their recovery, their health and their long-term well-being. As our 
evaluation has shown, the veterans NOD serves, who are pursuing or have 
attained education and careers, perceive their own health as better, 
and they have a more positive view of the future, regardless of the 
severity of their disability. When we tell a returning veteran that we 
do not believe they will ever work again, we are not only robbing them 
of their potential income, we are robbing them of their hope, their 
health and their well-being.
    The most seriously disabled veterans urgently need intensive career 
planning and mentorship so they can move into training, education, or 
work, and achieve self-
sufficiency as contributing members of their communities. And the 
impact of their ability or failure to do so extends beyond the veteran 
population--in the case of the Army, over 70 percent of these wounded 
warriors are married, 65 percent have children under 18. Moreover, 
these veterans have little familiarity with civilian labor markets and 
employment. Often they have never held a civilian job, prepared a 
resume, or been interviewed for civilian employment. As a result, these 
veteran families are an ``at-risk'' population that requires assistance 
in navigating paths to civilian careers.
         the nod wounded warrior careers demonstration program
    In order to better address the needs of veterans with severe 
disabilities, in early 2007 the Army entered into a Memorandum of 
Understanding (MOU) with NOD. Under this MOU, NOD is providing career 
counseling and employment placement support to veterans in North 
Carolina, Texas, and Colorado through a 3-year demonstration program 
funded by a consortium of national and local funders who contributed a 
total of $5 million, with leadership support from the Ford, Robert Wood 
Johnson, Mott, Kellogg and Bob Woodruff Foundations. In North Carolina, 
we are grateful to the Cannon, Z Smith Reynolds, and Duke Foundations. 
In Texas, we appreciate the support from the Dallas and Meadows 
Foundations. And in Colorado, the El Pomar Foundation has been a 
significant supporter. After about 2 years of operations, over 68 
percent of the 268 NOD Careers program participants have entered into 
education, training, or work.
    This pilot project was established at three sites to demonstrate 
innovative transition support for veterans with disabilities that can 
accelerate and ease their reintegration and return to self-sufficiency. 
The program includes an analytical and best practices evaluation that 
is designed to identify enduring changes that are needed in the 
services and support to transitioning veterans.
    The service model, which NOD and the Army developed after focus 
groups with more than 200 veterans and family members, is intensive, 
high touch, and characterized by long-term career counseling and 
mentoring to veterans with disabilities and their family members. NOD's 
Career Specialists, with expertise in workforce development (and many 
with a background of military service), work directly with veterans and 
family members. We connect the veterans we serve to a wide range of 
service providers, therapists, employers, schools, government agencies 
and others offering career support. We further work closely with the 
Army's Advocates to ensure that our services are well-coordinated, and 
offer the widest possible range of supports to the veterans we serve.
    To the best of our knowledge, we remain the only program of this 
kind to offer comprehensive, wrap-around services that respond to the 
specific needs of each veteran--and each family--that we work with. 
Among our most important findings is that we should not--we must not--
be alone in this effort.
    Strong congressional support for the Wounded Warrior Careers 
program has led to legislation in the House Defense Authorization Act 
that would apply key elements of the program model on a larger scale. 
Similar legislation is expected in the Senate Defense Authorization 
Act. However, since NOD's role in that program is not assured, NOD is 
committed to continuing to produce best practices and lessons learned 
that can serve as innovative concepts for adoption by relevant Federal, 
State, and local organizations. We welcome support from Congress that 
ensures NOD's best practices are implemented by the Department of 
Defense, as intended by Congress.
                wounded warrior careers program outcomes
    We believe the outcomes of the Careers project are a clear 
demonstration of its value. Midway through the demonstration, 68 
percent of our program participants are in education, training or 
jobs--a figure that is twice the rate of wounded veterans who do not 
receive our services. Other significant findings include that about 70 
percent of those employed have stayed in their job longer than 12 
months and veterans in the program report a high level of satisfaction 
with the program and its services. (Refer to Attachment I for a more 
complete listing of early quantitative and qualitative outcomes.)
    Further, this work comes with a considerable cost savings; in fact, 
our work is far less expensive than doing nothing at all. When weighed 
against the cost of unemployment and lost productivity, the $3,000 to 
$4,000 (on average) that we are spending per veteran per year in this 
program is a cost-effective investment for the American taxpayer. The 
dignity and financial self-sufficiency that comes with pursuit of a 
career is a powerful deterrent to homelessness, substance abuse, 
domestic abuse, unemployment, and crime, all of which bring 
considerable societal costs.
                    veteran-related reccomendations
    Based on these outcomes, and the work we have conducted in the 
field, I would like to offer the following recommendations to this 
committee as it considers how best to serve our Nation's wounded 
veterans:

    1. Veterans require ongoing and flexible support--sometimes over 
the course of multiple years--support crafted to the specific needs of 
the veteran and their family, and which meets their evolving 
circumstances. We have learned that for all veterans, but particularly 
those with significant injuries, the return to civilian life and career 
is not an event, but a process. Our services must support that process 
over time.
    2. We should foster a focus on career-related employment that 
begins as early as possible in the veteran's process of return. In VA 
hospitals and rehabilitation centers, we often see posters that 
encourage veterans with disabilities to aspire to play sports again--we 
ought to also let them know that they can and should aspire to the 
careers of their choosing. Pursuant to this, no matter how we classify 
the services an individual might require, we must never send them the 
message that they cannot work.
    3. Veterans should have access to career planning with clear steps 
toward success that are driven by the goals, interests and ambitions of 
the veteran. Veterans rarely have access to a long-term support in this 
regard.
    4. Service models should include the veteran's family. Families 
often play a key role in the veteran's transition and can be a source 
of inspiration and support, if we in turn provide them with the support 
they need through the course of the veteran's process of return.
    5. We must have a provision for flexible emergency funds that 
assist the veteran in financial crisis, and can meet discreet but 
crucial support needs in the course of the veteran's career planning 
process.
    6. Services and supports must address the unique demands of TBI and 
PTSD; these often hidden disabilities pervade every aspect of many 
veterans' lives, and, if not addressed, can undermine their every 
attempt at success. Support to veterans with TBI and PTSD means 
ensuring a robust network of mental health services, available 
throughout the country. Currently, our Nation's infrastructure for 
mental health services for veterans and civilians is inconsistent from 
State to State, and entirely absent in many areas.
    7. We must provide ongoing support for veterans in education and 
employment. Veterans consistently report that having someone to ``check 
in'' can be both helpful and reassuring as they acclimate to 
educational and career placements.
    8. We need a better and more consistent system for translating 
military experience to civilian qualifications and credentials, that 
captures all of the talents, skills and aptitudes that are developed in 
one of the most demanding jobs in the marketplace.
    9. We must provide support to the schools and businesses that 
train, educate and hire veterans. Businesses want to hire veterans; 
providing hands-on training and support to both the veterans, and 
schools and businesses is essential to their long-term success.

    Recognizing the importance of this last recommendation, I would 
like to talk with you about the work NOD is currently doing to support 
the many major corporations who have dedicated themselves to the 
principle of including the talent of Americans with disabilities at all 
levels of their operations.
    In your last hearing on this subject, you heard from Randy Lewis, 
senior vice president at Walgreens, who has emerged as a leader in a 
new way of demonstrating that businesses can and should take full 
advantage of every kind of talent available to them in their 
communities. Mr. Lewis is an inspiring leader--so much so that a number 
of other companies--Lowe's, Sodexo, Sam's Club, Aetna and ADP, to name 
only a few--have taken up his challenge. These companies aspire not 
only to match Walgreens in hiring, retaining and promoting people with 
disabilities, but to be even better.
    To support these companies in this crucial effort, NOD has staged 
the Bridges to Business program.
Current Employer Attitudes and Practices
    In 2010 NOD and the Kessler Foundation commissioned the survey firm 
of Harris Interactive to interview officials at 400 small, medium and 
large companies, on their disability employment attitudes and 
practices. Among other things, the survey found:

    <bullet> While most companies have diversity hiring policies and 
programs, less than 3 in 10 include disability as a diversity category.
    <bullet> While 25 percent of the companies have disability hiring 
policies, only 12 percent have programs;
    <bullet> Companies report a desire to hire more workers with 
disabilities, yet their primary recruitment sources are word of mouth 
and employee referrals. This method of hiring will only replicate the 
current workforce, rather than diversify it.
    <bullet> In business, what matters gets measured. And yet our 
survey revealed that only one in three companies tracked their hiring 
rates of candidates with disabilities.
    <bullet> Six in ten companies report a lack of familiarity with 
publicly funded service providers who source candidates with 
disabilities.
    <bullet> When asked why companies don't recruit more people with 
disabilities, they say they don't know where to source candidates.

    With these numbers as a backdrop, it's not surprising that only 3 
percent of new hires have disabilities and unemployment rates are 
stubbornly high.
                   nod's bridges to business program
    NOD's Bridges to Business program is an ongoing initiative to help 
employers to effectively recruit, hire, train and retain job-seekers 
with disabilities; and to help agencies that provide job training and 
placement services to job seekers with disabilities work more 
effectively with businesses.
    NOD provides the following services to these businesses that seek 
to hire, retain and promote Americans with disabilities:

    1. Training to management and Human Resource staff on disability 
hiring retention and accommodation practices, and training to general 
staff about the nature of disability in the workplace.
    2. Development of effective partnerships with community-based 
agencies and organizations that can effectively source and support 
candidates with disabilities.
    3. Goal-setting and measurement practices that help companies 
establish quantifiable goals for the hiring of candidates with 
disabilities; typically, NOD sets the minimum goals for this effort at 
10 percent of all new hires.

    But our work is not limited to support of businesses. As you have 
heard from a number of other witnesses, the public workforce 
development system for people with disabilities is often ineffective in 
its service both to people with disabilities, and to the businesses 
that seek to hire them.
    What should be a clear and focused support for citizens with 
disabilities is often a confusing, bureaucratic and disheartening 
system that traps the individual in dependence on public benefits.
    What should be a responsive and dynamic source of well-trained 
talent for businesses is instead an unresponsive series of agencies 
that presents countless points of contact, and too few results.
    As such, in supporting businesses, NOD has also been called upon to 
work with the many public and private agencies that ultimately should 
serve as their source of human resource talent. We provide the 
following services in support of providers of workforce development 
services:

    1. Training and consultation to build their capacity to be 
responsive to businesses' hiring and retentions needs.
    2. Facilitated partnership building and coordination between 
multiple agencies and providers, to ensure that they work together to 
provide more effective referral and services to businesses and career 
seekers, and a single point of contact for those businesses.
    3. Connections to businesses, and a facilitated process of joint 
goal-setting.
                 reccomendations for business services
    Our work with these companies has yielded a number of findings that 
we believe will be instructive to the HELP Committee as they continue 
their work on behalf of veterans--and all Americans--with disabilities.

    1. All agencies--including Vocational Rehabilitation, the Workforce 
Investment System, Developmental Disability Services, and various 
private organizations that contract with these agencies to provide 
direct services to career-seekers with disabilities--must present a 
business with a single point of contact through which the business can 
access the widest possible range of talent.
    2. Public agencies must recognize businesses as important customers 
of their systems, equal to the citizens with disabilities that they 
already serve. It is impossible to provide effective workforce 
development services to a job seeker without also providing the high 
quality services to businesses.
    3. The performance of these agencies and organizations should be 
measured in part by their effectiveness in serving businesses. We must 
hold these agencies accountable for the speed with which they respond 
to a business' job posting, the effectiveness of the training they 
offer to meet their talent needs, and the satisfaction of their 
business customers with the services they receive.
    4. To echo Randy Lewis's eloquent testimony before this committee:

          ``Businesses need an efficient and effective source of 
        talent, and the certainty that the candidates who are being 
        referred to them are the right match in terms of skills, 
        training and goals. While there are numerous other services and 
        supports required by career-seekers with disabilities, we 
        should structure employment services--and our means for 
        measuring their success--around these basic goals that are 
        essential to the success of both the business and the career-
        seeker.''

    5. Our current system of ``pay for performance'' for the community-
based providers of services has much to recommend it. It has the 
potential to inspire excellence in the services these organizations 
provide, and the kind of competition that ultimately fosters 
innovation. However, an unfortunate side effect of this system is the 
extent to which it discourages collaboration amongst both public 
agencies and private providers. Ultimately, this has led to a workforce 
development system for people with disabilities that is territorial; a 
system or providers that must compromise the overall effectiveness of 
its services to businesses and career seekers in hopes of earning the 
payments they need to survive and thrive. We strongly recommend that 
the current system of pay-for-performance that is used by so many 
agencies in their contracts with community providers be tempered with 
measures that recognize and reward, not punish, collaboration. By this 
means, we can begin to move toward a system wherein a single agency 
contact can act as the source of a much wider array of talent to its 
business customers, and one in which a more diverse range of career 
opportunities is available to every job seeker with disabilities.
    6. As we have done in the Workforce Investment Act, we must create 
a space for the perspective of business in the leadership and oversight 
of these agencies. This leadership will give these agencies insight in 
to labor market trends and businesses' hiring needs. It will focus the 
training and candidate sourcing efforts, and provide local and State 
accountability to the needs of the business customer.
    7. Finally, beyond policy, the members of this committee, their 
colleagues in Congress, the executive branch and the Federal Government 
must use their visibility to inspire businesses to commit themselves to 
hire, retain and promote Americans with disabilities. This does not 
mean regulation, which only intimidates and frustrates businesses. It 
means genuine leadership that begins with a clear and forceful call to 
action, and continues with the Federal Government fulfilling its goal 
of becoming a model employer of people with disabilities at all levels 
of responsibility, and in all types of jobs.
             deparment of homeland security hiring efforts
    On this last point, I can offer my personal insight from my time as 
the Secretary of the Department of Homeland Security. From the 
beginning, Homeland Security maintained a commitment to being a model 
Cabinet agency for the 21st century. And part of that commitment is 
reflected in our efforts to promote employment opportunities for people 
with disabilities, both those who are highly skilled and credentialed--
people to fill jobs at the highest GS and SES levels of this 
Department--and those who are seeking entry-level positions.
    When we had a position to fill, we asked one key question: what 
does this person have to offer us? If the person had the skills and 
enthusiasm and determination to help us further our mission, we wanted 
that person on our team.
    And so, it's in that spirit that I'm pleased to talk with you about 
a major initiative that I led at Homeland Security to make these words 
of commitment a reality, and to ensure that people with disabilities 
were given every opportunity to succeed at our Department. I issued a 
directive to all of the senior leaders of our Department that we must 
aggressively promote equal opportunity for people with disabilities.
    Under this initiative, there were several specific directives. Let 
me highlight a few:

    <bullet> Managers at Homeland Security headquarters completed a 
training course, designed to encourage them to interview and hire 
applicants and employees with disabilities. The course described the 
tools available to managers to help them successfully hire qualified 
candidates and included a panel of employees with disabilities who 
could talk about the barriers to employment and the steps that can be 
taken to knock those barriers down.
    <bullet> Additionally, every office within the Department was 
directed to engage interns with disabilities. These internships were 
valuable to both the students who built skills and experience, and the 
managers who learned how to ensure that people with disabilities have 
the necessary tools and opportunities to grow and contribute to the 
organization.
    <bullet> And finally, every office within headquarters was required 
to let our equal employment opportunity (EEO) program know about hiring 
needs in advance. Our EEO program developed a network of people with 
disabilities who were available to work, so that when they got advance 
information about job openings, they were be able to put those resumes 
on a manager's desk quickly.

    One thing to keep in mind is that the headquarters at Homeland 
Security is relatively small; the majority of the Department's 
employees are people on the front lines of the war on terror--they are 
in the field, stationed around the country everywhere from border 
crossings to airports to seaports.
    The initiative I mentioned was aimed directly at Homeland Security 
headquarters; and since we know that the ``one-size-fits-all'' approach 
wouldn't work, we also tasked each component agency under the 
department umbrella to develop a similarly aggressive strategy for 
hiring people with disabilities--one that was tailored to their 
specific circumstances.
    These are easy, effective and sustainable steps that can position 
all Federal agencies to take full advantage of the talent available to 
them in the American workforce. Further, these steps will allow us to 
speak with knowledge and authority when we give the same message to 
businesses.
                               conclusion
    In closing, I am aware that one of your ultimate goals is to 
address the disability benefits structure in America--a system which 
currently acts as an overwhelming disincentive to work for most 
Americans with disabilities. Currently, an individual who relies on 
Medicaid and Medicare benefits for their health coverage--which, for 
Americans with disabilities even more than most of us, is of huge 
importance--will be justifiably hesitant to risk these benefits in 
search of what must typically begin as entry-level employment. As such, 
we are asking would-be employees to take a huge risk in the name of a 
reward that, to most of these folks, seems all too distant.
    As we heard from an official representing one of the major Federal 
disability employment programs in a Reconnaissance we conducted in 
preparation for our employment efforts:

          ``You have to acknowledge at the outset that employment 
        policy in this Nation is simply ineffective with respect to 
        people with disabilities. We are at a crossroads because we 
        have created policies that are contradictory and create 
        dependency. . . . Basically, you couldn't purposefully design a 
        system more fundamentally flawed than this!''

    There are, of course, a complex system of Waivers and Buy-Ins that 
exist in many States that is designed to allow Social Security 
beneficiaries to work without losing their health benefits. However, 
these resources are often little-know, confusing and, as a consequence, 
underutilized.
    Essential reform will require a system-wide assurance for all 
career-seekers with disabilities that their health benefits through 
Medicare or Medicaid will not be threatened until they have reached an 
income threshold wherein it is reasonable to expect that they or their 
employer will be able to replace these benefits directly. Without first 
removing the pall of fear which hangs over every individual's job 
search, we cannot reasonably expect to foster the hope, the vision and 
the drive necessary to begin a successful career.
    The cause of these policy barriers, I believe, is rooted in the 
fact that these systems were originally created with little expectation 
that Americans with disabilities would ever be anything more than 
recipients of care; that they could not, in fact, become contributors 
to our economy, our tax base and our communities. It is not a lack of 
talent, drive or ambition in Americans with disabilities, but rather 
this tyranny of low expectation that has led to the opportunity gap 
between people with and without disabilities In America.
    This committee began its work with a clear message: that Americans 
with disabilities can and should be contributors, not recipients. I 
urge you to see that message through, to ensure that we see it repeated 
in every policy, every agency, and every service we deliver to people 
with disabilities.
    On behalf of the National Organization on Disability, I thank you 
for your time, your interest, on your vital efforts on behalf of all 
Americans with Disabilities.
        Attachment I: NOD Wounded Warrior Careers Early Outcomes
    Overall: 64 percent of 268 program participants are in education, 
work training or employed; this success rate is twice the average of 
wounded veterans who do not receive NOD's services.
                               education
    <bullet> 109 currently in education
    <bullet>  Success in education (attending, completed or in follow-
on education): 90 percent
    <bullet> Those not in school who are interested in education/
training: 89 percent
                        employment and retention
    <bullet> 70 percent of those employed have stayed in their job 
longer than 12 months
    <bullet> 71 percent have held only one job (vs. multiple)
    <bullet> Percent of jobs with benefits: 70-80 percent
    <bullet>  Satisfaction with employment/career goals: 93 percent (67 
percent a lot/26 percent some)
    <bullet> Satisfaction with job: 76 percent (21 percent very/55 
percent somewhat)
    <bullet> Satisfaction with job pay: 67 percent (19 percent very/48 
percent somewhat)
                                 other
    <bullet> Participation in volunteer programs: 20 percent
    <bullet> Career assistance provided to spouses: 30 percent
    <bullet>  Veterans with moderate to high degree of confidence in 
ability to achieve employment or career goals: 80-90 percent.

    Veteran Satisfaction: The following chart is derived from veteran 
satisfaction surveys and shows the level of satisfaction with NOD's 
career services in comparison to others. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Governor, thank you very much--a very 
profound statement. And I read most of it last night, too, and 
I said, you know, this is a person that has led by example, 
which you did as Secretary.
    Believe me, I'm well aware of what you did when you were 
Secretary of Homeland Security, breaking down these barriers, 
setting up systems. The problem is we're not seeing that going 
on in some of the other areas. And I think you kind of put your 
finger on it. We've built up a system that was sort of based on 
dependency. We built up this system, and we've just got to 
start breaking that down.
    And it's everything from independent living to outreach and 
getting young people with disabilities to understand that the 
default position for them is not to go into some kind of 
covered employment, but it's to be going out there in 
competitive employment. Get those young people out there. Start 
thinking about that. And we're working on that right now in 
terms of--with voc rehab, to get them to start looking at 
getting young people from the very beginning to think about 
themselves as being out there in competitive employment.
    I don't mean to go on too long here, but you struck so many 
chords there, Governor. But you mentioned, for example, on the 
100 percent disability thing--that just drives me nuts, you 
know. I see you understand that.
    Mr. Ridge. Yes, sir.
    The Chairman. You're 100 percent disabled. But that doesn't 
mean you can't work.
    Mr. Ridge. Exactly.
    The Chairman. And most people can work and want to work. 
And how do we break that down? How do we change that system?
    Mr. Ridge. Well, I don't think--first of all, I don't think 
you have to change the mind set of the individual that's given 
the designation and the categorization of 100 percent disabled. 
They already know, in most instances--and some of them, 
unfortunately, will have to have that social net, that safety 
net--maybe so impaired that it's virtually impossible. But we 
want to give everybody a chance.
    We have to recognize it may not be a possibility for 
every--but for the vast majority of people, it's a possibility. 
So you don't have to change the mind set of the man or woman 
with a disability. You have to change the mind set of the 
people--prospective employers. And that's where I think 
government has a role to play.
    Senator, I think you mentioned it. It's a matter of 
matching--nobody wants charity. But there's a lot of ability 
out there, and we just want to match the ability with the need 
of the government, the ability with the need of the employer. 
One of the things we did to try to--and, again, encourage--your 
point--young people--we hired interns with disabilities. We 
asked them to come in, and then we matched--on the adult level, 
we had an individual, wheelchair-bound who was in IT. We had an 
attorney who couldn't hear but was doing a lot of legal work. 
We had a service connected employee working on security.
    Match the need with the ability. And we like to say in NOD 
in the disability, it's the ability that counts.
    The Chairman. That's right. That's right. Governor, you're 
a breath of fresh air. Thank you very much.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    And thank you for your testimony. I was particularly 
impressed and want to emphasize page seven of your testimony 
when you say, ``When asked why companies don't recruit more 
people with disabilities, they say they don't know where to 
source candidates.'' And just before that, you said, ``Six in 
ten companies report a lack of familiarity with publicly funded 
service providers who source candidates with disabilities.'' 
Somehow we've got to get that all matched up because I really 
do think there are a lot of people out there that just haven't 
considered hiring people with disabilities. They don't even 
know what the process is or what's involved with it.
    So I appreciate what your organization does, and I'm very 
interested in the National Organization on Disability's Wounded 
Warrior Program. Could you talk a little bit about the partners 
that you have that work to achieve that goal?
    Mr. Ridge. First of all, we've been certainly supported by 
primarily private foundations to support us. Second, I think 
the cost per--as I mentioned before, it's a very cost-effective 
approach, and it's a model that we think could be scaled.
    What we basically do, Senator, is we have veterans 
supporting veterans and their families. As you can well 
imagine, when mom or dad leaves with all their normal 
capacities and comes home from a tour of duty without sight or 
in a wheelchair or is dealing with some of these hidden wounds 
of PTSD and TBI, it's not just the veteran you have to be 
focused on, but it's also the family that has to adjust. So 
there's a range of psychological and emotional and physical 
problems that we think--that's why we--and you mentioned it, 
Senator--it's almost a wrap-around service model that says for 
a year or two or three, in order to get the veteran career 
focused--and sometimes it's education and then career--but also 
the family acculturated, we really need to do more than just--
it's good to have all these programs that the Federal 
Government has, the Department of Labor has, the VA refers them 
to. But just referring them to a Web site or dealing with a 
career counselor, particularly for the severely disabled, 
that's just not enough.
    We have great partners in these local communities in the 
three projects we're working with, and we also have veteran 
caseworkers--veterans helping veterans. There's a certain 
empathy there.
    And we've talked to some of the veteran service 
organizations, and one of the things that they do--and you've 
got to give credit to these VSOs--many times, when there's a 
severe disability, they will send in--they don't talk about 
employment or careers, but they'll send in someone at the 
Walter Reed, for example, who's severely disabled as a result 
of their efforts on behalf of our country, and show them what 
they are presently doing, and almost begin to acculturate--it 
took a while to get here, but look what I'm doing now. I am 
employed. You can be employed. You can be a contributor.
    You said it right, Senator Enzi. There are a lot of 
partners. But it's a wrap-around support program that these men 
and women are certainly deserving of because of their service. 
But, again, the Bridges to Business--we focus on veterans, but 
nonveterans alike.
    Senator Enzi. Thank you. In the interest of time--I know 
you have a schedule--I'll submit some other questions in 
writing.
    Mr. Ridge. I hope you do. I'm happy to answer them.
    Senator Enzi. Thank you.
    Mr. Ridge. When I was Secretary of Homeland Security, 
getting QFRs wasn't exactly something that I encouraged--
questions for the record. It's not something I necessarily 
encouraged, but everybody was very responsive. But in this 
instance, bring them on.
    The Chairman. I'm very conscious of your time, but if you 
have at least one question or a comment, Senator Casey and 
Senator Blumenthal.
    Senator Casey.
    Senator Casey. Questions for the record. We'll get you 
some.
    Mr. Ridge. Good.
    Senator Casey. Governor, thanks for being--I don't want to 
hold you up. But thank you for being here.
    Mr. Ridge. Yes. I really apologize. I hope I get a chance 
to come back.
    The Chairman. Absolutely.
    Senator Blumenthal.

                    Statement of Senator Blumenthal

    Senator Blumenthal. I want to thank you for being here as 
well, Governor, and great to see you again. And thank you for 
your great work, particularly on disabilities of veterans. And, 
again, I don't want to hold you now, but I am very much 
involved in trying to work on behalf of veterans and 
particularly those whom you know firsthand have been injured in 
these last 10 years of war. And I'd welcome any comments that 
you have on the record now or, even better, afterward--perhaps 
be in touch with you directly on how we can improve what the 
United States does to help these wounded warriors.
    Mr. Ridge. I would welcome that opportunity. You know, we 
want our veterans to be employed, but there's a group of them 
that will come back with both visible and invisible injuries. 
They're going to need a lot more than what we're providing now. 
And what NOD has tried to demonstrate is that some of these 
veterans need more, far, far more than the well-intentioned 
programs that presently exist offer. And we hope that our 
approach can be scaled up, particularly with those with very 
severe disabilities.
    But, again, we are also mindful as we build Bridges to 
Business that there are millions of other Americans with 
disabilities that may--if we looked at them carefully, may need 
some more support. So the Wounded Warriors Careers Program may 
be a good model for a much broader group of Americans than just 
veterans. I will welcome that conversation, Senator, and thank 
you for the invite.
    Senator Blumenthal. Thank you.
    The Chairman. Well, Governor Ridge, again, thank you very 
much for being here, but also just for your great leadership, 
and through you, thank the National Organization on Disability 
for all that they do. We appreciate it very, very much.
    Mr. Ridge. Thank you.
    The Chairman. Thanks, Governor. Thank you.
    Now we'll turn to the rest of our panel. Ms. Deborah Dagit 
has been the vice president and chief diversity officer for 
Merck and Company for the past 10 years. She currently serves 
on the board of the U.S. Business Leadership Network and is the 
past chair of the Conference Board's Workforce Council on 
Diversity.
    Ms. Dagit has been a small business founder and owner, 
starting ``Bridge to Jobs'' in 1987, a firm that placed 400 
people with disabilities annually in full-time employment 
positions. She also worked with Representative Norm Mineta in 
the House for the passage of the ADA--thank you--and, as far as 
we know, is the only Fortune 100 company diversity officer with 
a visible disability.
    We welcome you.
    Our final witness is Ms. Amelia Wallrich, a recent graduate 
from the University of Illinois, Urbana-Champaign, and a rising 
first year law student at Northwestern University. Ms. Wallrich 
has been in Costa Rica as a goodwill ambassador for Mobility 
International USA, has served as an AAPD intern in Senator 
Durbin's office, has worked on international student exchange 
programs, and has been a campus leader in educational access 
for students with disabilities.
    So, again, I thank you both for being here. Your statements 
will be made a part of the record in their entirety.
    Ms. Dagit, we'll start with you. Welcome, and, again, 
please proceed as you so desire.

STATEMENT OF DEBORAH DAGIT, VICE PRESIDENT AND CHIEF DIVERSITY 
             OFFICER, MERCK, WHITEHOUSE STATION, NJ

    Ms. Dagit. Thank you very much. And thank you, Chairman 
Harkin and Ranking Member Enzi, for having me here today and 
allowing me to make this testimony.
    I come to this conversation as a person who was born with 
brittle bones, otherwise known as Osteogenesis Imperfecta. And, 
as you said, I led ``Bridge to Jobs'', which was actually a 
coalition of agencies, a private partnership with the public 
sector. We were very proud of how many people we were able to 
place. I also have been a vice president and chief diversity 
officer in the private sector for 20 years now.
    As a baby boomer, I attended school in the San Francisco 
Bay Area in the 1960s and 1970s. And at that time, my mother 
had to fight just to get me into public school. Today, as the 
parents of three teens who all have various types of 
disabilities, my husband, who's here with me today and also has 
a disability, we can attest that parental advocacy is still 
needed in our schools. Thankfully, it's not required to get 
into school, but rather to make sure that our children are not 
tracked away from competitive college and career preparation.
    As parents, we must also continue to work to affirm that 
our children's individual education plans are treated as 
environmental enablers in their education instead of as 
premature labels that stigmatize them and limit their 
potential. Our schools must have high expectations of all 
students, and in addition to high standards for academic 
performance, school experience must include critical 
socialization and work experiences for students with 
disabilities.
    There are three model programs that Merck actively sponsors 
and engages with that I would recommend for all firms: the 
Rutgers Future Scholars Program, Career Opportunities for 
Students with Disabilities, and the U.S. Business Leadership 
Network. All of these resources are highly effective and 
provide students with the supports they need to prepare for 
postsecondary education, transition to the workforce, and 
become active participants in their communities. My written 
testimony includes details about these, and I'd be happy to 
provide more information.
    In addition to external partnerships such as these, 
companies that are really serious about fully including people 
with disabilities in their workforce also need to make sure 
that they have the right internal policies and practices in 
place. For most companies, a major barrier to including people 
with disabilities is that they need to move away from the 
commonly held medical model that defines disability as some 
sort of deficiency that is inherently negative to a model that 
is more consistent with other aspects of how companies address 
diversity in their workforce.
    At Merck, we believe that for colleagues with disabilities 
to be viewed like other underrepresented groups, it is 
imperative to think about it through a social model that simply 
defines disability as different from the majority and neutral 
in the absence of additional context. Most importantly, it 
identifies the primary agents of change as company 
representatives and the person themselves.
    Our social model is embodied in our Workplace Enablement 
Program. Nora Velli and June Mills, our colleagues at Merck who 
are here with me today--and they lead that program, which 
provides work environment solutions for all employees with both 
nonapparent and visible disabilities. This resource positively 
impacts return to work after a health event and enhances 
productivity for employees, their managers, and their peers 
because they can quickly access accommodation solutions.
    Like many of us in this room, I am experiencing various 
changes associated with the aging process. In my case, that 
means my bones are becoming more fragile. Last year, I fell and 
broke both legs, which changed my needs so that I could still 
be safe and productive at work. Due to this program, rather 
than go on medical leave or retire early, I was able to quickly 
obtain the accommodations I needed, like door openers and my 
husband being able to accompany me on business, like this 
hearing.
    The barriers people with disabilities in this Nation face 
are persistent and not subtle. As an example, a mere decade 
ago, 10 years after the passage of the ADA, when the IT sector 
in Silicon Valley began to shed many jobs, I decided to pursue 
new opportunities in other industries, including healthcare, 
finance, and retail. I interviewed with many Fortune 250 
companies and was surprised and dismayed that despite my strong 
resume, which included 10 years of experience as a successful 
and well-regarded diversity leader, I was repeatedly rejected 
as a candidate when they met me in person.
    In one particularly memorable situation, after several 
phone interviews, I was flown first-class to New York City, put 
up in a five-star hotel, driven to the employer in a limousine, 
and then upon meeting me, the recruiter for the company 
canceled all the interviews. He explained that his firm was not 
comfortable considering someone like me for the role. However, 
given my subject matter expertise, he did wonder if I would be 
open to them hiring someone else who had strong media and 
government contacts but lacked diversity experience so that I 
could support their success from behind the scenes.
    Fortunately, shortly after this experience, I interviewed 
at Merck, where I finally found the perfect match. At Merck, I 
feel I am truly a partner in our mission to enhance and save 
lives.
    In closing, as parents, Dan and I know we can continue to 
be strong advocates for our children in partnerships with the 
schools they attend to make sure they are fully prepared to 
compete for jobs in our country. But if they are to fully 
contribute to this Nation as Americans with disabilities, I'm 
going to need your help. I will not be the chief diversity 
officer for the company they go to work for some day. And I am 
counting on the people in this room to make sure the public 
policy and legislative requirements are in place that not only 
help the United States to be more competitive in the global 
marketplace, but also ensure that my children are not 
stigmatized, marginalized, or excluded from contributing to 
their full potential. And I am at your service if I can help in 
any way.
    Thank you.
    [The prepared statement of Ms. Dagit follows:]

                  Prepared Statement of Deborah Dagit
    Chairman Harkin, Ranking Member Enzi and committee members, I am 
honored to participate in this committee's examination of employment 
opportunities and barriers for Americans with disabilities. I bring to 
this discussion both my experiences as someone born with a visible 
disability and my experiences in the business community as a human 
resources professional and chief diversity officer.
    I am a baby boomer, born in 1959 in San Francisco, CA at Letterman 
Army Hospital. The doctor who delivered me told my terrified parents 
that I had two broken femurs due to a brittle bones disease 
(Osteogenesis Imperfecta), and that I would not likely live beyond age 
2. He said that if I lived I would not walk or go to school. My parents 
carried me home on a pillow afraid that they would cause a fracture 
when feeding or caring for me. Although I would end up having more than 
70 broken bones and 25 major surgeries to straighten and strengthen my 
legs, I have been able to live a full and active life.
    Starting in the second grade I was able to attend regular public 
school. I went on to college and then entered graduate school for 
clinical psychology. I worked full-time, and went to school at night--
still experiencing fractures now and again--but they were less 
frequent, and I was able to live independently.
    Upon graduation I wanted to apply my skills in a corporate setting, 
but I faced many attitudinal challenges. Five different senior 
corporate executives told me that I should stop applying for more 
senior level positions. They felt I was ``lucky to have a job,'' and 
should realize ``someone like me'' could not expect to be in a 
leadership position.
    In 1987, when the COBRA act took affect, I decided to try a new 
strategy. COBRA created an opportunity for me. It allowed me to 
maintain my health benefits while I founded and managed ``Bridge to 
Jobs,'' a non-profit job placement agency for people with disabilities. 
We were able to annually place approximately 400 people with 
disabilities into meaningful employment. I learned from this experience 
that many people with disabilities also belong to other disadvantaged 
and/or under-represented groups including people of color, older 
workers, veterans, and individuals living in poverty or are otherwise 
economically challenged.
    In 1990 my Congressman, Norm Mineta, asked me to assist with the 
passage of a bill he was a key co-sponsor of in the House, the 
Americans with Disabilities Act. After much hard work by many, 
including the Chairman of this committee, I was honored to be there on 
the White House lawn when President George Bush signed the ADA into 
law.
    After that historic day, I thought about how best to make sure this 
legislation resulted in the intended outcome of ensuring that Americans 
with disabilities can fully participate in our society. I quickly 
realized the best place for me to affect change was back in the 
corporate sector--creating sustainable replicable models for full 
employment and inclusion of people with disabilities in the workforce.
    In addition to my extensive business and corporate experience, I 
also have a great deal of family experience. My husband Dan, who also 
has a disability, and I have three children who are now teenagers. They 
each have various disabilities, and we have learned much about the 
contemporary challenges youth with disabilities face educationally, 
socially, and in preparing for college and a career.
    In my professional life, I have been a ``Chief Diversity Officer'' 
(CDO) for 20 years in three different companies. Being the only CDO 
that I know with a visible disability, I have been honored to represent 
both the business perspective and the needs of people with disabilities 
in a variety of settings--including this important hearing. I have come 
to understand the enablers and barriers to fully including people with 
disabilities in the workforce. Today I would like to share my 
recommendations from these experiences.
 improving the lives of people with disabilities by moving to a social 
                                 model
    I strongly believe that the foundation of any changes in our 
current system needs to be rooted in moving our view of disability from 
a medical model to a social model.
    The medical model of disability is still prevalent in our country 
as evidenced by the manner in which Americans with disabilities are 
depicted through our language choices, media portrayals, fundraising 
activities, and program eligibility requirements. People with 
disabilities are routinely characterized as having some sort of 
deficiency, that their condition is inherently negative and needs to be 
ameliorated, and that the agent of remedy is some type of health 
professional's intervention. In the employment sector, we may do the 
most harm of all. Before individuals with disabilities are eligible for 
supplemental security income (SSI) or social security disability 
insurance (SSDI), they must declare they cannot work. This is the 
ultimate example of a deficit model approach, and is bad policy if we 
want individuals with disabilities to be part of the workforce.
    A social model defines disability as different from the average, 
neutral in the absence of additional context, and located in the 
interaction between individuals and society. The remedy in the social 
model is ensuring that the environment is accessible and that 
attitudinal barriers are addressed. In this model there are multiple 
individuals who might assist in this process, and self-assistance is 
often the primary mechanism. There are signs that this model is 
gradually emerging in our Nation's schools, programs, workplaces and 
policies, but we need to accelerate this paradigm shift to effect 
sustainable change and to ensure that individuals with disabilities are 
fully included in all parts of society.
    At Merck our philosophy about employees who have disabilities is 
that they likely have strengths that offset and are linked to their 
limitations. It is also likely that their limitations provide new 
perspectives that support innovative thinking. We believe that living 
life with some limits can hone skills and values that can enrich the 
contributions employees can make. The inclusion of people with 
disabilities in our workforce sets a tone, particularly in a health 
care company, which improves the work environment for all. It 
demonstrates a core principle, that better health care outcomes are 
achieved when consumers are empowered decisionmakers that make informed 
choices due to heightened health literacy and confidence. Diversity is 
our Nation's strength and competitive advantage in the global economy. 
We literally represent the world in one country, and if we could more 
consistently harness the available knowledge and insight of diversity 
of thought and experience through inclusive practices, we would be able 
to develop and deliver more innovative solutions faster than any other 
nation.
                         educational challenges
    Schools are the source of our workforce, but as early as middle 
school we are starting to lose talent in our country. Unfortunately for 
students with disabilities there is all too often a crisis of low 
expectations. While access to public education is better today than in 
the past, often children with disabilities (mine included) are 
``tracked'' away from college. While today's Individual Education Plans 
(IEPs) help, it is important that they be set up to enable students to 
attain the same academic standards as their peers, not just to pass 
standardized testing. An IEP needs to be viewed as an environmental 
enabler in our education system, much like a job accommodation in a 
company. The IEP should promote access to rigorous curricula that will 
enhance the opportunities for students with disabilities. It is 
important that we have the same standards for young people with 
disabilities. The tools available to access challenging curricula, 
including modified instructional techniques, assistive technology and 
accessibility as resources, will allow students with disabilities to 
achieve outstanding educational goals. This is consistent with the 
Elementary and Secondary Education Act expectations that are set forth, 
and we should be holding schools accountable for the rigorous academic 
achievement of students with disabilities.
    One great program that is currently underway and is similar to the 
U.S. Department of Education TRIO programs is the Rutgers Future 
Scholars Program (RFSP). This intervention at grade seven identifies 
disadvantaged youth, including young people with disabilities, and 
offers them a variety of invaluable resources including:

    <bullet> The program focuses on building the Scholar's social 
capital through collective efficacy. The RFSP is unique in that it 
creates a pipeline of support from 7th grade through college graduation 
(9-year continuum of support) providing academic year tutoring, 
mentoring, cultural and career-readiness activities, and summer 
learning cost free. Every year 200 Scholars are selected, and as of 
2011 the program serves 800 students from across New Jersey. Lastly, 
which makes this program extraordinary, every Scholar is promised a 
tuition scholarship to study at Rutgers if they earn admission upon 
graduating from high school.
    <bullet> Staff who work directly in the schools to obtain 
additional information about selected students, such as their 
Individual Education Plans. This informs the accommodations that are 
provided for the students while they are in the program and enables 
RFSP staff to maximize each scholar's multifaceted growth. All 
accommodations are defined and progress is tracked through the creation 
of an Academic Success Plan or Victory Plan. This is a key tool, 
enabling RFSP to provide optimal learning and accessible environments 
based on the students' strengths and challenges. As part of this 
planning school partners, parents, and the Scholar him or herself are 
included in the development of the plan.
    <bullet> The program's goal is to provide a wide variety of 
promising students who are underrepresented in higher education with 
the support needed to graduate from both high school and college. Thus, 
the program focuses on the many dimensions of differences of the 
scholars and provides support so the scholars can maintain a focus on 
inclusion as well as fostering educational equity.

    Public-private partnerships like the Rutgers Future Scholars and 
the U.S. Department of Education's TRIO programs demonstrate that this 
model of early support can have tremendous impact on students with 
disabilities when they are included in the target population.
    Once a student graduates from high school and begins their college 
experience, a new set of challenges emerges. While there is frequently 
some form of disabled student services on campus, designed to gain 
access to accommodations and various types of academic support, student 
career planning and placement centers are less accessible. Those career 
planning and placement centers often direct students with disabilities 
who are seeking employment advice back to the disabled student services 
offices. Disabled Student Services office staff, while often very 
qualified to provide accommodation for students while they are on 
campus, often know very little about the career planning and placement 
process and the labor markets in which students with disabilities might 
be interested. This leaves students with disabilities without the type 
of job placement resources that non-disabled students receive.
    But there is a solution: Career Opportunities for Students with 
Disabilities (COSD). In its 12th year, COSD is a network of over 1,200 
colleges, universities and national employers in the private and public 
sectors. They raise awareness regarding the unique challenges that 
students with disabilities face and help with career placement. They 
also encourage employers to specifically request access to students 
with disabilities during campus recruiting activities, and inquire 
whether or not the school coordinates their disability support services 
and career placement programs. The employers' advocacy, combined with 
information from COSD, leads more schools each year to adopt an 
integrated approach to supporting students with disabilities as they 
begin their job searches.
    Every year, contemporary information, resources and training are 
disseminated by COSD via conferences, summits and webinars to 
professionals in both higher education and employers. The goal is to 
enhance awareness of career development strategies and to foster best 
recruiting practices of college students and recent graduates with 
disabilities, including veterans. COSD Career Gateway provides direct 
service to college students through a nationwide, online, no-charge job 
posting and student resume database specifically designed for college 
students and recent graduates with disabilities. Finally, COSD 
coordinates ``Student Summits,'' regional networking events that bring 
together up to 60 college students, veterans and recent graduates with 
disabilities with employers in an intimate and relaxed setting to 
network and get to know one another. The purpose is to help students 
become more confident and be able to more positively present themselves 
to employers. These summits also allow hiring managers to become more 
comfortable interviewing students with disabilities in a no pressure 
setting.
    Other supports are needed to further the COSD model. For example, 
grant funding is needed to establish Communities of Practice with 
higher education institutions to identify the best method for each 
campus to outreach to students with disabilities for career development 
activities and to benchmark methods of collaboration between student 
disability services and career planning and placement. In 2010, a 
demonstration project, funded through the Medicaid Infrastructure 
Grant, was conducted with nine higher education institutions in New 
York State. The result was each campus identified their own unique 
model programs integrating disability support service and career 
placement services. These models were shared among the nine IHEs. A 
more extensive communities of practice model using this approach could 
be very helpful if it were replicated across the country.
    In addition, research is needed to specifically identify the 
barriers that prevent college graduates with disabilities from making a 
direct transition to work. This research should be conducted by 
disability categories to allow a more targeted plan to help students 
with specific types of disabilities that have a significantly more 
difficult time in finding career employment. This includes students 
with psychiatric disabilities, intellectual disabilities, autism and 
sensory disabilities (blindness and deafness). As you can see, COSD is 
a great model for accessing college students with disabilities, but for 
companies of all sizes to access candidates at all career levels, 
additional partnerships are needed.
                         employment challenges
    At Merck we collaborate with and support the US Business Leadership 
Network (USBLN) where I am proud to serve as a board member. It is a 
national disability organization that serves as the collective voice of 
over 60 Business Leadership Network affiliates across North America, 
representing over 5,000 employers. The USBLN helps build workplaces, 
marketplaces, and supply chains where people with disabilities are 
respected for their talents, while supporting the development and 
expansion of its local BLN affiliates.
    The membership of the USBLN believes that the following public 
policy changes would expand the pool of job candidates and 
entrepreneurs with disabilities:

    <bullet> establish appropriate affirmative action expectations for 
people with disabilities as with other under-represented groups. We 
also suggest there be an expansion of the census survey to include 
questions that help bridge the gap between occupational information and 
demographics inclusive of people with disabilities and veterans. For 
those that are unemployed, we could leverage the educational attainment 
tables to set more aggressive hiring goals. In the interim, it may be 
worth establishing a percentage hiring goal for a location as the 
available pool of talent with disabilities varies across the country 
due to practical matters like access to public transportation and other 
forms of infrastructure that are required.
    <bullet> evaluate the impact of developing a standardized 
definition of disability across all Federal programs. The USBLN 
believes that Federal agencies need to have better alignment about when 
it is appropriate to ask about a disability and necessary 
accommodations and supports; in addition, companies need to make the 
self-disclosure process for employees with disabilities something that 
is both easy to do (separate from requests for workplace 
accommodations) and as risk-free as possible.
    <bullet> evaluate the impact of modernizing the Social Security 
definition of disability by defining disability in a manner that 
acknowledges the interaction between the person's disability and the 
environment, and does not require the individual to prove their 
inability to engage in substantial gainful activity.
    <bullet> create employer incentives to increase the availability of 
effective workforce retention policies and programs to keep working 
adults with newly diagnosed or recently exacerbated medical conditions.
    <bullet> develop financial incentives for businesses to provide 
transportation subsidies for employees with disabilities.
    <bullet> promote international accessible design standards for 
building environments, transportation vehicles, and information and 
electronic technology.
    <bullet> create incentives for the parent and academic communities 
to promote STEM careers for students with disabilities.
    <bullet> authorize research to collect hard data about the 
discretionary spending power of people with disabilities, the actual 
and potential employment pool of persons with disabilities, the 
disability market share, and the long-term ability of people with 
disabilities to retain employment.
    <bullet> authorize a comprehensive review of statutory and 
regulatory authorities addressing procurement and acquisition of 
Federal contracts and develop proposals for revisions, as necessary, to 
insure increased utilization by, and awarding of contracts to, 
disability-owned business enterprises.

    The USBLN's flagship program is the Disability Supplier Diversity 
Program (DSDP). DSDP is the Nation's first and only third party 
certification program for disability-owned businesses and includes 
service-disabled veterans. The certification is a rigorous process that 
includes a site visit. It offers the Disability Owned Business 
Enterprise the opportunity to market its certification and to connect 
with USBLN member companies. The program advances economic 
opportunities for all entrepreneurs with disabilities, by working with 
America's top corporations to broaden corporate supplier diversity 
programs to include disability-owned businesses. The ultimate goal of 
the Disability Supplier Diversity Program is to develop and grow an 
infrastructure that will foster a mutually beneficial relationship 
between corporate purchasers and disability-owned businesses.
    The business community needs research to effectively build the 
business case to broaden corporate supplier diversity to include 
disability-owned businesses. The research should:
    <bullet> identify the pool of entrepreneurs/potential suppliers 
with disabilities;
    <bullet> identify barriers and facilitators experienced by 
disability suppliers;
    <bullet> examine issues of capacity development, job creation, 
effective relationships with corporations, and inform more targeted 
capacity/business development for disability-owned businesses; and
    <bullet> identify facilitators and barriers to becoming a 
successful supplier and coming to scale as a business, and working 
effectively with corporations.

    Once a company has successfully recruited people with disabilities, 
the next step is to ensure full inclusion in their workforce and 
workplace. At Merck we have a ``Workplace Enablement'' program that 
provides supportive, productive and flexible work environment solutions 
for employees with both non-apparent and visible disabilities. This not 
only ensures we are fully compliant with regulations, but positively 
impacts return to work after a health event, and enhances productivity 
for employees, their managers and peers who can quickly access 
appropriate accommodations solutions.
    There are four key pillars in the program:

    <bullet> Inclusion messages that ensure the program is well 
understood and easily accessed by employees, managers, and the human 
resources community.
    <bullet> Linkages to our broader health and wellness initiatives to 
ensure all employees are proactively engaged in our fit and healthy 
efforts.
    <bullet> Ensuring full compliance with ADAAA and OFCCP guidance and 
associated documentation requirements.
    <bullet> Training for managers to support confidence and capability 
by addressing any concerns around language choices, accommodations, and 
performance management; linking these efforts to the broader talent 
objectives (e.g. retaining top talent after the advent of a health 
challenge), the business case for disability inclusiveness, an overview 
of the ADA Amendment, and some case scenarios to ``make it real.''

    At Merck we also have evaluated other aspects of company life to 
ensure full inclusion of people with disabilities:

    <bullet> We have created guidelines and checklists for ensuring 
meetings are accessible and that accommodations are readily available 
for travel, hotel requests, accommodations for presenters with a 
disability, and dietary needs.
    <bullet> We have evaluated and addressed various access issues to 
Merck facilities for both guests and employees to make sure our 
environment is safe and welcoming.
    <bullet> We ensure that development opportunities, both virtual and 
classroom, are accessible.
    <bullet> We routinely included closed-captioning during major 
business meetings and make this service or sign language interpreters 
available to colleagues upon request for smaller meetings.
    <bullet> We offer a variety of work/life tools and resources, 
including ready access to flexible work arrangements, and a variety of 
home health support through an external partner.
    <bullet> We include entrepreneurs with disabilities in our supplier 
partner programs.
    <bullet> Merck has partnered with eSSENTIAL Accessibility, a 
provider of a software-based service, to make online environments fully 
accessible to individuals with physical disabilities.

    Our desired outcome at Merck is that candidates and colleagues who 
have a disability believe that ``Merck is always there for me. They 
know that I am not defined by a disability, but by the contributions I 
am able to make to my team's goals.''
    Finally we have a very active Employee Resource Group for 
colleagues with disabilities, caregivers and allies. The members of 
this team have helped us to develop our approach, as outlined above, in 
keeping with the social model of disability. The Employee Resource 
Group has played a key role in executing our disability support and 
diversity programs. We truly believe that our efforts to fully include 
people with disabilities in our workforce will help Merck to achieve 
our mission: to become the most trusted and valued healthcare company 
to all people.
                         final recommendations
    Prior to joining Merck in 2001, I interviewed with many Fortune 250 
companies, most of them on the East Coast. I was surprised and dismayed 
that despite my strong resume and 10 years of experience as a 
successful and well-regarded diversity leader, I was repeatedly 
rejected as a candidate and was explicitly told it was because of my 
disability. In one particularly memorable situation, after several 
phone interviews, I was flown to New York City for an interview. Upon 
meeting me the recruiter cancelled all my other interviews. He 
explained that the firm was not comfortable considering someone like me 
for the role. However, given my subject matter expertise they wondered 
if I would be open to working ``behind the scenes'' if they hired 
someone with strong media and government contacts who did not have 
diversity experience. Obviously, I declined the offer.
    I am interested in contributing to society, and fortunately when I 
interviewed at Merck, I found the perfect match. At Merck I feel I am 
truly part of our mission to enhance and save lives by addressing unmet 
medical needs. I believe I can have particular impact in under-served 
communities. When I interviewed at Merck, their chief concern was 
whether or not I was willing to relocate from California to New Jersey, 
a move I have learned is not all that common in our country. Now having 
served as a chief diversity officer for 20 years, I would offer the 
following parting thoughts regarding full inclusion strategies for 
people with disabilities:

    Recommendation #1: Like many who identify as a person with 
disability from a young age, I was told that I was ``special.'' 
Everything I was involved with was ``special.'' This included the 
special school I attended for the first few years, the reason why the 
local newspaper featured me regularly in the Sunday living section, the 
wheelchair I used after a broken bone or surgery, the place where I 
received healthcare, and the various adapted activities I engaged in--
all were ``special.'' Fifty years later, we still commonly use 
``special'' to describe the ways our society thinks about people with 
disabilities and the associated products, services, and activities we 
use. The intent was and is to depict these things in a positive light. 
The reality is that if you are special enough to be periodically 
featured in the Living or Community section of your newspaper, whatever 
health condition you are managing is the least of your worries. You 
have now entered a world where people are either characterized by 
society as ``poor souls'' who are dependent on others, or 
``inspirational heroes'' who make those who don't have a disability 
shake off their worries and say, ``If they can do X, (fill in the blank 
activity), why then I should stop feeling sorry for myself and do more 
with my life!''

        Recommendation: Avoid the word special when referring to 
        programs, services, building, and other supports related to 
        disability. We have done a good job of eradicating 
        ``handicapped,'' ``crippled,'' ``confined,'' ``afflicted,'' and 
        various other damaging words to describe people with 
        disabilities. Let's go the distance and work on this last word 
        that damages self esteem and sets people apart. For firms that 
        have a global footprint, they may want to consider adopting 
        ``differently able'' or other country-specific language which 
        translates better than ``disability.'' Unfortunately 
        ``disability'' in some languages translates as not valued or 
        less valued. It is also important to take the time to ask and 
        seek to understand how each sub-community of people with 
        disabilities prefers to be referred. For instance those with 
        hearing impairments prefer to be referred to as ``deaf,'' 
        individuals who are of small stature, like my husband and I 
        prefer ``short-statured'' over ``midget,'' and people with 
        intellectual disabilities prefer ``developmental disabilities'' 
        vs. ``mental retardation.'' Words matter.

    Recommendation #2: Managers of people with disabilities sometimes 
assume that everything is fine because the person with a disability who 
works for them is not complaining, even if they have remained in an 
entry level role for an extended period and are not interacting with 
people outside of their immediate work area. These employees are highly 
vulnerable to reductions in the workforce as their skills often become 
dated and they are typically not visible to more senior leadership when 
business decisions are made about layoffs and workforce reductions.

        Recommendation: Make sure programs for individuals with 
        disabilities continue to enhance their job skill development 
        after the person is hired. Ensure managers continue to follow 
        the progress of people with disabilities once they join the 
        firm to ensure they are reaching their full potential to 
        contribute to the business. If people with disabilities are 
        languishing in entry level roles, find out why, even if they 
        are not complaining, and support them to grow and develop. If a 
        firm has low expectations, of anyone, those employees will 
        likely live up to those low expectations.

    Recommendation #3: Caregivers should be considered. My husband Dan 
and I both have disabilities ourselves, and are also caring for three 
children with disabilities. We also care for my mother who is 
challenged by various conditions. We are just as grateful for the 
resources and supports that we have access to as caregivers as for the 
workplace accommodations I have had available to me over the years. A 
company's reward for addressing the needs of caregivers as part of 
their corporation's disability strategy is more engaged employees who 
are getting the support they need to care for a loved one so they can 
focus at work. Examples of resources we provide along those lines at 
Merck include elder care resource and referral, college planning 
resources for parents of children with autism spectrum disorders, a 
robust Employee Assistance Program, back-up child care, flexible work 
arrangements and various internal networks for caregivers to exchange 
ideas and resources.
    There are some risks to focusing on the care-giving population as 
part of an overall approach to addressing disability at work. The 
``out'' caregiver population is usually much larger than people who are 
willing to self-identify as having a disability. As a result the needs 
of this group can over-shadow the needs of the individuals who are 
differently able, and they do tend to be different. Caregivers are 
often focused on how to help their loved one get the quality health 
care and education-
related support they need. People with disabilities are focused on 
career development, accommodations in the work environment, inclusion 
in company social activities, and social justice/equality issues like 
other under-represented populations in your workforce.

        Recommendation: Combine the two groups to create a critical 
        mass for disability initiatives. Because there are some common 
        interests, this can help programs be sustainable and help 
        companies identify and train workplace ``allies'' who will 
        create momentum. Separate and clearly articulate the needs and 
        priorities of the two groups making sure that both are 
        experiencing visible and substantive progress towards their 
        most pressing concerns.

    Recommendation #4: Companies should foster an environment where 
people are comfortable with their disabilities. Then they are able to 
more freely ask for what they need to be fully productive, engaged, and 
included. It is useful to look to the lessons learned from the work 
those of us in the field of diversity and inclusion have done in the 
Lesbian Gay Bisexual and Transgender (LGBT) community, which faces many 
similar challenges around being out at work:

    <bullet> Ensure benefits plans and flexibility policies are 
equitable and accessible (e.g. eliminate pre-existing condition clauses 
in medical plans, provide coverage for mental health support, manage 
employees by objectives vs. face time).
    <bullet> Engage allies in the workplace, and provide them with the 
language and tools of empowerment like ``differently able'' and 
``wheelchair user.'' It was a big deal for the LGBT community when 
company leaders could say those four words in the acronym. We need to 
do the same for those who have been traditionally known as 
``handicapped.'' Refer to this group in a manner that is empowering and 
deserving of respect as colleagues and consumers vs. in the context of 
philanthropy. Create ``safe space'' efforts where allies are available 
as visible confidantes to interrupt misinformation and champion full 
inclusion.
    <bullet> Make sure your business case is strong and well-
articulated for this population, which is well-represented both in the 
labor pool and marketplace. LGBT and disability populations are very 
similar in size and buying power.
    <bullet> Ensure that senior level leaders who have a disability are 
visible as role models and have them address head-on the perceived 
risks around being out and the importance of bringing all of who you 
are to work.
    <bullet> Invite other Employee Resource Groups to support 
disability efforts. Since all other groups include people with 
disabilities there is a strong case to be made for everyone getting 
involved in the efforts for this constituency. Remind your ERG members 
that cultural differences can lead to additional challenges for people 
who have a disability, and if we are to address the needs of this 
population, as we have done with LGBT, we need to be courageous enough 
to say out loud how these cultural norms compound the challenges people 
with disabilities face.

        Recommendation: Apply best practices and lessons learned from 
        LGBT advocacy work in addressing needs of employees who are 
        differently able.

    Recommendation #5: With the current conflicts in the Middle East 
and the many service men and women who are returning with both hidden 
and visible disabilities, there is a new call to action we must meet. 
The military is looking for corporate partners to help them in 
supporting veterans who are transitioning back to civilian life. Now 
more than ever it is important that we invest time and effort in 
understanding the transferrable skills that these men and women learned 
during their service and how they might be applied in our industries. 
We also need to educate ourselves in the various hidden disabilities 
that are all-too-prevalent in this population including post-traumatic 
stress disorder, traumatic brain injuries, and various other chronic 
health conditions that are the result of the extreme and dangerous duty 
they lived through.

        Recommendation: Develop partnerships with military leadership 
        to understand and transition returning veterans. At Merck we 
        have formed a Veteran's leadership network that is made up of 
        about 500 men and women from all branches of the military who 
        have informed our outreach, recruitment, accommodation, and 
        inclusion efforts in a manner that is respectful, sensitive, 
        and credible. We are encouraged by the enthusiasm of our Merck 
        veterans who are applying their can-do spirit to the challenges 
        associated with matching returning veterans with our job 
        opportunities.

    I feel very fortunate to have had several people in my work life 
who gave me the opportunity to demonstrate that I am differently able. 
Their names and faces are always with me. I know how important it is to 
evaluate a person with a disability to determine what they are capable 
of and what they have not yet demonstrated. We should all strive to be 
that person who sees what is possible.
    Since the Americans with Disabilities Act was signed into law 20 
years ago many things have changed, but I think we can all agree that 
we have not yet achieved the vision of economic empowerment and 
meaningful employment for people with disabilities that we all dreamed 
of that day on the South Lawn of the White House. As we near this 
milestone anniversary let's celebrate the laudable successes, and 
redouble our efforts to address unemployment and under-employment of 
people with disabilities.
    In closing, as parents, my husband and I know we can continue to be 
strong advocates for our children in partnership with the schools they 
attend to make sure they are fully prepared to compete for jobs in our 
country. But if they are to fully contribute to this Nation as 
Americans with disabilities, we will need your help.
    I will not be the chief diversity officer for the company they go 
to work for some day, and I am counting on the leadership of our 
country to make sure that public policy and legislative efforts are in 
place that not only help the United States to be more competitive in 
the global marketplace, but also ensure my children are not 
stigmatized, marginalized or excluded from contributing to their full 
potential.
    I am at your service if I can help in any way.

    The Chairman. Thank you very much for your testimony and 
for being here. And now we'll go to Ms. Wallrich.
    Welcome. Please proceed.

    STATEMENT OF AMELIA WALLRICH, LAW STUDENT, NORTHWESTERN 
                   UNIVERSITY, FRANKFORT, IL

    Ms. Wallrich. Thanks. Good morning, Senator Harkin, Senator 
Enzi, and Senator Casey. Thank you very much for the 
opportunity today. It's an incredible honor not many people of 
my age have the chance to take part in.
    I'm also particularly indebted to this committee. I grew up 
in the generation that had the benefits of the Americans with 
Disabilities Act and the IDEA, and many of the opportunities 
and my successes come from the protections of this law. So I 
thank the committee and, in particular, Senator Harkin, for 
your tireless leadership in continually pushing our community 
forward and making sure we have continual access.
    I'm also incredibly indebted to my fellow witnesses who 
served as role models and definitely pushed these laws forward 
so that future generations would have so many more 
opportunities. And we're doing our best to make the most of 
them.
    As you've read in my testimony, I grew up with a rare 
genetic bone disorder that causes limitation in the joints. So 
my hands and feet are basically frozen in their positions, and 
my knees, elbows, and shoulders have limited movement. I'm able 
to walk and stand for short periods of time, but mostly I use a 
motorized scooter to get around. I use other accommodations in 
school and the workplace when I have to do a lot of writing or 
typing, and at home I use devices for putting on my shoes, 
turning on lights, so that I can live independently.
    One of the unique perspectives I guess I can add is that I 
am the ADA generation. ADA is 21 this year. I'm 22. So I had so 
many of the opportunities because of this act. I did not have 
to fight to have access to school, which was very fortunate, 
because I love school. But I did, as you said, need a lot of 
parental advocacy to make sure that I was continually part of 
the learning environment.
    I am very fortunate that I have a very assertive mother who 
continually pushed and advocated on my behalf with school 
officials, making sure that I wasn't placed into a special ed 
classroom, that I had access to advanced courses, that I had 
access to aids that helped teach me self-advocacy skills so 
that I did not have to rely on an adult or a school official to 
tell teachers about my needs. I could talk to them myself, and 
that was hugely instrumental in not only my transition to 
secondary education, but to higher education, and now on to law 
school.
    But also in the workforce, when I get a job, I'm not going 
to bring my mother with me to my interview to sit next to me 
and tell them about me and my disability. I'm going to be there 
on my own, saying,

          ``Yes, I can do a fantastic job, but I need a little 
        help. Maybe you can not put me in the office at the top 
        of four flights of stairs, and you could have a nice, 
        strong intern carrying the heavy boxes.''

    These were very, very key, and a lot of students with 
disabilities--I wish sometimes I could clone my mother. Maybe 
I'd like to add a little caveat to that. I'm definitely not 
showing her this testimony so she doesn't hear that.
    But she was great in the sense that she never wanted me to 
be dependent. She wanted to stay out of my way so that I could 
do what I wanted. But she was very aware that she needed to 
teach me how to speak for myself so I could go out into the 
world. And I think that self-advocacy training is still a big 
part of the job transition and the school transition that is 
overlooked.
    It is great that we have all these resources. But we need 
to learn how to get those resources on our own. And that's 
where I had the huge benefit, not only in school but also in 
structured internship programs, to be able to have role models 
with disabilities that said, ``Well, this is how it works in 
the workforce; this is how you can present your disability so 
your employer will understand,'' and having resources to kind 
of bounce ideas off of or places to go when I have questions on 
how to further my career and how to resolve issues with 
disabilities.
    The last thing I want to say is, as you're considering 
legislation, you should keep youth with disabilities at the 
forefront. As the ADA generation, we grew up with the 
expectation that we would have high successes, and we really 
expect those to be met in the laws that you guys are making. 
And as you're considering broad education and employment 
legislation, youth with disabilities should be included with 
those, not an afterthought. We should be at the forefront, 
because we matter as well. And we're more than capable of being 
strong and hard workers to contribute to our economy and our 
society.
    Thank you.
    [The prepared statement of Ms. Wallrich follows:]

                 Prepared Statement of Amelia Wallrich
    First, I would like to thank Chairman Harkin, Ranking Member Enzi, 
and the other committee members for the opportunity to speak today. As 
a young person with a disability, just beginning my career, it is an 
incredible honor to be able to share with you a little about my 
employment and educational experiences and my hopes for the future.
    My name is Amelia Wallrich, I am 22 years old, and am from 
Frankfort, IL, a small suburb of Chicago. I was born with a rare 
genetic bone disorder, called Torg Syndrome. I am one of a handful of 
people in the world with this disorder, and doctors are still 
researching its root causes, treatments, and the way the disorder 
progresses. The disease works by causing inflammation in the joints, 
when a joint becomes inflamed I experience extreme pain and a loss of 
full movement in those joints. The inflammation has resulted in 
weakened bones and limited movement in almost every joint. My hands and 
feet are basically frozen in their positions, and my knees, elbows, and 
shoulders are limited in their movements. I was 13 months old at the 
disease's onset, and it has steadily progressed, affecting more joints, 
as I aged. Because the disorder is so rare, treatment is more of an art 
than a science, and doctors are unsure how the disorder will progress 
and affect me in the future. Doctors have tried to slow its progression 
with intensive physical therapy, various drug therapies, and most 
recently surgery.
    In my day-to-day life, my disability affects how I move. I am able 
to walk and stand for short periods of time, but mostly I use a 
motorized scooter. I have difficulty with tasks requiring fine motor 
skills, for example I write and type more slowly than the average 
person. Therefore, in the academic setting I use extended time on tests 
and note taking services. At home, I use devices for putting on my 
shoes, opening jars, even turning on lights. Additionally, I struggle 
with unexpected ``flare ups,'' where any type of movement becomes too 
painful, and I require assistance with basic tasks.
    My goal through this testimony is to share my experiences in 
preparing for the workforce. In doing so, I hope to highlight some of 
the obstacles facing young people with disabilities seeking employment 
and some ways these obstacles can be eliminated or minimized. As you 
will see, I benefited greatly from mentorships, self-advocacy and 
leadership training, structured internships, and an inclusive 
educational environment that understood as a young person with a 
disability I required a customized approach to integrate into the 
workforce.
                              expectations
    As young people, we often rise to the expectations society sets for 
us, whether positive or negative. At a basic level, society needs to 
learn to have higher expectations for youth with disabilities. Youth 
with all types of disabilities should be expected to be successful in 
school, to be permanently employed, and to be active, contributing 
members of their communities. Higher expectations are a basic 
foundation for any other supports for people with disabilities. To meet 
these expectations, youth with disabilities need the same access to 
opportunities to grow and develop as any young person, but customized 
to their specific abilities. The path to permanent employment for 
people with disabilities should include:

    <bullet> customized support in job seeking and career preparation 
services;
    <bullet> self-advocacy training that teaches youth how to manage 
and accommodate their specific disability in the workplace;
    <bullet> leadership training to compliment self-advocacy skills;
    <bullet> opportunities to gain work-related experience through 
internships and community service activities that allow youth with 
disabilities to explore their talents and gain new skills in a 
supportive environment; and
    <bullet> access to an inclusive education that teaches youth with 
disabilities skills that are marketable in the workforce.

    Every person with a disability will have different strengths, 
different needs, and access to different resources, but the important 
thing is that every person with a disability is capable of being a 
contributing and valued member of the community. Society and employers 
should be flexible in bringing out the many talents of youth with 
disabilities and in making accommodations.
    A little bit more about my background, I graduated from Lincoln-Way 
East High School in Frankfort, IL in 2007 in the top 3 percent of my 
class. I attended the University of Illinois at Urbana-Champaign, where 
I majored in English and Political Science, graduating in December 2010 
cum laude. In August, I will begin law school at Northwestern 
University. Eventually, I plan to become a lawyer working in disability 
rights advocacy. I have an older sister who lives and works in 
Switzerland as a stock trader and analyst. My mother works as a 
Community Development Director in local government and my stepfather is 
an instructional designer for food safety training. I benefited greatly 
from my parents hard work, both are highly educated and work to offer 
their children every possible advantage in life. From the time I began 
preschool, my mother constantly battled to ensure I had the same 
opportunities as everyone else and never let anyone use my disability 
as an excuse to hold me back.
    I wish I could say the experiences I will share with you are 
typical for youth with disabilities, but too often they are the 
exception. In part, much of my relative success has been due to the 
expectations set by my parents that pushed me to seek out opportunities 
that would make me competitive in the workforce. It was never a 
question that I would graduate college, attend law school, get a job, 
and eventually provide for my own family. My parents' expectations were 
the same for my sister and I; my disability did not diminish these 
expectations, it just changed the way I went about achieving my goals. 
My family's expectations helped me form the expectations I have for 
myself. These expectations are the basis for all my goals and give me 
confidence in pursuing new opportunities.
    I experienced both high and low expectations from teachers during 
my educational career. Those with high expectations offered the most 
support in accommodating my disability and ensuring I was a full 
participant in the classroom. They were flexible and open to helping me 
make the most of my abilities. Teachers with low expectations were 
predictably less supportive. I had to work twice as hard in those 
classrooms to have the same basic access to learning, and often needed 
to continually educate these teachers about my disability and remind 
them of my accommodation needs. Often this resulted in my spending more 
time trying to accommodate my disability than learning. During college, 
I found much more consistent support because high expectations and 
equal access for students with disabilities is a large part of the 
campus culture and history at the University of Illinois at Urbana-
Champaign. The disability services department works on behalf of the 
student to set up all accommodations, and students with disabilities 
are active in all aspects of campus life--from Student Senate, to Greek 
life, to adapted athletics. This type of culture meant I was able to 
focus fully on working towards my goals and had access to a variety of 
specialized resources to help me throughout my education and in seeking 
work experience for future employment.
    In the workplace, when employers had high expectations of me, I was 
given more responsibilities and thus more opportunities to learn new 
skills. When employers expected very little of me, it was a struggle to 
receive meaningful projects. With my first internship at Odelson & 
Sterk, a law firm in Evergreen Park, IL, my boss, Burt Odelson, 
expected me to attend law school and someday be a practicing attorney, 
so he gave me a variety of projects to introduce me to the work of a 
lawyer and to help develop my research and writing skills.
                        access to opportunities
    In addition to high expectations, I received support in reaching my 
goals through opportunities to job shadow, perform internships, and 
hold part-time jobs. I was lucky that my mother worked outside the home 
in local government and was therefore able to provide me with a range 
of job shadowing opportunities and introductions. Beginning in junior 
high, I participated in job shadowing programs in the local government, 
where a group of students were able to observe the work of local 
leaders, ask them questions about their careers, and learn about the 
education and experience needed to attain these positions. Both of my 
parents also participated in ``Take Your Daughter to Work Days'' 
throughout junior high and high school where I had the chance to 
observe a typical day in a professional setting. This allowed me to 
observe and understand more about workplace cultures, how meetings are 
conducted, how employees interact with each other and their bosses, and 
more basically what is expected of an employee on a day-to-day basis.
    These job-shadowing opportunities provided me with connections and 
confidence to find part-time jobs during high school to further develop 
my resume. My first job was as a receptionist in a local bank. Finding 
employment through family and community connections made it much easier 
for me to transition into the workforce because I did not have to 
figure out how to ``break the ice'' about my disability, my boss 
already knew me and any accommodations I might need. This allowed me to 
worry less about managing my disability in the workplace and instead 
focus on learning professional skills. Through my job as a receptionist 
at the bank and later as a receptionist at a real estate agency, I 
learned how to interact professionally with customers on the phone and 
in person, communicate with my supervisors and coworkers in a 
professional setting, and a variety of other soft skills like using fax 
machines and copier machines, clerical work such as filing and typing, 
dressing professionally, and managing a work schedule. Having part-time 
jobs during high school was also important for building a competitive 
resume for college admissions. Additionally, it provided me with 
references and helped me develop a professional reputation for seeking 
internships in the future.
    Having a job also taught me important independent living skills 
related to finances. When I started earning a paycheck, I opened a 
savings and checking account, and my parents taught me how to balance 
my checkbook, create a budget, and plan for future expenses. These 
basic skills started teaching me about responsibility and gave me a 
preview of adult life.
    The next step in my preparation for permanent employment was 
seeking an internship. Too many students with disabilities do not seek 
out internships because they do not have access to supports to show 
them how to disclose their disability in a work environment or how to 
seek accommodations. Additionally, if there are low expectations of a 
student with disability in an educational setting, it is unlikely a 
mentor will push a student with a disability to seek an internship, job 
shadowing opportunity, or part-time job to further develop their work-
related experience. I received guidance from my parents, my 
University's disability services department, and a structured 
internship program for people with disabilities on the importance of an 
internship and how to manage my disability in the workplace.
    As mentioned, at my first internship at Odelson & Sterk I was 
fortunate to have a boss who cared a lot about my success and was 
flexible as I learned how I would need to accommodate my disability in 
a professional setting. He continually checked in to see how I was 
navigating the office and introduced me to a wide range of jobs and 
experiences. He gave me meaningful work so I could gain a holistic view 
of a lawyer's job. He pushed me to speak with the various attorneys' in 
the office so I could hear many different perspectives and get advice 
from a variety of sources. Successfully completing an internship in my 
field of interest raised the expectations I had for myself and renewed 
my confidence in seeking permanent employment as a lawyer. More 
importantly, the internship taught me the practical skills needed to 
reach my career goals and showed me the steps I would need to take in 
working towards these goals. This internship experience was essential 
for developing a professional network that helped me build a stronger 
resume and provided professional references that helped me seek even 
more competitive internships and eventually apply to law school.
    After my junior year of college, I participated in a structured 
internship program geared towards mentoring students with disabilities 
through the American Association of People with Disabilities (AAPD). 
This internship program provided training on self-advocacy in a 
professional setting. Through the program I was a congressional intern 
in Senator Durbin's office. This internship was the first job I held 
without the assistance of family or community connections, which meant 
I was responsible for communicating information about my disability and 
any accommodations I would need. AAPD's assistance was key in helping 
me navigate this new arena, they asked questions about my disability 
and necessary accommodations that helped me frame how I was going to 
communicate any issues with the Senator's office. Furthermore, they 
know a lot about the work environment on Capitol Hill and were able to 
give me advice about where I should go for assistance for disability-
related concerns. AAPD also served as a resource for the Senator's 
office on how to create an inclusive environment for an intern with a 
disability.
    Through job shadowing, part-time jobs, and internship experiences I 
gained more confidence in defining my career goals, but more 
importantly I learned skills to help me work towards these goals. I 
learned what is expected of an employee and how I can meet those 
expectations. I have steadily taken on more and more of the 
responsibilities of living independently as an adult as a result of 
these work experiences; and I have immense satisfaction in being a 
valued and contributing member of society.
                                supports
    I was able to gain access to various educational and employment 
opportunities, and perform successfully in these settings, because of 
the support of mentors and accommodations. Through family connections I 
had access to various types of lawyers and a local judge whom I could 
seek advice from and ask career-related questions. These mentors 
provided guidance on what I should study during college, the importance 
of internships, and even on beneficial extracurricular activities. 
Through my internship with AAPD I gained access to mentors with 
disabilities, mentors active in the disability community, and peer-to-
peer mentors. These mentors were able to offer me valuable perspectives 
on living successfully and independently with a disability. They 
further offered examples and strategies of how to request 
accommodations and even on specific accommodations that could make me 
more successful in the workplace. I continue to use these mentors as a 
resource in goal setting and working towards career goals.
    I need fewer accommodations in the work setting than in the 
classroom, in part because I have benefited from the support of 
flexible employers and mentors who worked with me to design projects 
that would allow me to use my talents and abilities. Some of the basic 
accommodations I have used are flexible work times/the ability to work 
from home, limiting work tasks that required heavy lifting, and a place 
to park my scooter when not in use. In the future, I may make use of 
more assistive technology, such as speak-to-write programs that would 
alleviate the need for long hours of typing.
                 self-advocacy and leadership training
    Finally, self-advocacy and leadership training will further prepare 
youth with disabilities for permanent employment by teaching them how 
to communicate effectively about their disabilities and accommodation 
needs, while giving them confidence to find ways of using their talents 
and contributing to their community. Self-advocacy takes a lot of 
practice and the continued support of people who understand a person's 
specific disability and accommodation needs. During grade school and 
junior high my mother met with teachers and school officials on a 
regular basis to educate them about my disability and the 
accommodations I would need to have equal access to the classroom. She 
included me in these conversations and continually pushed me to 
advocate for myself, showing me how to communicate about my disability 
with teachers and which school officials to go to if I encountered 
problems. I also benefited from having the same disability resource 
aide/teacher from 3d grade through my graduation from high school, 
which helped with transitions between schools. Like my mother, she made 
self-advocacy a top priority, so by the time I reached high school I 
was able to communicate with my teachers and request disability 
accommodations on my own, only using her or school counselors when I 
met resistance. In college and in the workplace, therefore, I was more 
comfortable communicating independently about my disability and my 
accommodation needs because I had experience doing so in high school, 
and I knew where to look if I had questions about ways I could be a 
better self-advocate.
    Moreover, the leadership training I received from community service 
and extracurricular activities reinforced my advocacy skills. I tried a 
variety of activities during high school, but focused most of my energy 
towards Student Council, Speech Team, and Key Club (a community service 
organization). I learned to work with my fellow students to make 
improvements to the school and compete in tournaments; my involvement 
in Student Council led to leadership positions on the executive board 
and eventually president. In college, I was largely involved in Student 
Senate and an international student organization called AIESEC, where I 
was a member of the executive board and the head of two committees. My 
experiences in high school and college taught me how to work in a 
collaborative environment, how to conduct efficient meetings, and even 
how to speak in front of large groups. These skills taught me 
leadership qualities to be a better self-advocate, and also provided me 
with marketable skills when I sought internships and other employment 
opportunities. I was able to be a fully participating member of all of 
these activities because there was a basic respect for my disability, 
and a willingness to make necessary adjustments to allow me to 
participate.
                               conclusion
    As you can see I benefited greatly from a variety of resources as I 
worked towards my career goals. The biggest resource was my parents' 
expectation of my success, which pushed me to work hard and seek out 
opportunities where I could use my talents. Their expectations and 
support helped me make use of employment, educational, and leadership 
opportunities. While my experiences are limited to my specific physical 
disability, the lessons apply to the entire disability community. 
People with all types of disabilities--intellectual, learning, sensory, 
physical, and mental health--can be permanently employed if there is a 
customized approach to their development and a basic willingness to 
support the growth of their talents and abilities. These approaches 
need to include access to an inclusive educational environment, self-
advocacy and leadership training, mentorships, and opportunities to 
gain work-related experiences and skills.
    As you address major employment and education legislation, I hope 
you will keep the specific needs of youth with disabilities at the 
forefront. My experience shows that youth with disabilities are more 
than willing to work hard if given the proper resources and support to 
succeed. There are resources out there for the disability community, 
but they need to expand so they work across systems and disability 
groups to reach more individuals. As it is, permanent employment for a 
person with any type of disability is still too often the exception 
rather than the norm because many in the disability community do not 
have access to the same resources I did. Access to a lot of these 
resources comes down to funding. Programs that contribute to the growth 
and development of youth with disabilities need adequate funding to 
ensure youth with disabilities have a good start to their lives and can 
become contributing members of society. The disability community has so 
much to offer as members of the workforce and members of society, but 
we need help breaking down barriers to our full participation.
    I would like to thank the committee again for the opportunity to 
share my experiences and speak on such an important topic; it has been 
a great honor.

    The Chairman. Well, Ms. Wallrich, thank you very much for a 
very profound statement. I left a couple of things out in my 
introduction of you, that you were a December 2010 graduate cum 
laude with a 3.84 GPA, on the dean's list five out of six 
semesters, university's James Scholar Honor Program. That's 
quite an accomplishment.
    Ms. Wallrich. I didn't sleep much during my undergraduate--
--
    The Chairman. The most important thing, though, that I 
wanted to focus on was your senior thesis was entitled ``Harry 
Potter and the War over Normal.'' And I happen to be a big 
Harry Potter fan. I've read all the books. I've listened to Jim 
Dale's tapes. I haven't seen the latest movie yet. But--
    Ms. Wallrich. Midnight tonight.
    The Chairman. Would you please get me your thesis so I can 
read it?
    Ms. Wallrich. Definitely. I had a hard time getting it 
approved at first, because English majors sometimes like to be 
a little bit pretentious and only want you to talk about Jane 
Austin or Charles Dickens. But I feel like my thesis has been 
the most useful. I've had it brought up in every interview I've 
ever had, and it's been a great avenue for explaining 
disability to people who have no familiarity with the 
disability world, because everybody has some familiarity with 
Harry Potter.
    The Chairman. Well, I haven't read it, but just from the 
title of it, I have kind of a perception of what it's about, 
having read all the books and being a big fan of Harry 
Potter's. I'd like to read it. You'll get that to me, right?
    Two things, Ms. Dagit. Let me get back here to your 
testimony. There was something here that I wanted to especially 
focus on.
    What you talked about:

          ``The medical model of disability is still prevalent 
        in our country as evidenced by the manner in which 
        Americans with disabilities are depicted through our 
        language choices, media portrayals, fundraising 
        activities, and program eligibility requirements. 
        People with disabilities are routinely characterized as 
        having some sort of deficiency and that their condition 
        is inherently negative and needs to be ameliorated, and 
        that the agent of remedy is some type of health 
        professional's intervention.''

    You go on:

          ``Before individuals with disabilities are eligible 
        for SSI or SSDI, they must declare they cannot work. 
        This is the ultimate example of a deficit model 
        approach and is bad policy if we want individuals with 
        disabilities to be a part of the workforce.''

    Could you develop that a little bit more, because I think 
you're onto something there, and it's a mindset that we've 
tried to change through education. And you talk about people 
that--when you came to work, and they saw you, they said--well, 
maybe you didn't fit in or something like that. I've seen that 
so many times.
    But those of us who have been here a long time--when we 
started with IDEA--and I remember when my daughters were young 
and in school, and the first child that came into class with a 
disability--I just remember that so well. And I remembered as 
they went through school, the good thing about it was not just 
for the kids with disabilities to be mainstreamed, but the kids 
without disabilities to be able to associate and to grow up 
together, to play together, to associate, so that when they 
entered the workforce, it was not a big deal to be working next 
to someone with a disability.
    Well, that's back in the 1970s. And so we've come all this 
way. I'm just somewhat surprised, I guess, or dismayed--I don't 
know what--to find that these attitudes are still out there, 
even though we've had pretty much full integration and 
mainstream kids with disabilities in our schools for all these 
years.
    Ms. Dagit. Right.
    The Chairman. So how do we start overcoming this medical 
model?
    Ms. Dagit. I think that's a great question. And I think 
part of the challenge is that the decisionmakers for jobs are 
not in that generation. They're not in Amelia's generation, and 
they're not often yet the business owners that are deciding who 
to hire. And so we need to work on attitudes with people who 
didn't grow up with peers who had a disability.
    There was a public service announcement. I always forget 
the name of it. But there's a woman rolling through a 
workplace, and she's noting all the oddities and peculiarities 
about the people that work with her. And they don't have a 
disability, but they like to play with the copier or they dress 
odd or something like that. I think public service 
announcements help.
    I can also tell you that we really need to encourage the 
media to do a better job of portraying people with 
disabilities. Unfortunately, for better or for worse, reality 
shows have helped a lot. My husband and I joke about the fact 
that there's a reality TV show that's been very popular for 
years called ``Little People, Big World'' that are two short-
statured parents and their kids. And although we don't look 
anything like them, we frequently get asked for their 
autograph.
    What it's really helped with is that people exposed to 
individuals with disabilities in positive media portrayals that 
are not on the Sunday Living section and designed to make 
people cry and say, ``There but for the grace of God go I'' but 
instead are talking about some of the successes that have been 
noted by this panel and just talk about them as business owners 
and as regular, everyday people. I think the more exposure 
people get to seeing a person with a disability doing normal, 
everyday things will help a lot.
    For employers, I can tell you that what we also do, very 
briefly, is something called Just in Time Training. It was put 
together through Cornell University. It's very inexpensive. It 
would be accessible, Senator Enzi, to the constituents in 
Wyoming, and it's not at all expensive. And it has different 
modules, so it's getting ready to interview. It's 
accommodation. It's using the proper language. So there are 
really great no-cost and low-cost resources out there that can 
help baby boomers who didn't grow up with someone with a 
disability in their classroom get new knowledge and new 
language and feel more confident.
    The Chairman. As you know, we have the provision of 
reasonable accommodations. We've had a pretty good history of 
that--court cases and things like that--we have a good 
background on what is expected of employers for reasonable 
accommodations. Do you think that employers, by and large, 
understand that? And are they cognizant enough of what they 
need to do to provide those reasonable accommodations? Tell us 
about Merck. I mean, for example, what did Merck do?
    Ms. Dagit. Well, we were looking at it through a variety of 
lenses. One, we wanted to make sure that when someone requested 
an accommodation for a disability, whether it was the 
individual themselves or their manager, that we responded very 
quickly and appropriately. And, as Kathy said, it's a 
productivity tool.
    There's a real financial enabler for this, for any business 
of any size. If you can help people be safer so they don't end 
up becoming injured at work, if you can return people to work 
more quickly after the advent of a health condition, and if you 
can avoid having people go on public assistance, it saves a lot 
of money and allows valuable talent to stay in your workforce 
if they have a health event or challenge.
    At Merck, what we did is we simply put in a 1-800 number 
and advertised it very broadly and said, ``If you have a 
question or a need about accommodation, here's the number to 
call, and we guarantee you that we'll respond in no more than 
14 days.'' In most cases, we could do it within 24 to 48 hours, 
because most of them are simple. But for things that take 
longer, like some of the requests I've needed to make with door 
openers, they've got to order it and install it.
    I think an employer of any size can do this. It's pretty 
rare, if you go to the Job Accommodation Network and look at 
all the accommodations provided, for them doesn't cost very 
much at all. And, often, they can be gotten from public 
agencies like the vocational rehab.
    The Chairman. I've gone way over my time. I have to yield 
to Senator Enzi. But on reasonable accommodations, about the 
door openers, we have found that in many cases, the reasonable 
accommodations provided for a person with a disability actually 
helps everybody.
    Ms. Dagit. Right.
    The Chairman. Not just the person with a disability. It 
helps productivity. It helps people move around better, have 
better accessibility, that type of thing. Has that been your 
experience?
    Ms. Dagit. Excellent point.
    The Chairman. Thanks.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    And, Ms. Wallrich, I think you're going to make a fantastic 
attorney. I don't say that about many people.
    Ms. Wallrich. Thanks.
    Senator Enzi. I always try to encourage them to go into 
accounting.
    Ms. Wallrich. Oh, my sister's the one good at math, not me.
    Senator Enzi. Oh. But both you and Ms. Dagit spoke about 
how the individual education plan, the IEP process, was 
particularly instrumental in your education experience, and 
that you valued the inherent inclusiveness of IEPs. Although 
IDEA authorization is further down the road, what 
recommendations can you provide relative to that IEP process 
for the committee to consider? And I'd ask that of Ms. Dagit, 
too.
    Ms. Wallrich. Well, really, it's more about a culture. I 
mean, IEPs--you have maybe an annual review, and you sit in the 
room with your teachers, the head of the special education 
department, and your physical therapist and your resource aid. 
And everybody talks about, ``OK. What accommodations do you 
need next year? Did you have any problems this year? '' It's a 
once-a-year thing, whereas a lot of people with disabilities--
you're going to encounter different issues every day.
    And, you know, for me, particularly, my disability can 
change unexpectedly. So I think the IEP is a good basis for 
starting a conversation on what is going to be needed in the 
classroom. But it also serves as a nice, formalized process to 
fall back on when you have teachers that are resistant or just 
not getting it, basically.
    I had great success at the University of Illinois, because 
they just have a fantastic disability resources department. 
It's world renowned. It was started right after World War II 
when a lot of veterans were coming back with disabilities. And 
the whole culture there is preparing students for the next 
step. It's not about just getting through day-to-day life, 
making sure that you have a note taker in class or that you 
have extended time on tests. It's about, how are you going to 
use your classroom experience to go to the workforce.
    There needs to be a concentration on that transition, 
because that's where a lot of people start to fall through the 
cracks--is because maybe you do really well in the classroom, 
and then you graduate high school and you don't know what to do 
next. You don't have that day-to-day place to go for a 
resource.
    At University of Illinois, you know, I'm still in touch 
with my disability services advisor. We're friends on Facebook, 
and she asks how I'm doing, if I need help transitioning my 
accommodations to law school. And, you know, the services 
department there is so big, it has its own building. And she 
asks--she continually sends out job announcements and asks how 
I'm doing during a summer program--that I know I have that 
constant support, even if I am not physically on campus. Or now 
that I'm an alumna, I know that they care about my development 
and my transition to the next step, so that I can start out the 
strongest possible at each step.
    It's hard to catch up once you get in a place and there 
hasn't been that attitude or culture of, OK, we're going to 
work to bring out your abilities. We know we're going to have 
to do that a little differently than perhaps we do with a 
student without a disability. I think there needs to definitely 
be a lot of focus on the transition, because that's the place 
where you find a lot of setbacks.
    Ms. Dagit. I would agree with everything that Amelia said 
and--so I'm speaking as a parent. But I would say that my 
concern with IEPs is twofold. One, it seems to be primarily 
aimed at students performing sufficiently well on standardized 
tests rather than getting them ready for competitive 
employment. And it also can be quite stigmatizing, depending on 
how it's handled, because the students are actually tracked in 
some cases when they have an IEP and are not seen as college-
bound.
    And so that's a really huge problem, just that whole 
attitude of what an IEP is for. An IEP should be for people to 
reach their full potential and with the end result in mind that 
they are going to be able to fully participate. And that means 
that it should also include support to participate in 
socialization. When I was in school, I was student body 
president. I was in the Model United Nations. I competed in 
public speaking. And, like Amelia, I had a really strong mom. 
It was A's or nothing.
    I liked the socialization aspect, because I spent a lot of 
time in the hospital, and when I got out of that kind of--what 
I thought of as incarceration and I got to go to school, I 
really loved to do the social aspects. And if I look back at 
what prepared me to work, it was public speaking skills. It was 
directing plays. It was understanding Model United Nations. I 
don't see IEPs encouraging students to do that.
    I do think the Rutgers Future Scholars Program, which 
starts at seventh grade and is a whole person approach, is a 
great model, as well as to the point that Amelia made, Career 
Opportunities for Students with Disabilities, where the career 
placement office and the disabled student services partner to 
help the student get ready for employment. And that can be 
replicated on any campus of any size.
    Senator Enzi. I want to thank you both. I've used up all my 
time, too. But you've just been a wealth of information on 
this, and I hope that we can--as we get into the actual 
drafting of the legislation, we can count on both of you as a 
resource on that, too--phenomenal, phenomenal information. I do 
have a whole list of other questions, and I would submit some 
questions to you in writing, too. If you'd be so kind as to 
answer those, I'd appreciate it.
    Ms. Dagit. Absolutely.
    Senator Enzi. Thank you.
    The Chairman. Thank you, Senator Enzi.
    Ms. Wallrich, can I just come back to you a second here? 
You talked a lot about in your written testimony--and you 
mentioned it also here, too, verbally--about expectations. You 
said here in your testimony,

          ``As young people, we often rise to the expectations 
        society sets for us, whether positive or negative. At a 
        basic level, society needs to learn to have higher 
        expectations for youth with disabilities.''

    And then you go on to talk about some other things here 
that would lead to that.
    Who was it that said something about IEPs--or the testing, 
because we're involved in redrafting the ESEA right now--and 
this whole idea of testing but not preparing people for 
competitive employment. Who brought that up--who said that?
    Was that you, Ms. Dagit?
    Ms. Dagit. Yes.
    The Chairman. Tell me more about that. What did you mean by 
that?
    Ms. Dagit. The IEP--the way it's measured in terms of 
whether or not it's being successful is the proficiency on the 
standardized testing. They don't have the IEP with a goal of, 
your child wants to do something in sports or wants to be an 
attorney. And, therefore, this is where we should emphasize in 
addition to the standardized tests. So if they wanted to be an 
attorney, for instance, you might want to make sure they're in 
public speaking. It's beginning with the end in mind, and the 
end not being their score on the test.
    The Chairman. College-ready, right? Excuse me.
    Ms. Dagit. Does that make sense? I wish I could be even 
more clear about that. But you really hear it in terms of what 
their worry is and their concern that the way they're being 
measured in the school is by the scores versus what the parents 
and the student themselves feel like the school is doing to 
prepare them for employment.
    The Chairman. Well, I think--one thing Senator Enzi and I 
have been working very hard on in working together on 
reauthorizing ESEA is to make the goal of it that every child 
that graduates from secondary school be career- and/or college-
ready. Did I say that right? Career- and college-ready.
    And so I think you're onto something there, that somehow we 
haven't done that. And especially when it comes to IEPs, which 
you said before--sort of more of a limitation than it was as a 
kind of a pathway forward for high expectations.
    Ms. Wallrich, I really agree that somehow we're not 
challenging young people with disabilities enough.
    I always call it about giving them a kick in the pants.
    Ms. Wallrich. Exactly. You spoke about your mother. It was 
straight A's or nothing. That was my household, too. And I can 
speak a little bit about my IEP, that when you go in there, 
they're saying, ``Well, do you want to go to community 
college?'' And I'm sitting there thinking, ``I'm top 3 percent 
of my class. I'm not going to community college. I have higher 
plans for that.'' You know, I participated in student council 
as well and speech team. A lot of times, they're like, ``Well, 
why don't you drop that, you know? You need time for physical 
therapy services.'' And my thought and my mother's thought--
well, shouldn't those services revolve around what I'm 
expecting to do in high school, not the other way around?
    And so there's definitely--that IEP limits you to--well, 
this is the path that we think people with disabilities should 
go, not what I want for my life and what I expect out of my 
future. And sometimes it would be a real struggle and very 
disheartening to be in those meetings and hear, ``Well, this is 
what we think you should do.'' And I'm lucky that I had a 
mother saying, ``Well, that's not what we're doing.''
    The Chairman. Well, I'm glad you had a mother like that and 
you had a mother like that. But what about kids that don't have 
that kind of family support service? And there's so many of 
them out there. What do we have--what needs to be in place for 
those kids that don't come from that kind of a--maybe a well-
structured family or a family that has some means or that are 
involved with their children? What about those kids? What about 
those kids that don't have the kind of mothers and fathers like 
you had? What do we do for them?
    Ms. Wallrich. I think you definitely touched on this, about 
being involved in student council. Being involved in your 
school is not being in class every day. Being involved in your 
school is being involved in sports or being involved in 
extracurricular activities. And I went to a very large high 
school, so there were a lot of options.
    But many times when I was in an activity, I was the first 
student with a disability who had ever been in that activity. 
So I needed to spend time educating those teacher advisors on 
my disability and how I would interact in community service 
activities. And, oftentimes, what I ended up choosing and the 
activities I ended up choosing were where the teacher advisors 
were also teachers I had in class, so that I didn't have 
another barrier to full participation.
    I think there definitely--in the IEP, maybe that should be 
another section on the form or something that says, ``How do we 
make this person part of the classroom or outside of the 
classroom as well? ''
    The Chairman. Well, anything else, Ms. Dagit, do you have 
anything to add before----
    Ms. Dagit. I was just going to say with all the social 
networking tools that are available out there, I think one of 
the things we could do, since especially teenagers starting in 
middle school are very interested--we could do outreach to 
students through those kinds of media and perhaps provide them 
with mentors, like many of the people in this room, in this 
hearing here today, who would be willing to be their remote 
mentors and coaches and cheerleaders. So that might be a 
possibility that would be an innovative solution.
    The Chairman. Well, thank you very much. I want to thank 
you for being here today. And I also want to thank the 
attendees who are here with the National Council on Independent 
Living Conference.
    We'll leave the record open for 10 days. I would just say 
that as we've heard from a number of witnesses, while there are 
many success stories in the area of employment for people with 
disabilities, we still have a way to go before our public 
policies consistently deliver the message that competitive 
employment is the expected outcome for young people and all 
citizens with disabilities.
    I look forward to working with my friend and our Ranking 
Member, Senator Enzi, on a bipartisan basis to advance these 
goals and these efforts so that we can get that employment rate 
up for people with disabilities.
    Thank you all very much. And with that, the committee will 
stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 The Corporation for Enterprise Development (CFED),
                                             July 19, 2011.
Hon. Tom Harkin, Chairman,
Hon. Mike Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Re:  Letter of Record: promote asset limit reform in the Supplemental 
Security Income program to enable employment for people with 
disabilities

    Dear Chairman Harkin and Ranking Member Enzi, The Corporation for 
Enterprise Development (CFED) thanks you for holding the July 14 
hearing on employment for persons with disabilities. CFED is a national 
nonpartisan nonprofit organization dedicated to expanding economic 
opportunities for all Americans. CFED believes that Congress and the 
Administration should provide American households pathways to financial 
security and self-reliance through programs and policies, and the 
community of people with disabilities is no exception.
    We concur that the work participation rates among persons with 
disabilities is entirely too low and support policies that encourage 
people with disabilities to enter or remain in the workforce. However, 
we believe that Governor Tom Ridge, chairman of the National 
Organization on Disability, brought up a valid point during the hearing 
that is often overlooked: that we must address the disability benefit 
structure in America.
    Many people on disability desire working, paying taxes, and serving 
as full participants within their communities, but are discouraged by 
the asset limits of the public benefit programs that they often rely 
on, some entirely. This is particularly true in the case of the 
Supplemental Security Income (SSI) program.
    The SSI program, administered by the Social Security Administration 
and providing cash-assistance to more than 8 million Americans, has 
asset limits that discourage its recipients to open a bank account, 
work and save because, with few exceptions, individuals cannot hold 
more than $2,000 in total assets and couples no more than $3,000. These 
limits have not been adjusted in more than two decades (since January 
1, 1989).

    SSI asset limits:

    <bullet> Discourage many young people with disabilities from 
securing a first job, to gain experience which will likely lead to 
full-time work and employment with benefits;
    <bullet> Force many to stay unbanked and/or discourages 
participation in employer-sponsored retirement plans to remain eligible 
for SSI and Medicaid; and
    <bullet> Punish individuals with disabilities who are currently 
working who save for a future time when they may be unable to work. If 
their medical condition or disability worsens in the future, they 
cannot save now for a later time as they will be unable to work but no 
longer eligible for SSI.

    These asset limits leave SSI recipients vulnerable to predatory 
lenders and deeper poverty, and requires them to ultimately rely on 
greater government assistance. Given the high levels of asset-poverty 
(insufficient savings to cover 3-6 months of expenses without a steady 
income) within the disability community, CFED advocates and promotes 
policies that improve the financial stability of people with 
disabilities.
    CFED asks Congress to propose reforms in the SSI program to address 
this unfortunate but widespread and common issue for people with 
disabilities. We recommend the following reforms which are contained in 
the SSI Saver's Act (H.R. 2103):

    <bullet> Raise the asset limit test to $5,000/$7,500 for 
individuals/couples and index the limit to inflation: Allowing SSI 
recipients to have a slightly higher level of savings provides them 
with a buffer against one-time emergencies; without this modest buffer 
they are vulnerable to predatory lenders, deeper poverty, hunger, and 
potential homelessness, and will ultimately require greater government 
assistance. It would also encourage households receiving SSI to open 
savings accounts and participate in the financial mainstream. Indexing 
the limits preserves a modest level of personal savings.
    <bullet>  Exclude retirement accounts, education savings accounts 
and savings bonds from the asset test: Exempting retirement accounts 
from the asset limit will allow SSI recipients the chance to accumulate 
modest savings and ultimately be less dependent on government support 
for survival during retirement. Excluding special savings accounts such 
as 529s and Coverdell ESAs will allow recipients to save for their 
education, which will improve their earning potential over their 
lifetimes and thus their financial stability. Excluding savings bonds 
enables individuals with disabilities to receive gifts from families 
and personal investments in a safe and accessible vehicle now able to 
be purchased on tax forms.
    Thank you, Chairman Harkin and Ranking Member Enzi, for your 
commitment to increasing the workforce participation rates of people 
with disabilities. Please recognize that without changes in the asset 
limit test, people with disabilities will be hindered in their efforts 
to open a bank account, save for the future and pursue employment.

            Sincerely,
                                           Carol E. Wayman,
                                  Director of Federal Policy, CFED.
                                 ______
                                 
    Response to Questions of Senator Enzi by the Hon. Kathy Martinez
    Question 1. Senator Harkin has set forth a goal of increasing the 
number of persons with a disability participating in the labor force 
from 4.9 million to 6 million by 2015. How does the Department of Labor 
plan to do its share in increasing the number of employed persons with 
a disability?
    Answer 1. DOL's Office of Disability Employment Policy (ODEP) 
provides national leadership on developing and influencing disability-
related employment policy and practice affecting the employment of 
people with disabilities. It coordinates the Department's efforts on 
disability employment by working with other DOL agencies such as the 
Civil Rights Center, Employment and Training Administration, the Office 
of Federal Contract Compliance Programs, the Office of Workers 
Compensation Programs, the Veterans' Employment and Training Service, 
the Wage and Hour Division, and the Women's Bureau. To increase labor 
force participation among persons with disabilities, ODEP addresses 
three key factors that contribute to the under employment of people 
with disabilities:

    1. Low expectations and negative perceptions reflected in 
discriminatory policies and practices;
    2. Lack of access to training, employment, and transition services; 
and
    3. Scarcity of employment supports and accommodations.

    Although many of ODEP's efforts are cross-disability and multi-
faceted, ODEP concentrates significant effort on populations that face 
particular challenges to entering or remaining in the workforce such as 
youth, culturally or socio-economically disadvantaged groups, and 
workers disabled later in life through accidents, injuries or aging.
            changing expectations, perceptions and practices
    To counter low expectations and negative perceptions that may lead 
to discriminatory policies and practices, ODEP uses multiple 
strategies. For example, ODEP conducts an ongoing public information 
campaign (Campaign for Disability Employment) to increase awareness of 
the benefits of employing people with disabilities. The Campaign for 
Disability Employment reaches millions of Americans, including, but not 
limited to, employers and the workforce development system. ODEP also 
conducts public outreach activities during National Disability 
Employment Awareness Month (NDEAM) to highlight the contributions made 
by workers with disabilities. First established by law in 1945 to raise 
awareness about disability employment issues, NDEAM is recognized each 
October through a Presidential Proclamation.
    ODEP also aims to change the misperception that many business 
owners have about the costs of employing people with disabilities by 
developing and widely disseminating the ``business case'' for employing 
people with disabilities. By working with a business school, ODEP 
intends to strengthen the existing ``business case'' and provide the 
most reputable information available to demonstrate that employing 
people with disabilities makes good business sense.
    ODEP's Add Us In initiative also aims to change negative 
perceptions of individuals with disabilities and the resultant policies 
and practices that deprive them of the opportunity to contribute to the 
economy. The Add Us In initiative specifically focuses on small 
businesses and brings together diverse organizations to collaborate on 
developing replicable strategies for increasing employment of people 
with disabilities. In September 2010, ODEP awarded four 2-year 
cooperative agreements totaling more than $2.4 million to four 
consortia in Kansas City, MO; Los Angeles, CA; Bridgeport, CT; and 
Norman, OK. A second round of 2-year cooperative agreements totaling 
almost $2.2 million were awarded in September 2011 to four consortia in 
Chicago, New York, Oakland, CA and Rockville, MD. One of the high-
priority goals of the Add Us In Initiative is to create business 
engagement models in these communities that can be replicated on a 
national scale.
    Another way to change perceptions and practices is for the Federal 
Government to set a good example as a model employer. Towards this end, 
ODEP works collaboratively with the Office of Personnel Management 
(OPM) and other Federal agencies to increase employment of people with 
disabilities throughout the Federal Government (for further discussion 
see #2 below).
    enhancing access to training, employment and transition services
    The Nation's workforce development system provides the training, 
employment, and transition services. It is essential that these 
services be fully available to and usable by people with disabilities. 
Toward this end and in order to realize Secretary Solis's vision of 
Good Jobs for Everyone, including persons with disabilities, DOL 
implements a variety of efforts to increase the accessibility of the 
workforce development system.
    For example, DOL's Civil Rights Center (CRC) enforces civil rights 
laws and concentrates its efforts on identifying potential systemic 
discrimination, including disability-based discrimination, within the 
workforce system. CRC conducts reviews to ensure that States and local 
areas are complying with requirements to identify statistically 
significant differences in participation or selection rates and to 
investigate whether such differences appear to be a result of systemic 
discrimination.
    CRC also provides technical assistance on nondiscrimination and 
equal opportunity issues, including disability-related issues, to Equal 
Opportunity (EO) Officers, EO staffs, and workforce system 
administrators from across the country through its annual National 
Equal Opportunity Training Symposium. It delivers webinars on 
disability-related topics and one-on-one technical assistance to EO 
Officers, officials and staff members of other DOL and Federal 
agencies, and members of the general public.
    To further increase the availability and use of the workforce 
development system by people with disabilities, DOL has implemented the 
Disability Employment Initiative (DEI) grant program, jointly funded by 
the Employment and Training Administration (ETA) and ODEP. ETA 
administers the grants and ODEP convenes grantee meetings and manages 
the contract that independently evaluates the initiative. DOL awarded 
$21,276,575 to 9 States under the DEI in September 2010, and another 
$21,166,560 to 7 States in September 2011. The goal of this initiative 
is to improve education, training, and employment opportunities and 
outcomes for youth and adults with disabilities who are unemployed, 
underemployed, and/or receiving Social Security disability benefits. To 
meet this goal, DOL provides technical assistance to grantees and to 
the public workforce system to expand its capacity to serve people with 
disabilities. Grantees are required to connect with the Social Security 
System and must also coordinate with a broad range of State and local, 
public- and private-sector partners to leverage resources and create 
systems change. DEI grantees are also required to become Employment 
Networks (ENs), which provide training, employment-related and 
supportive services to Social Security beneficiaries under the Ticket-
to-Work program and receive payment from the Social Security 
Administration (SSA) only if the ``Ticket Holder'' (beneficiary) 
becomes employed.
    Research shows that individuals receiving SSI and SSDI benefits 
already use the workforce development system and suggests that the 
types of services offered by ENs may improve the employment outcomes of 
all individuals with disabilities. For these reasons, ETA and ODEP 
recently issued a joint Training and Employment Notice to encourage all 
State workforce agencies, local workforce investment boards, and One-
Stop Career Centers to become ENs. ETA has also been working with SSA 
to develop tools and implement policies and procedures to help 
workforce system entities become ENs including a new initiative funded 
by SSA that provides intensive technical assistance to the public 
workforce system. The number of public workforce entities serving as 
ENs increased by approximately 37 percent from 2010 to 2011 and 
currently totals 124.
    Another important means of enhancing the workforce system's 
capacity to help customers with disabilities (and other challenges to 
employment) navigate the array of available services and resources is 
by providing training and technical assistance to the workforce system. 
Workforce3One, an interactive communications and learning platform that 
is ETA's primary vehicle for delivering on-line technical assistance to 
the public workforce system, includes a Disability and Employment 
Community of Practice page with easy access to disability employment 
related topics, resources and best practice information. In addition, 
``Disability'' has been added as a ``super search'' category to make it 
easier for users to find disability-related information on 
Workforce3One.
    Additional DOL efforts to increase the availability and usability 
of the workforce development system for people with disabilities focus 
on equipping youth, including youth with disabilities and the systems 
that serve them, with knowledge, skills and abilities to help them 
succeed in the jobs of the future. For example, through the National 
Collaborative on Workforce and Disability for Youth (NCWD/Youth) funded 
by ODEP, the Department provides technical assistance to State and 
local public workforce systems to assist youth with disabilities to 
become economically self-sufficient through mentoring, training, 
educational opportunities, and jobs with career pathways. Also, an 
eight-day training curriculum, developed to increase the capacity of 
youth service professionals to effectively serve youth with 
disabilities, has been provided to youth service professionals in 
Chicago, Albuquerque, Boston, Maryland, and requested by many others.
    ODEP's Individualized Learning Plan (ILP) research and 
demonstration project team has provided technical assistance to State-
level officials responsible for developing and administering policies 
related to students' transition from secondary school into post-school 
education and employment. Another component of ODEP's technical 
assistance has included educating policymakers and practitioners on the 
differences and impact of ``entitlement'' policies that govern 
provision of services in secondary school and the ``eligibility'' 
policies that are present in college and employment settings.&
    In addition, ODEP and NCWD/Youth have worked closely with WIA-
funded youth programs, including Job Corps and Youth Build, to assist 
them in enhancing outcomes for youth with learning disabilities and 
mental health issues. In Fall 2011, NCWD/Youth and ODEP are planning to 
deliver a series of webinars on increasing the number of youth with 
disabilities in pre-apprenticeship and apprenticeship programs.
    Moreover, ETA and ODEP recently issued a joint Training and 
Employment and Guidance Letter ``Increasing Enrollment and Improving 
Services to Youth with Disabilities,'' to provide information and 
resources to youth service providers on promising practices and 
successful strategies that promote the enrollment, education, training, 
and employment outcomes of youth with disabilities.
   increasing availability of employment supports and accommodations
    A number of ODEP's efforts strive to change policy and practices 
that will ensure that critical employment supports and accommodations 
are available to enable workers with disabilities to be fully 
productive and contributing workers. ODEP funds the Job Accommodation 
Network, which provides expert and confidential guidance on workplace 
accommodations and disability employment issues to employers and 
employees with disabilities.
    ODEP also focuses on promoting workplace flexibility in the type of 
job, time, and place of work to shape the jobs and work environments to 
maximize the productivity of workers with disabilities. ODEP sponsored-
research suggests that workplace flexibility strategies, including 
customized employment, may help individuals with significant 
disabilities succeed in integrated employment. ODEP is now exploring 
the use of such workplace flexibility strategies for workers who 
acquire disabilities through accidents, injuries and/or changes in 
health, including those due to aging. This fall, ODEP will implement an 
employer pilot demonstration project that will focus on using flexible 
workplace strategies to retain older workers with disabilities. ODEP 
will also conduct research on how workplace flexibility can be used to 
retain aging workers employed in the health care sector and by 
community colleges.
    To increase the labor force participation of people with 
disabilities, ODEP also works to improve accessible technology. ODEP 
promotes universal design in information technology and promotes 
increasing the availability of assistive technology in the workplace to 
benefit workers with disabilities. To advance these twin goals ODEP 
awarded a contract that enables ODEP and the Assistive Technology 
Industry Association's Accessibility Interoperability Alliance (ATIA/
AIA) to work together to improve the availability and usability of 
emerging technologies, such as Web 3.0 and 3D Internet technologies.
    This fall, ODEP will develop and implement a comprehensive plan to 
make workplace technology accessible. Among other things, ODEP is 
working to establish a means of identifying and validating core 
competencies that can be used to certify professionals involved in the 
field of accessible technology. ODEP will also conduct research into 
how employers are using the Assistive Technology Act to support 
employment and develop technical assistance to enable States to use it 
more effectively.

    Question 2. How do you think the Federal Government can be a model 
employer for individuals with disabilities?
    Answer 2. The Federal Government can become a model employer for 
individuals with disabilities by creating a workforce that truly 
reflects the diversity of the population. Last year's Executive Order 
13548 articulated the President's commitment and charted the course for 
the Federal Government to employ an additional 100,000 people with 
disabilities within the next 5 years. It also required Federal agencies 
to work together to develop and implement action plans that included 
performance targets and numerical goals to improve their hiring of 
people with disabilities, and imposed reporting requirements to ensure 
accountability.
    ODEP is working closely with OPM and other Federal agencies to 
provide them with the information and tools they need to achieve their 
goals. A few strategies that ODEP believes will position the Federal 
Government as a model employer for people with disabilities include:

    <bullet> Implementing centralized accommodation funds that pool 
agency resources to reduce the financial impact on individual office 
budgets;
    <bullet> Training all hiring managers and all those involved in the 
process on hiring policies and processes&cluding Schedule A and other 
hiring authorities as well as on reasonable accommodations policies 
and&ocedures;
    <bullet> Expanding the use of internships, fellowships, and 
training and mentoring programs, such as the Workforce Recruitment 
Program and Project Search;
    <bullet> Utilizing the Office of Personnel Management's (OPM) 
shared list of qualified job candidates with disabilities (i.e., the 
``Bender'' database) to hire eligible individuals through Schedule A 
appointments.&
    <bullet> Adopting practices to return-to-work Federal employees who 
have sustained disabilities as a result of workplace injuries or 
illnesses, such as those identified through the Protecting Our Workers 
and Ensuring Re-employment (POWER) Initiative, a joint effort of ODEP 
and DOL's Office of Workers Compensation Programs;
    <bullet> Expanding the use of workplace flexibility and the 
provision of reasonable accommodation to retain, enhance and maximize 
the productivity of older workers as they acquire age-related 
disabilities, as well as employees with disabilities as their health 
changes with age;
    <bullet> Leveraging employee resource groups (ERGs) as tools to 
empower and develop an engaged workforce; and
    <bullet> Creating and maintaining a welcoming, safe and supportive 
work environment by accounting for the needs of employees with 
disabilities in emergency planning.

    Also, in this increasingly knowledge- and technology-based 
workplace, it is critical that all electronic and information 
technology are accessible, interoperable and usable for all--including 
technology used by applicants to find and seek jobs with the Federal 
Government. As the Nation's largest employer, it is important that the 
Federal Government demonstrate a commitment to fully including people 
with disabilities in its workforce.
    Federal agencies can best be engaged to produce results by sharing 
knowledge about effective strategies for recruiting, retaining and 
advancing people with disabilities. Towards that end, OPM and ODEP are 
building a Community of Practice (CoP) Web site, eFedlink.org, for 
Federal disability program managers and selective placement managers to 
share information and promising practices with their peers.
                          internal dol efforts
    In addition to coordinating with OPM and assisting other agencies 
to meet their disability employment goals, the Department's own 
commitment to a qualified, diverse, and inclusive workforce remains at 
the forefront of our recruitment and hiring strategies. DOL's outreach 
efforts include activities at colleges and universities with a diverse 
population; local, State, and national organizations; and other 
targeted recruitment that promotes Departmental opportunities for 
people with disabilities and our valued veterans.
    The Department's national recruitment team, comprised of six 
regional recruitment coordinators and four recruitment policy 
coordinators, including a disabled veterans' employment program manager 
in the Human Resources Center (HRC) is fully versed on special hiring 
authorities, particularly Schedule A, veterans' hiring authorities and 
recruitment of people with disabilities. The HRC recruitment policy 
coordinators work with each DOL agency to integrate the plan for the 
employment of people with disabilities, including veterans with 
disabilities, into the overall Departmental recruitment strategy.
    The Department has worked for many years to establish relationships 
with local, State, and national disability organizations that advocate 
on behalf of and work directly with people with disabilities. In 
response to the Executive Order, the national recruitment team will 
intensify and expand its targeted strategies and lead an effort for the 
Department's outreach to such organizations as One Stop Career Centers, 
State Vocational Rehabilitation Agencies, Centers for Independent 
Living, disabled veterans programs and others. The national recruitment 
team will develop and implement a national train-the-trainers program 
to educate DOL leaders as well as advocates in the disability community 
about the special hiring authorities, including Schedule A and 
veterans' hiring authorities.

    Question 3. Please identify specific examples of where the Federal 
Government can remove regulations and burdens for private employers to 
assist in increasing employment levels overall.
    Answer 3. Department of Labor regulations ensure a level playing 
field for firms following our Nation's labor laws so that they do not 
face unfair competition to maintain employment while following the law. 
The Department recently completed a review of its regulatory agenda 
following E.O. 13563, which requires regulations to be: (1) cost-
effective and cost-justified; (2) transparent, allowing for public 
participation; (3) coordinated and simplified; (4) flexible, reducing 
burden and allowing for freedom of choice for the public; (5) science-
driven; and (6) reviewed, updated, modified or withdrawn, as 
appropriate. In the Final Plan for Retrospective Analysis of Existing 
Rules published on August 23, 2011, the Department identifies examples 
of burden-reducing review projects. Access DOL's Final Plan at: http://
www.dol.gov/regulations.

    Question 4. How have stimulus projects provided under the American 
Recovery and Reinvestment Act increased employment of individuals with 
disabilities?
    Answer 4. The Employment and Training Administration collects data 
on the number of WIA program exiters with self-reported disabilities 
and employment outcomes; however, ETA's does not disaggregate the data 
between ARRA-funded projects and regular WIA formula grants. Similarly, 
the WIA nondiscrimination regulations enforced by CRC require the 
workforce system to collect data on individuals with disabilities who 
received services, but this data is not disaggregated by funding 
source. Therefore, we do not know how many people with disabilities 
were served with ARRA dollars specifically. Overall, in 2009 4.2 
percent of WIA exiters were adults with self-reported disabilities, and 
12.9 percent of WIA exiters were youth with self-reported disabilities. 
We believe that it is likely similar percentages were served with ARRA 
funding in the WIA Adult and Youth programs.

    Question 5. Has the number of persons with disabilities employed 
since February 2009--the passage of the stimulus bill--increased or 
decreased?
    Answer 5. Disability statistics have only been available since June 
2008 when questions were added to the Current Population Survey (CPS), 
making it difficult to compare the effect of this most recent recession 
on employment to the effects of previous recessions on employment. 
According to BLS, (http://www.bls.gov/webapps/legacy/cpsatab6.htm) the 
proportion of persons with a disability who were employed began 
declining in September 2008, and since February 2009 the employment 
rates for persons with disabilities have followed that previous 
pattern.
    BLS also advises that because seasonally adjusted data currently 
are not available for this group, comparison of same month employment-
population ratios (the proportion of a population group that is 
employed) can provide a clearer picture of changes in the employment 
situation of persons with disabilities. The employment-population ratio 
of persons with a disability was 17.7 percent in August 2011, down from 
18.4 percent in August 2009.

    Question 6. The U.S. Department of Labor has advocated passage of 
the Employee Free Choice Act (EFCA). Please provide examples of how 
EFCA can boost the employment levels for persons with disabilities.
    Answer 6. The Obama administration continues to strongly support 
proposals such as the Employee Free Choice Act which provide all 
workers, including workers with disabilities, with a voice in the 
workplace. Strong unions are a key to a strong economy and help provide 
a sure path to a secure middle class job that pays higher wages, and 
provides flexibility and benefits like paid leave, child care, 
education assistance, and retirement security.

    Question 7. President Obama's Executive Order 13563 requires 
executive agencies to identify regulations that are outdated, outmoded, 
inefficient, and burdensome. What regulations will the Department of 
Labor specifically seek to end that would enhance job creation, 
particularly for individuals with disabilities?
    Answer 7. As discussed in response to question 3 above, the 
Department has identified several burden-reducing regulatory projects. 
The efficiencies created by these regulatory modifications may benefit 
individuals with disabilities as well as other workers.
      Response to Questions of Senator Enzi and Senator Casey by 
                           Governor Tom Ridge
                       questions of senator enzi
    Question 1. In your opinion, how well-aligned are the career, 
education, and training programs that NOD accesses to provide 
coordinated services for these individuals?
                           civilian programs
    Answer 1. Lack of alignment and coordination between the agencies 
that provide services to Americans with disabilities is a significant 
problem, and, ultimately a hindrance to these services and their 
intended beneficiaries.
    To be clear: the challenge is not that there are too many services; 
rather, that multiple agencies on both the Federal and State levels 
create a sometimes confusing array of eligibility rules, performance 
measures, and service delivery procedures. Navigating these processes 
can be a challenge even for those who work in this arena. For persons 
with disabilities and their families the processes can result in delays 
or otherwise make access unintentionally difficult. It can be 
impenetrable.
    Even in just the employment services area (not including benefits 
and services related to medical and personal care, therapy, housing, 
transportation, etc.), there are multiple agencies, legislation and 
funding authorities emanating from the Federal Departments of Labor 
(DOL), Education (Ed), Health and Human Services (HHS), Defense (DOD), 
Veteran's Affairs (DVA), and Social Security (SSA), to name only the 
most significant players. Within each of these Federal departments are 
numerous sub-authorities that operate semi-independent employment 
initiatives.
    With each of these agencies and sub-authorities, the challenge is 
more than just the numerous eligibility, performance and spending rules 
that accompany them. As an individual, a family member, or a service 
provider on the ground, it can be difficult to reconcile the different 
perspectives of these agencies and the services they provide.
    For example, DOL and HHS each offer employment services for people 
with disabilities. The employment programs that are funded by HHS are 
invariably entwined with therapeutic services (e.g., housing, personal 
and medical care, therapies, etc.), while those funded by DOL are more 
directly focused on training, employment and self-sufficiency. HHS 
programs approach employment from the perspective of its impact on 
personal health and care, while DOL approaches employment services in 
hopes that every American can become self-sufficient. These different 
approaches can cause the professionals who implement them to present 
them in ways that can appear contradictory to the individuals and 
family members who depend on them. Starting from such different sources 
on the Federal level, these programs do not always mingle easily on the 
local level.
    Finally, in an era of unprecedented fiscal challenges, these State 
and Federal administrative entities can require a share of the dollars 
that could go to services on the ground. It is appropriate to review 
these programs with an eye for how to reduce any redundancies and 
improve efficiencies.
    As the first appointed Secretary of the Department of Homeland 
Security, I sometimes felt that too many Federal agencies had 
overlapping responsibilities and that separate administration of 
similar services could be less efficient and effective.
    The problem is clear; the solution, less so. If, hypothetically, 
you were to combine many of these services and funds under a single 
administrative entity, you would have to make a number of choices, each 
of which comes with risks. I offer the following issues for 
consideration, to highlight some of the structural issues that result 
in practical challenges on the ground:
    Mingling Generic and Disability-Specific Services: Combining 
services designed for individuals with disabilities with ``generic 
services'' (those for individuals with and without disabilities) would 
run the risk of undermining years of advocacy by people with 
disabilities who fought to ensure that there would be dedicated 
agencies designed to meet their needs. The fear is that an agency 
designed to meet the needs of all job seekers might not fully grasp the 
intricate needs of job seekers with disabilities, and that these 
individuals' needs would, as a consequence, go unmet. The ultimate goal 
would be to combine generic and disability-specific services, while 
putting in place safeguards to ensure that disability-specific needs 
are not ignored.
    Combining Disability-Specific Authorities: If, alternatively, one 
chose to combine the various authorities that serve people with 
disabilities under a single administrative banner, there are two 
significant challenges to be aware of.
    First, this would perpetuate what is essentially a segregated 
system of services for people with disabilities. The fact that 
disability and ``generic'' services operate at such a distance from one 
another has made it much harder for people with disabilities to access 
services offered through the Workforce Investment Act, and other non-
disability specific programs. Further, it codifies in law, regulation 
and policy the separation of people with and without disabilities.
    Second, looking only at disability-specific services, there is 
still a significant divide between funding and services that are built 
around a mentality of care, and those that are designed to promote 
economic self-sufficiency for individuals with disabilities, as I 
discussed in my testimony. It is for this reason that the Federal 
Government often appears ambivalent about the employment of people with 
disabilities--1 minute saying that we promote opportunity for all, the 
next threatening individuals with disabilities who attain success with 
the removal of the medical and personal care benefits they need to 
survive. Clearly, we must provide care and support, and we must create 
the path to self sufficiency for Americans with disabilities. The 
challenge is to ensure that these two goals are mutually supportive, 
not seemingly at odds.
    For this reason, the principal goal of any policy change must be to 
ensure that--in our words, in our policies, and in our funding 
choices--our government speaks with one voice. We must have the same 
expectations for people with disabilities that we have for all 
Americans, and we must ensure that the services we offer support this 
expectation.
                            veteran programs
    NOD strives to provide veterans in transition to civilian careers 
with referrals to agencies that provide reliable services, whether at 
the Federal, State or local level. In instances where services are not 
available or are inadequate, NOD supplements the community's resources 
to bridge those gaps. Several of the more notable programs are 
described below.
Transition Assistance
    Federal Disabled Veterans Transition Assistance Program (DTAP)--
While this program is currently under a major revision, the program is 
widely thought to provide too much information in too little time, 
particularly with regard to veterans with cognitive or psychological 
impairments. In addition, the seminar and materials are too often more 
useful at later junctures when the veteran may have trouble recalling 
the information. Also, there are many references, Web site links and 
pamphlets provided on a wide variety of topics, including career 
planning actions. However, career planning should be done in a much 
more comprehensive and integrated manner and it should integrate 
actionable career steps with resources available to accomplish those 
actions. Finally, financial counseling and planning is critical since 
most veterans suffer a significant decrease in pay as they separate--
this is exacerbated by the lengthy VA disability determination process. 
Among the recommendations are:

    <bullet> Lengthen the seminar and allow spouses to attend with 
disabled veterans;
    <bullet> Develop a compendium of the information that remains a 
more handy resource by providing a tailored ``separation benefits and 
entitlements'' binder which veterans can use to organize and store the 
most relevant information, including DD Form 214 and medical disability 
and similar reference materials;
    <bullet> Provide monthly DTAP update seminars at locations across 
the country that any veteran can attend to learn the most recent 
information and ask questions. These could easily include a web cast 
for more remote locations but should allow in person attendance so that 
first hand advice and referrals can be effected.
    <bullet> Develop a Joint Inter-Agency (DOD, VA, DOL, Dept of Ed, 
OPM) Career Planning Process that is initiated during transition and 
remains a resource to the veteran and the agencies that have missions 
to support veterans. NOD developed such a process out of necessity. 
Unfortunately, many PTSD and TBI veterans have trouble planning and 
executing key career steps. NOD developed an approach that simplifies 
and integrates career steps that they are more easily accomplished, 
managed, and so that progress can be more easily monitored by family 
members or supporting counselors.
    <bullet> Provide a detailed financial counseling service to 
separating veterans that affords a more realistic assessment of 
expenses and income veteran families can expect after separation. Doing 
this at an early juncture allows better awareness and decisionmaking. 
Most veterans suffer financial hardship upon separation. Mitigation of 
any additional turbulence during separation is critical to sustaining 
focus on career and family needs versus managing financial crises.
Vocational Rehabilitation
    Veterans Affairs Vocational Rehabilitation and Employment (VRE--
While VRE is a valuable benefit to disabled veterans, many veterans 
needing these services choose to use the GI bill which they often view 
as more flexible. In some cases, disabled veterans with PTSD or TBI may 
find the additional bureaucracy of VRE difficult to navigate. NOD has 
attempted to develop a collaborative effort with the VA VRE service in 
order to increase utilization of this valuable benefit. Generally, 
however, VRE counselors have too large a caseload (about 150) to serve 
their clients fully. There appears to be little segmentation of the 
caseload to ensure that each counselor has a manageable size group of 
clients. Clearly the type and severity of the disabled veterans on the 
caseload can vary greatly, as can the demands on the counselor. 
Accordingly, each veteran served should be considered in the context of 
their needs, and services designed to meet those needs. Each case is 
unique, and the aspirations and support needs of each veteran are 
unique. Finally, the outcomes should be evaluated more closely. Simply 
getting a veteran into a job is not enough, nor is closing the case 
file when the veteran has completed 3, 6, or 9 months on the job. The 
goals of VRE should be long-range self-sufficiency and long-term/
longitudinal tracking is necessary to more appropriately assess the 
effectiveness of how this benefit/service is administered.
Employment
    Department of Labor Disabled Veterans Outreach Program Specialists 
(DVOPS) and Local Veterans Employment Representatives (LVERs)--In order 
for these federally subsidized, State-employed counselors to be 
effective, veterans have to register for services. In most cases, young 
veterans are not registering at State veterans employment offices. In 
part this is because these offices are widely perceived as providing 
only the most basic services, which often are not customized to the 
veterans careers aspirations. Since these personnel are provided to 
States via a noncompetitive grant program, there is insufficient 
Federal control of the metrics, outcomes, and operating practices at 
these offices. In short, NOD has tried to work with these offices but 
finds them largely ill-suited to disabled veterans today, the vast 
majority of which (75 percent) have a cognitive or psychological 
impairment (PTSD/TBI). In addition, these offices do not develop strong 
relationships with employers and veterans do not appear to believe 
their chances of employment are greatly enhanced by working with these 
offices. While some of the services are of some value, much of the 
resume-writing, interview skills, and similar employment classes are 
not specific enough for an individual who has never pursued a civilian 
job before and for whom significant skill gaps may remain. In short, 
many younger veterans are not entirely job-ready. The DOL program 
should be reviewed to assess how the current generation of veterans 
could be better served. SHRM recently published a report that shows few 
employers are aware of DOL offices and fewer choose to use them. That 
report alone indicates that these offices do not provide strong 
linkages to employment opportunities.
Education
    GI bill (education)--Many NOD clients take advantage of the GI 
bill. Fully 80 percent of program participants are expected to use the 
GI bill within 3 years of separation from the military. This program is 
an essential component of retooling for civilian careers and to 
supplement knowledge/experience needs of employers. However, there are 
some limitations to the program and some measure of outcomes that do 
not fully ensure that maximum benefit is provided. One dynamic that is 
problematic are the financial needs of many separating veterans. In 
some cases, veterans will enroll in school in part because they will 
receive a stipend when they do so. Unfortunately, a difficult economy 
adds to this dynamic. Financial needs should be addressed by more 
suitable mechanisms and education counselors should be empowered to 
screen for this issue and address financial needs in others ways so 
that the education benefit is preserved for its best use.
    While annual adjustments/changes to living allowance rates and 
changes to authorized tuition payments are often slow in being 
announced and implemented each year, the GI bill is a tremendous 
benefit to veterans. Importantly, the Post-9/11 GI bill has expanded 
benefits to veterans for vocational, apprenticeship and On-The-Job 
training (OJT) programs. However, the approved list of programs does 
not always allow veterans to enroll in the vocational program of their 
choice. Since many veterans choose vocational training, this limitation 
can be a hardship as veterans seek local programs in career fields of 
their choice. Expansion and more flexibility in this effort would 
enable more of our war-fighters to use their new GI bill benefits. 
Limitations in distance learning programs can be similarly restrictive, 
particularly the unavailability of the substantial monthly living 
allowance for those in distance learning programs versus attending a 
brick and mortar educational institution. This has the effect of 
forcing veterans who need the living allowance to pursue resident 
education when distance learning may be more convenient, appropriate 
and less expensive.
    The Veterans Administration should also monitor the outcomes 
associated with education programs. While each veteran's success or 
failure in school and subsequent employment efforts may be the result 
of medical/disability conditions, personal efforts, and educational 
prowess, each school should be judged on the success of its graduates 
in some manner. Such an effort would help ensure that U.S. taxpayers 
get the results that they intend the GI bill to achieve. Moreover, such 
information would be useful to veterans as they select the school/
program most appropriate to them.
    Also, many veterans are entering the civilian work environment for 
the first time. The VA should develop ways to encourage internships, 
mentorships, and similar exposure to civilian employers as part of the 
educational experience. It would not be unreasonable for schools to be 
required to have internship placement efforts that are required for a 
certain percentage of their veteran students, or for such a requirement 
to apply to certain career fields. This approach would allow veterans 
to develop job prospects while in school and for companies in such a 
program to be more receptive to employment of the graduate since they 
would be more familiar with them. Given the rate of unemployment among 
young veterans, it is clear that military experience and GI bill 
benefits alone are not sufficient. More innovation is needed to lower 
the threshold for veterans moving into the civilian workforce.

    Question 2. Please provide specific examples of what you did as 
Secretary of Homeland Security to increase the employment opportunities 
for individuals with disabilities.
    Answer 2. (See response to Senator Casey's question 3b.)
                       questions of senator casey
    Question 1. In your testimony you referenced that the return to 
civilian life is a process not an event. What do you think we can do to 
help make that transition smoother? Are there specific roadblocks that 
you find troops face when making this transition?
    Answer 1. There are several areas on which NOD would like to 
comment regarding transition challenges:

    Federal Disabled Veterans Transition Assistance Program (DTAP) and 
related processes--This program is currently under a major revision. 
However, the program is widely thought to provide too much information 
in too little time, particularly with regard to veterans with cognitive 
or psychological impairments. Alternative presentations, perhaps in 
smaller groups, at slower paces, and with a family member present, are 
among ideas to consider. PTSD and TBI victims will have special 
challenges focusing, recalling, or integrating transition steps/
resources and those challenges are not well understood. NOD is among 
the few organizations with expertise in this area that comes from long-
term support to disabled veterans. DTAP seminar topics and materials 
are often more useful at later junctures when the veteran may have 
trouble recalling the information. Also, there are many references, Web 
site links and pamphlets provided on a wide variety of topics, 
including career planning actions. However, career planning should be 
done in a much more comprehensive and integrated manner and it should 
integrate actionable career steps with resources available to 
accomplish those actions. Finally, financial counseling and planning is 
critical since most veterans suffer a significant decrease in pay as 
they separate--this is exacerbated by the lengthy VA disability 
determination process. Among the recommendations are:

    <bullet> Lengthen the seminar and allow spouses to attend with 
disabled veterans;
    <bullet> Consider alternative modes for delivering DTAP for 
cognitively or psychologically impaired veterans.
    <bullet> Develop a compendium of the information that remains a 
more handy resource by providing a tailored ``separation benefits and 
entitlements'' binder which veterans can use to organize and store the 
most relevant information, including DD Form 214 and medical disability 
and similar reference materials. Some veterans misplace paperwork or do 
not organize it or retain it in ways that are most helpful;
    <bullet> Provide monthly DTAP update seminars at locations across 
the country that any veteran can attend to learn the most recent 
information and ask questions. These could easily include a web cast 
for more remote locations but should allow in person attendance so that 
first hand advice and referrals can be provided.
    <bullet> Develop a Joint Inter-Agency (DOD, VA, DOL, Dept of Ed, 
OPM) Career Planning Process that is initiated during transition and 
remains a resource to the veteran and the agencies that have missions 
to support veterans. NOD developed such a process out of necessity. 
Unfortunately, many PTSD and TBI veterans have trouble planning and 
executing key career steps. NOD developed an approach that simplifies 
and integrates career steps that are more easily accomplished, managed, 
and so that progress can be more easily monitored by family members or 
supporting counselors. Such a career planning process, particularly if 
also made available through web-based applications, could be a resource 
on and off active duty and after separation, and should include interim 
and longer term actions and career goals. NOD has a model for this type 
of more integrated 5-year career planning module and we believe the VA 
should be required to develop such a program that is easier to access, 
more intuitive to use, which is initiated before separation, and which 
can help DOD, VA and DOL support these veterans more comprehensively. 
Veterans that need less assistance would be able to continue to employ 
the tool on their own.
    <bullet> Provide a detailed financial counseling service to 
separating veterans that affords a more realistic assessment of 
expenses and income veteran families can expect after separation. Doing 
this at an early juncture allows better awareness and decisionmaking. 
Most veterans suffer financial hardship upon separation. Mitigation of 
any additional turbulence during separation is critical to sustaining 
focus on career and family needs versus managing financial crises.

    Career Counseling and Goal Setting--Most veterans, disabled or not, 
have very little civilian employment experience and have difficulty 
translating their experience into civilian equivalents. If disabled, 
they also do not receive adequate assistance from existing Federal 
programs in evaluating career options, developing career plans, 
selecting schools and training programs, preparing resumes and job 
interview preparation. These factors significantly complicate their 
ability to envision, plan, and execute the career change when leaving 
the service. While State and Federal agencies exist, such as the 
Department of Labor's Disabled Veterans Outreach Program Specialists 
(DVOPS) and Local Veterans Employment Representatives (LVERs), these 
federally subsidized, State-employed counselors do not have appropriate 
outcomes measures and therefore are not incentivized to provide 
personalized assistance to disabled veterans. The common perception by 
younger veterans is that these agencies do not provide assistance that 
is needed. Therefore, most young veterans are not registering at State 
veterans employment offices. This is largely because these offices are 
widely perceived as providing only the most basic services, which often 
are not customized to the veteran's careers aspirations.
    Since these offices are partially staffed by State employees via a 
noncompetitive grant program, there is insufficient Federal control of 
the metrics, outcomes, and operating practices at these offices. NOD 
has tried to work with these offices but finds them largely ill-suited 
to disabled veterans today, the vast majority of which (75 percent) 
have a cognitive or psychological impairment (PTSD/TBI). Because these 
offices measure success by job placement (measured once the veteran has 
been employed about 90 days), they are not incentivized to work with 
veterans over a longer period of time to ensure education and training 
needs are met to address experience gaps before pursuing employment. In 
short, many younger veterans are not entirely job ready. The DOL 
program should be reviewed to assess how the current generation of 
veterans could be better served. SHRM recently published a report that 
shows few employers are aware of DOL offices and fewer choose to use 
them. That report alone indicates that these offices do not provide 
strong linkages to employment opportunities. Among the recommendations 
are:

    <bullet> Provide set aside, competitively awarded funds within the 
Department of Labor's Disabled Veterans Outreach Program Specialists 
(DVOPS) and Local Veterans Employment Representatives (LVERs) grant 
program to resource a number of locations where innovative approaches 
to veteran career counseling and employment can be piloted. Such a 
program would allow best practices to be substantiated and applied more 
broadly. More information on this idea is available from NOD staff.
    <bullet> Require new measures of outcomes for grant recipients that 
assess veterans' satisfaction and longer term career goal achievement. 
Since veteran transitions often take several years as they pursue 
education, training, and often part-time work to supplement their 
income, short term measures of job placement are inadequate to 
accurately assess transition success. The Nation expects these veterans 
to become self-sufficient and meaningful members of their communities. 
More appropriate measures of outcomes are needed.
    <bullet> Require/authorize the Departments of Defense, Veterans' 
Affairs, and Labor to develop meaningful internships and partnerships 
with the private sector so that separating service members and veterans 
have easier access to employers who want to provide work experiences 
short of full time employment. While DOD has developed Operation War 
fighter, it is limited to internships for those still on active duty 
and only in Federal agencies. DOD and other agencies often cite ethics 
obstacles to working closely with private organizations. Existing 
interpretation of the law by Federal agencies is not what Congress 
intended and represents a significant obstacle to collaboration between 
government and nongovernmental organizations that prevents practical 
and effective relationships that could dramatically improve support to 
veterans in transition.

    Vocational Rehabilitation--Veterans Affairs Vocational 
Rehabilitation and Employment (VRE)--While VRE is a valuable benefit to 
disabled veterans, many veterans needing these services choose to use 
the GI bill instead, which they often view as more flexible. In some 
cases, disabled veterans with PTSD or TBI may find the additional 
bureaucracy of VRE difficult to navigate. NOD has attempted to develop 
a collaborative effort with the VA VRE service in order to increase 
utilization of this valuable benefit. Generally, however, VRE 
counselors have a very large caseload (about 150) to serve their 
clients fully. There appears to be little segmentation of the caseload 
to ensure that each counselor has a manageable size/group of clients. 
Clearly the type and severity of the disabled veterans on the caseload 
can vary greatly, as can the associated demands on the counselor, and 
even the skill sets of the counselors may need to be modified for some 
caseload types. Each veteran served should be considered in the context 
of their needs, and services be designed to meet those needs. Each case 
is unique, and the aspirations and support needs of each veteran are 
equally unique. Finally, the outcomes should be evaluated more closely. 
Simply getting a veteran into a job is not enough, nor is closing the 
case file when the veteran has completed 3, 6, or 9 months on the job. 
The goals of VRE should be long range self-sufficiency and long term / 
longitudinal tracking is necessary to more appropriately assess the 
effectiveness of how this benefit/service is designed, administered, 
and measured.

    <bullet> Provide legislation for a grant program that demonstrates 
best practices in supporting the career transition of disabled 
veterans.
    <bullet> Review metrics for success and modify to address self-
sufficiency, long-term monitoring and support, and ensure integration 
of career planning with other Federal agencies involved in veterans 
services.
Education GI Bill
    GI bill (education)--Many NOD clients take advantage of the GI 
bill. Fully 80 percent of program participants are expected to use the 
GI bill within 3 years of separation from the military. This program is 
an essential component of retooling for civilian careers and to 
supplement knowledge/experience needs of employer. However, there are 
some limitations to the program and some measure of outcomes that do 
not fully ensure that maximum benefit is provided. One dynamic that is 
problematic are the financial needs of many separating veterans. In 
some cases, veterans will enroll in school in part because they will 
receive a stipend when they do so. Unfortunately, a difficult economy 
adds to this dynamic. Financial needs should be addressED by more 
suitable mechanisms and education counselors should be empowered to 
screen for this issue and address financial needs in other ways so that 
the education benefit is preserved for its best use.
    While annual adjustments/changes to living allowance rates and 
changes to authorized tuition payments are often slow in being 
announced and implemented each year, the GI bill is a tremendous 
benefit to veterans. Importantly, the Post-9/11 GI bill has expanded 
benefits to veterans for vocational, apprenticeship and On-The-Job 
training (OJT) programs. However, the approved list of programs does 
not always allow veterans to enroll in the vocational program of their 
choice. Since many veterans choose vocational training, this limitation 
can be a hardship as veterans seek local programs in career fields of 
their choice. Expansion and more flexibility in this effort would 
enable more of our war-fighters to use their new GI bill benefits. 
Limitations in distance learning programs can be similarly restrictive, 
particularly the unavailability of the substantial monthly living 
allowance for those in distance learning programs versus attending a 
brick and mortar educational institution. This has the effect of 
forcing veterans who need the living allowance to pursue resident 
education when distance learning may be more convenient, appropriate 
and less expensive.
    The Veterans Administration should also monitor the outcomes 
associated with education programs. While each veteran's success or 
failure in school and subsequent employment efforts may be the result 
of medical/disability conditions, personal efforts, and educational 
prowess, each school should be judged on the success of its graduates 
in some manner. Such an effort would help ensure that U.S. taxpayers 
get the results that they intend the GI bill to achieve. Moreover, such 
information would be useful to veterans as they select the school/
program most appropriate to them.
    Also, many veterans are entering the civilian work environment for 
the first time. The VA should develop ways to encourage internships, 
mentorships, and similar exposure to civilian employers as part of the 
educational experience. It would not be unreasonable for schools to be 
required to have internship placement efforts that are required for a 
certain percentage of their veteran students, or for such a requirement 
to apply to certain career fields. This approach would allow veterans 
to develop job prospects while in school and for companies in such a 
program to be more receptive to employment of the graduate since they 
would be more familiar with them. Given the rate of unemployment among 
young veterans, it is clear that military experience and GI bill 
benefits alone are not sufficient. More innovation is needed to lower 
the threshold for veterans moving into the civilian workforce.
    Federal and Private Internship Programs--Currently, the Departments 
of Defense, Veterans' Affairs, and Labor have not been able to 
establish a full range of collaborative programs with the private 
sector, nor have Federal internship programs been assessed to identify 
and apply the very best practices, including metrics. NOD's experience 
is that 75 percent of disabled veterans choose nonfederal employment. 
Serving the career aspirations of veterans therefore, requires a 
broader effort to provide experiential opportunities to learn about 
civilian career paths. Meaningful internships and partnerships with the 
private sector would provide separating service members and veterans 
with improved access to employers who want to provide work experiences 
short of full time employment. This is particularly important in the 
current economic climate when any hiring, much less a disabled person, 
is challenging for employers. DOD's Operation War fighter program is 
limited to internships for those still on active duty and only in 
Federal agencies. DOD and other agencies often cite ethics obstacles to 
working closely with private organizations. Existing interpretation of 
the law by Federal agencies is not what Congress intended and 
represents a significant obstacle to collaboration between government 
and nongovernmental organizations, and which is preventing practical 
and effective public-private relationships that could dramatically 
improve support to veterans in transition. Recommendations include:

    <bullet> Review and modify ethics statutes their application in key 
agencies to ensure they do not inadvertently exclude appropriate 
public-private collaboration.
    <bullet> Members of Congress and committees interested in applying 
best practices in Veterans transition support should support 
legislation developed by Senator Bennet (CO) and already included in 
the House Defense Authorization Act (FY 2012 NDAA) as Section 594 
(Wounded Warrior Careers Program). This section requires the Secretary 
of Defense to carry out a 5-year career-development demonstration 
program within DOD's Education and Employment Initiative to apply best 
practices in career mentoring and transition support for severely 
wounded warriors of the armed forces and their spouses. This effort is 
required to be implemented in 20 geographic areas across the country 
where there are large concentrations of wounded warriors. This section 
would also require the Secretary of Defense to collect data on best 
practices, share lessons learned with other Federal agencies with 
missions to support veterans, and conduct a cost-benefit analysis of 
the results of the services provided to severely wounded warriors and 
their families. In addition, the section requires reports to Congress 
regarding program results, implementation of appropriate policies and 
programs, and associated budget actions.

    Question 2. What lessons have you learned from working with people 
classified as 100 percent disabled? What do you think we could be doing 
to give them greater access to education, training and employment 
opportunities?
    NOD's Wounded Warrior Careers program has collected survey 
information that clearly indicates that veterans who are more engaged 
in career activity have a more positive view of their own health than 
those who are not engaged. NOD's work with veterans has also 
demonstrated that even veterans rated at 100 percent disabled, some who 
have also been designated as ``unemployable,'' are capable of far more 
career activity and community involvement than our Federal programs and 
policies currently are designed to attempt to support. It is important 
to recognize that Federal agencies, which necessarily assign disabled 
veterans to categories for purposes of administering compensation and 
services, can inadvertently but negatively influence the motivation of 
disabled veterans to pursue careers. Some policies serve to impede 
veterans' views of what they are actually capable of doing. Therefore, 
a review of programs like NOD, and a new grant program that allows the 
VA and other agencies to systematically learn from private sector 
ventures like NOD's, would allow alternative approaches to be tested 
within Federal agencies. Such efforts should be designed to remove 
unintended disincentives to career and community involvement for 
severely disabled veterans and apply best practices that are efficient 
and effective in inspiring greater involvement in careers and 
advancement of self-sufficiency for disabled veterans and their 
families. Recommendations include:

    <bullet> Review disability classifications and services afforded 
the most serious ones. Assess to ensure that services which could 
enhance involvement in community and careers, such as vocational 
rehabilitation, are not denied in any form to persons who have some 
ability for engagement.
    <bullet> Support legislation developed by Senator Bennet (CO) and 
already included in the House Defense Authorization Act (FY 2012 NDAA) 
as Section 594 (Wounded Warrior Careers Program). This section requires 
the Secretary of Defense to carry out a 5-year career-development 
demonstration program within DOD's Education and Employment Initiative 
to apply best practices in career mentoring and transition support for 
severely wounded warriors of the armed forces and their spouses.

    Question 3a. Mentors play an important role in the lives of most 
people. In your testimony you referenced the especial role mentors can 
play in helping veterans with employment. My staff and I have been 
looking at developing legislation to help veterans entering or 
returning to college work with mentors to help with this transition 
including developing career opportunities and translating skills they 
learned in a military situation such as management and information 
technology to a nonmilitary situation. From your experiences do you 
have specific suggestions of policies we should include? What existing 
resources do you think we could build off in creating this program?
    Answer 3a. There are numerous philanthropic community and national 
organizations, as well as employers, which have undertaken a variety of 
mentoring programs. Each of these has its own design, focus, and goals, 
may occur inside or outside the actual workplace or educational 
institution, and may serve veterans and/or family members. NOD believes 
that it is necessary to characterize and categorize mentoring programs 
in order to best assess their intent, their metrics, and their 
effectiveness.
    NOD's mentoring approach is very holistic because it includes a 
wide variety of transition related support (career planning, benefits, 
access to key services, education, employment, and longer term self-
sufficiency) and is also designed to link veterans with other community 
resources. Other programs may have a somewhat more narrow support role 
or focus, such as employment, education, or financial planning. Some 
programs provide morale support through social activities. All have the 
potential to enrich veterans, their families and the community 
separately, or in collaboration with other resources.
    The mentoring program landscape is very diverse and growing. Many 
mentoring programs primarily focus on veterans-to-veterans or citizen-
to-veteran and provide employment advice and take place outside the 
work place (essentially familiarizing veterans with career paths, 
employer needs, or industry sectors). Other mentoring programs are 
sponsored by the employer and exist to support the veteran in the 
workplace or career path more directly. There are also mentoring 
programs that take place in educational settings, within national 
veterans' organization programs, and within government and civilian 
internship and apprenticeship programs. In Michigan, the National Guard 
has a buddy-to-buddy program that focuses on general transition and 
mental health support. Other government-sponsored programs exist as 
well that provide general career-related support or support to veterans 
starting businesses. Accordingly, NOD's recommendation is that 
mentoring programs should be looked at with specific regard to their 
purpose, beneficiaries, training or qualifications of mentors, 
location, design, metrics/measures of outcomes, relationship to 
partners or referral agencies, funding sources, cost/ease of 
replication, and likelihood of endurance, among other factors. 
Assessing effectiveness should include the opinion of the organization, 
but also extend to the veterans being served input from other relevant 
community partners that may be associated with the program or in a 
position to gauge it. Among other data collected in the NOD program, is 
a satisfaction survey, below:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Regarding existing resources that are worthy or consideration, in 
addition to a program like NOD, others include American Corporate 
Partners, Buddy-to-Buddy, Student Veterans of America, Iraq and 
Afghanistan Veterans Association, American Legion, Rutgers-University 
Veteran Mentoring Program, Joining Forces for Women Veterans mentoring 
project, Veterans Across America Champion Mentor program, VA Mentor-
Protege Program, Veterans Strategic Legal Resources Volunteer Mentor 
Program, and many that exist within corporations such as IBM.
    With regard to policies, a significant obstacle is the impediment 
to collaboration between private organizations and the Federal 
Government. Ethical statutes and regulations often prevent government 
agencies from referring separating service members to civilian/
nongovernmental organizations in a systemic and efficient manner. Some 
organizations with congressional charters, are afforded unique access 
(USO, Red Cross, and some VSOs, while other worthwhile organizations 
find direct collaboration and referral processes exceptionally 
difficult to establish with government agencies. Too often, these 
challenges undermine the efficiency of private efforts that provide 
valuable services to separating service members and their families. 
Clarification of statutes should be accomplished to specify how 
governmental/nongovernmental collaboration can be accomplished so that 
concerns about the appearance that the Government is endorsing private 
organization are addressed without undermining the potential for useful 
collaboration. The Chairman of the Joint Chiefs of Staff has described 
a ``Sea of Goodwill'' that is valuable to service members, veterans and 
families in communities across America. However, DOD too often cannot 
directly collaborate with much of the ``Sea of Goodwill.'' This 
represents a tremendous loss of opportunity and too often makes the use 
of private resources that are critical to veterans and communities that 
support them far less efficient and effective. Recommendations include:

    <bullet> Review key mentoring programs with specific regard to 
their purpose, beneficiaries, training or qualifications of mentors, 
location, design, metrics/measures of outcomes, relationship to 
partners or referral agencies, funding sources, cost/ease of 
replication, and likelihood of endurance, among other factors. Identify 
collaborative referral mechanisms and provide guidelines to Federal 
agencies to better exploit private organizations' capabilities.
    <bullet> Develop grant program to allow most effective programs to 
receive some Federal support in order to achieve scale, further 
substantiate the model, or otherwise expand the ability of the Nation 
to exploit the potential of the approach inside or outside the Federal 
Government.

    Question 3b. Please provide specific examples of what you did as 
Secretary of Homeland Security to increase the employment opportunities 
for individuals with disabilities.
    Answer 3b.

    <bullet> As I created a new Cabinet department, I determined that I 
wanted to provide as many opportunities for people with disabilities as 
possible. Employment of people with disabilities has always been a keen 
interest of mine, stretching back to my days as Governor of 
Pennsylvania when I had a disability issues agenda for my 
administration.
    <bullet> I tasked one of my senior leaders to develop a concrete 
plan to ensure that people with disabilities would get a fair 
opportunity to land positions within our new department. Please note 
that we did not set a ``quota'' or specific numerical goals for hiring 
people with disabilities. This is the approach taken in many ``EEO'' 
contexts, but we decided to pursue a different strategy. Our strategy 
was to identify this as a key leadership priority, give managers and 
supervisors all of the tools they needed to make this successful, and, 
aggressively recruit qualified candidates. We didn't place a mandate on 
any of our hiring managers; we simply worked hard to make this a ``win-
win'' opportunity for both our new Department and for prospective 
employees.
    <bullet> People told us we could not accomplish much with this 
initiative. First, they told us that we were a security/law enforcement 
agency. The government agencies that have had the best track records 
have been those with social service or education missions. We were told 
that people with disabilities are more drawn to that work, and that 
hiring managers in security/law enforcement agencies are far less 
inclined to hire people with disabilities than those in social service 
or education missions. Second, we were told that our initiative cut 
against overwhelming trends. At that time, employment of people with 
disabilities within the Federal Government as a whole was dropping by 
approximately 10 percent. We were told that our initiative could not be 
successful in the face of those trends.
    <bullet> We pressed forward. After 18 months, we evaluated the 
success of this initiative, and the results were astounding. In those 
18 months, we had seen a 300 percent increase in the number of people 
with disabilities who worked for our organization. That is, we tripled 
the number of people with disabilities we had working for us. In 
proportion to the total population of DHS HQ, people with disabilities 
went from approximately 1 percent of the workforce to over 5 percent of 
the workforce. We had people with every type of disability and in all 
kinds of positions--an attorney who was deaf, a security employee who 
had been wounded in military service, an IT manager with a mobility 
impairment that required him to use a wheelchair, and people with 
learning disabilities.
    <bullet> Our initiative showed that it can be done; increasing the 
employment of people with disabilities can be accomplished, and, even 
in a very difficult context. Employment of people with disabilities 
should be a much easier proposition now for Federal agencies because of 
the large number of young men and women who are returning from wars in 
Iraq and Afghanistan with disabilities. These are young men and women 
who have security clearances. These are young men and women who are 
very inclined to do government service; they already have pledged to 
work in the public sector. These are young men and women with 
experience. These are young men and women who have a support structure 
to help make them successful--they have the DOD's leadership and 
wounded veteran's programs available to help them. In short, Federal 
agencies attempting to hire people with disabilities are faced with 
many advantages and opportunities that I did not have when I was 
standing up the new Department of Homeland Security.
    <bullet> Specifically, here is how we pursued this initiative:

        <bullet>  Leadership. I sent a memorandum to my senior team 
        announcing this initiative. It is critical to have leadership. 
        When senior leaders take on an initiative like this, it is 
        likely to be successful. This type of initiative struggles when 
        it is a bottom-up approach; this type of initiative needs to 
        have top leadership buy-in. And my senior team knew I meant 
        business; I discussed this initiative with the leadership team 
        on multiple occasions. Many of them reacted with great 
        enthusiasm and took it on as a personal priority as well.
        <bullet>  Training for Managers and Supervisors. We required 
        every single person in DHS headquarters who was responsible for 
        hiring or interviewing new employees to take a training class 
        on this initiative. The training class was 90 minutes long, and 
        it accomplished two things. First, it showed all managers and 
        supervisors that this was a project that really mattered to me 
        and to my leadership team. When the managers saw Under 
        Secretaries and Assistant Secretaries sitting through the 
        training, with enthusiasm, it sent a message. Second, it 
        greatly minimized the reluctance many people with disabilities 
        have toward working with those with disabilities. We had 
        several current employees with disabilities speak at length 
        about how they get their jobs done, their greatest hurdles on 
        the job, and their greatest successes. This greatly increased 
        the level of comfort our managers and supervisors had because 
        it personalized the issue. Finally, it showed the managers that 
        this would be a win-win. They were under pressure to bring on 
        excellent new employees very quickly. We showed them that under 
        the Schedule A hiring authorities, if they could identify a 
        qualified applicant with a disability, they could move through 
        the Federal employment process very quickly. So, they could get 
        a qualified candidate in record-breaking time, AND make the 
        Secretary happy by meeting this new initiative. They left 
        seeing this as a win-win.
        <bullet>  Technology. We signed an agreement with the Computer/
        Electronics Accommodation Program. CAP is a Department of 
        Defense program that purchases assistive technology and related 
        services, providing training on using assistive technology, 
        advising on creating accessible electronic environments and 
        assisting in accommodating workers with disabilities. In other 
        words, when an employee needs some sort of accessible 
        technology to do his or her work, CAP buys it, installs it, and 
        trains them how to use it. For free. While CAP is located 
        within DOD, it is authorized by Congress to provide assistance 
        to employees at other government agencies. We signed a 
        Memorandum of Understanding with CAP, and then had their 
        leadership come to DHS headquarters to demonstrate the 
        technologies that could be provided for free. This allowed 
        employees with disabilities to do their work effectively. But 
        it also reassured managers and supervisors that hiring 
        employees with disabilities would be a success--because there 
        would be the technology needed to support them.
        <bullet>  Implementation. Finally, we hired a person who was 
        completely dedicated to hiring people with disabilities. She 
        attended job fairs, went to Walter Reed, and met with community 
        groups. She got to know every manger or supervisor who 
        expressed any interest in hiring a person with a disability. 
        She took resumes from qualified candidates and then became a 
        case worker to place that person in a job.
         Response to Questions of Senator Enzi by Deborah Dagit
    Question 1. In your testimony you advocate for ``employer 
incentives'' as a means of increasing workforce retention. Please give 
specific examples of how we can do that on the Federal level.
    Answer 1. Authorize employer tax incentives that are not 
administratively burdensome and that will increase the availability and 
utilization of effective workforce retention policies and programs to 
keep working adults with newly diagnosed or recently exacerbated 
medical conditions connected to the workforce.
    The private sector has developed many best practices in disability 
management. For instance, when workers acquire new disabilities, 
employers focus on timely intervention to ensure that workers have the 
necessary health care and rehabilitation supports to adapt to new 
disabilities and/or recover. During the process, employers and insurers 
work intensively to assess and restore their employees' work potential. 
Consequently, private sector disability insurers ask ``what can you do 
and how? '', rather than require individuals to prove work incapacity.
    Employer-based disability management can reduce pressure on the 
Social Security disability rolls by enabling employees to remain 
connected to the workforce. Because disability management can reduce 
Federal income support expenditures, the Federal Government should play 
an active role in supporting and encouraging private-sector efforts. In 
fact, Unum, a disability, group, and term life insurance company, 
commissioned and released the following report, Financial Security for 
Working Americans: An Economic Analysis of Insurance Products in 
Workplace Benefits Programs. (July 27, 2011).

    Question 2. How well aligned are Federal career, education, and 
training programs for individuals with disabilities?
    Answer 2. Federal career, education and training programs are 
marginally aligned for individuals with disabilities. Obviously there 
are exceptions, but generally the One-Stop Career Centers authorized 
through the Workforce Investment Act, school systems (elementary 
through post-secondary), and public training programs do not 
effectively coordinate services, lack innovative staff training, and do 
not prepare individuals with disabilities for the current or future job 
market. Innovative and successful model programs such as Career 
Opportunities for Students with Disabilities (COSD), High School/High 
Tech, Project SEARCH, Emerging Leaders, TransCen and BLNs struggle for 
funding and are seldom embraced by the traditional academic, training 
and employment systems.

    Question 3. What must be done to improve the coordination between 
employers and agencies, including the Vocational Rehabilitation 
programs that serve as resources for hiring individuals with 
disabilities?
    Answer 3. From an employer's point of view, for coordination to 
work at the local level, coordination must start at the Federal level 
and Federal agencies need to be held accountable. Not only is it 
critical that the Social Security Administration and the Departments of 
Labor, Education, Transportation, and Housing & Urban Development are 
at the table, but also Health and Human Services and its many 
components including Centers for Medicaid and Medicare Services, 
Administration for Children and Families, and the Administration on 
Developmental Disabilities must be included. A holistic, coordinated 
and simplified service delivery system must be created that can 
incorporate innovative and successful programs in every State's current 
delivery system.
    Employers, especially small and medium size companies, do not have 
the time or resources to deal with the various programs that serve 
individuals with disabilities. Neither do employers have the time or 
motivation to deal with the competition that exists among the service 
agencies nor the complicated and confusing requirements that the 
different agencies must follow to qualify for their funding.
    The key to improving coordination between employers and agencies 
including the Vocational Rehabilitation programs is to strengthen and 
grow the U.S. Business Leadership Network (USBLN) network of 
affiliates. Businesses respond to their peers and the USBLN is the 
national disability organization that serves as the collective voice of 
over 60 Business Leadership Network affiliates across North America, 
representing over 5,000 businesses. The USBLN helps build workplaces, 
marketplaces, and supply chains where people with disabilities are 
respected for their talents, while supporting the development and 
expansion of its BLN affiliates. The USBLN recognizes and supports 
best practices in the employment and advancement of people with 
disabilities; the preparedness for work of youth and students with 
disabilities; marketing to consumers with disabilities; and contracting 
with vendors with disabilities through the development and 
certification of disability-owned businesses.
    While the USBLN movement was created by employers to reach their 
peers each local BLN is a non-profit entity that requires a stable 
public-private partnership to launch, expand and sustain itself. A 
strong BLN is the ideal link between government programs, community 
service providers and the employers.
        Response to Question of Senator Enzi by Amelia Wallrich
    Question 1. During your testimony you shared your personal 
experience with the individualized education program (IEP). Please 
share some suggestions for how we might be able to foster a positive 
environment for individuals with a broad range of disabilities--
particularly those with intellectual disabilities--so that the process 
can be positive, not adversarial.
    Answer 1. I think the IEP can be very useful, but it needs to be 
broadened to include more aspects of the educational experience. My IEP 
was helpful in procuring accommodations inside the classroom, but could 
have provided more support for transition planning and extracurricular 
and community activities. As I demonstrated in my testimony, 
extracurricular and community activities provided me with important 
training for future job skills. The broad goal of the IEP should be to 
implement a plan that helps a student with any type of disability use 
their education to obtain employment. The IEP should look for ways 
students with disabilities can explore their talents in a variety of 
arenas, the same way students without disabilities do. Part of the IEP 
process is an annual meeting that reviews a student's accommodations, 
their progress in the classroom, and their needs for the upcoming 
school year. The discussion about progress should also include how the 
student is involved in school activities outside of the classroom and 
how these activities can help the student prepare for a future. The 
discussion about needs for the upcoming year should be held in the 
broader context of whether a student with a disability is being 
adequately prepared for the workforce and, if possible, higher 
education. Furthermore, the discussions about transition plans and 
preparing for employment should start at the beginning of a student's 
education, not as he/she is about to graduate.
    In terms of students with intellectual disabilities, allowing them 
to identify different community programs, jobs programs, or specialized 
higher education programs, will allow them to test many avenues for 
their development. However, it is key to have this focus early on in 
the IEP process so students and support staff have adequate time to 
identify programs and use their education to prepare them for the 
programs. Moreover, opening extracurricular and community activities to 
students with intellectual disabilities will prepare students without 
disabilities to work in a more inclusive environment, and eventually a 
more inclusive workforce.
    At a very basic level, the IEP should expect students with 
disabilities to be preparing for the workforce, just as our school 
systems are preparing students without disabilities for permanent 
employment. The IEP can help students with disabilities meet the 
expectation of employment by providing support and accommodations for 
community/extracurricular activities, by discussing transition plans 
early in a student's education, and by focusing the IEP as a tool for 
helping a student with a disability use their education to obtain 
employment.
    Thank you again for the opportunity to speak on this issue.

    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                              <all>


</pre></body></html>
